No. ______
IN THE SUPREME COURT OF THE UNITED STATES

DANIEL FREDERICKSON, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA

PETITION FOR A WRIT OF CERTIORARI

DOUGLAS G. WARD
Counsel of Record
Cal. State Bar No. 133360
wardhere@icloud.com
350 Bay Street, P.M.B. #199
San Francisco, California 94133
Phone (415) 494-9252
Counsel for Petitioner

i
CAPITAL CASE -- NO EXECUTION DATE SET
QUESTION PRESENTED FOR REVIEW
Does a state statute that requires the consent of defense counsel before a
defendant in a capital case can enter a plea of guilty violate the Sixth Amendment
and the holdings of this Court in McCoy v. Louisiana, 584 U.S. __, 138 S.Ct. 1500
(2018) and Faretta v. California, 422 U.S. 806 (1975)?

ii
TABLE OF CONTENTS

Page

QUESTION PRESENTED FOR REVIEW .......................................................................... i
TABLE OF CONTENTS ........................................................................................................ ii
TABLE OF AUTHORITIES .................................................................................................. iv
OPINION BELOW ................................................................................................................. 1
JURISDICTION ..................................................................................................................... 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ............................. 2
STATEMENT OF THE CASE .............................................................................................. 3
A. California Requires that a Represented Defendant in a Capital Case
May Plead Guilty Only With the Consent of Defense Counsel,
Whereas a Self-Represented Defendant May Not Plead Guilty Under
Any Circumstance .................................................................................................. 3
B. Procedural History ................................................................................................. 4
C. Statement of Relevant Facts ................................................................................. 5
1. The Crime ......................................................................................................... 5
2. Petitioner’s Attempts to Plead Guilty............................................................. 5
3. The State Court’s Forfeiture Conclusion ........................................................ 11
REASONS FOR GRANTING THE WRIT ........................................................................... 12
CERTIORARI SHOULD BE GRANTED TO AFFIRM THAT A
DEFENDANT IN A CAPITAL CASE HAS A SIXTH AMENDMENT
RIGHT TO SET THE OBJECTIVES OF HIS CASE BY PLEADING
GUILTY ............................................................................................................................ 12
A. Petitioner’s Sixth Amendment Right to Set the Objectives of His Case
by Pleading Guilty Was Violated by Section 1018 ............................................... 12
1. Petitioner Had a Sixth Amendment Right to Set the Objectives of
the Case by Pleading Guilty ........................................................................... 12
2. Petitioner’s Attempt to Set the Objectives of His Case by Pleading
Guilty Was Precluded by Section 1018 .......................................................... 16
3. Precluding Petitioner from Setting the Objectives of His Defense
Was Structural Error....................................................................................... 24
B. This Court Is Not Barred from Reviewing the Merits of Petitioner’s
Claim........................................................................................................................ 26

iii
1. The State Court’s Forfeiture Conclusion ........................................................ 26
2. The Record Shows that Section 1018 Precluded Petitioner from
Pleading Guilty, Not the Former Statutes Claimed by the State
Court ................................................................................................................. 29
3. Under McCoy, the Violation of Petitioner’s Sixth Amendment
Right Was Complete When the Municipal Court Denied His
Attempt to Plead Guilty .................................................................................. 33
4. After the Municipal Court Agreed with the Prosecutor that “No
Court” Could Accept Petitioner’s Guilty Plea, Requiring Petitioner
to Renew that Attempt in the Superior Court Ignore the Sheer
Futility of Such an Attempt ............................................................................ 34
CONCLUSION ....................................................................................................................... 35
APPENDICES ........................................................................................................................ 37

iv
TABLE OF AUTHORITIES
Federal Cases
Brady v. United States, 397 U.S. 742 (1970) ............................................................. 15
Faretta v. California, 422 U.S. 806 (1975) ........................................................ passim
Ford v. Georgia, 498 U.S. 411 (1991) ......................................................................... 33
Jones v. Barnes, 463 U.S. 745 (1983) ......................................................................... 13
Lafler v. Cooper, 566 U.S. 156 (2012) ........................................................................ 15
Martinez v. Court of Appeal of Cal., Fourth Appellate Dist.,
528 U.S. 152 (2000) ................................................................................................. 20
McCoy v. Louisiana, 584 U.S. __, 138 S.Ct. 1500 (2018) .................................. passim
McKaskle v. Wiggins, 465 U.S. 168 (1984) ........................................................ passim
Missouri v. Frye, 566 U.S. 134 (2012) ........................................................................ 15
North Carolina v. Alford, 400 U.S. 25 (1970) ............................................................ 15
Sullivan v. Louisiana, 508 U.S. 275 (1993) ............................................................... 26
United States v. Gonzalez–Lopez, 548 U.S. 140 (2006) ............................................. 26
Weaver v. Massachusetts, 582 U.S. __, 137 S.Ct. 1899 (2017) ............................ 24, 25
State Cases
In re Van Brunt, 242 Cal.App.2d 96 (1966) ............................................................... 33
People v. Alfaro, 41 Cal.4th 1277 (2007) .............................................................. 18, 19
People v. Amezcua and Flores, 6 Cal.5th 886 (2019)................................................. 22
People v. Anderson, 5 Cal.5th 372 (2018) .................................................................. 22
People v. Bloom, 48 Cal.3d 1194 (1989) ..................................................................... 22
People v. Brown, 59 Cal.4th 86 (2014) ....................................................................... 22
People v. Chadd, 28 Cal.3d 739 (1981) .................................................... 18, 19, 20, 21
People v. Daniels, 3 Cal.5th 961 (2017) ............................................................... 18, 22
People v. Frederickson, 8 Cal.5th 963 (2020) ..................................................... passim
People v. Mai, 57 Cal.4th 986 (2013) ......................................................... 3, 18, 22, 30
People v. Miracle, 6 Cal.5th 318 (2018) ............................................................... 18, 26
People v. Reza, 152 Cal.App.3d 647 (1984) ................................................................ 15
Constitutional Provisions
U.S. Const., Amend VI........................................................................................ passim
U.S. Const., Amend. VIII .................................................................................. 2, 21, 22
U.S. Const., Amend. XIV .............................................................................................. 2

v
Statutes
Calif. Pen. Code, § 987.9 ............................................................................................. 27
Calif. Pen. Code, § 988 ................................................................................................ 28
Calif. Pen. Code, § 1003 .............................................................................................. 28
Calif. Pen. Code, § 1017 .............................................................................................. 28
Calif. Pen. Code, former § 859a ............................................................................ 28, 31
Calif. Pen. Code, former § 1462 ...................................................................... 28, 31, 40
Other Authorities
Amsterdam, Trial Manual for the Defense of Criminal Cases (5th ed.1988) .......... 13
Bonnie, The Dignity of the Condemned, 74 Virg. L.Rev. 1363 (1988) ...................... 20
Cal. Judges Benchguides 98, Death Penalty Benchguide: Pretrial and
Guilt Phase (CJER 2007 rev.) .................................................................................. 3
Fisher, Judicial Suicide or Constitutional Autonomy? A Capital
Defendant’s Right to Plead Guilty, 65 Alb. L.Rev. 181 (2001) .............................. 15
Kostik, If I Have to Fight for My Life--Shouldn’t I Get to Choose My Own
Strategy? An Argument to Overturn the Uniform Code of Military
Justice’s Ban on Guilty Pleas in Capital Cases, 220 Mil. L.Rev. 242
(2014) ....................................................................................................................... 15

IN THE SUPREME COURT OF THE UNITED STATES

DANIEL FREDERICKSON, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF
CALIFORNIA
Petitioner, Daniel Frederickson, respectfully petitions this Court to issue a
Writ of Certiorari to review the decision of the Supreme Court of the State of
California affirming his conviction of one count of murder, and sentence of death
entered in the above case on February 3, 2020.
PARTIES TO THE PROCEEDINGS
The parties to the proceedings below are petitioner, Daniel Frederickson, and
Respondent, the People of the State of California.
OPINION BELOW
The California Supreme Court issued its opinion in this case on February 3,
2020, reported as People v. Frederickson, 8 Cal.5th 963 (2020) (Frederickson). A
photocopy of that opinion is attached hereto as Appendix A. On April 22, 2020, the
California Supreme Court issued an order denying rehearing, a copy of which is
attached as Appendix B.

2
JURISDICTION
The California Supreme Court issued its opinion on February 3, 2020, and
denied rehearing on April 22, 2020. The jurisdiction of this Court is invoked under
28 U.S.C. § 1257 (a) as petitioner asserts a deprivation of his rights secured by the
Constitution of the United States. This petition has been filed within 150 days of
the state supreme court’s denial of rehearing. Order, March 19, 2020 [in light of
pandemic, the deadline to file any petition for a writ of certiorari is 150 days from
the date of the order denying a timely petition for rehearing].
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment provides in pertinent part: “In all criminal
prosecutions, the accused shall enjoy the right . . . to have the Assistance of Counsel
for his defence.”
The Eighth Amendment provides in pertinent part: “Excessive bail shall not
be required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.”
The Fourteenth Amendment provides in pertinent part: No state shall
“deprive any person of life, liberty, or property, without due process of law . . . .”
The relevant statutes are attached as Appendix C and include the following:
California Penal Code sections 988, 1003, 1017, 1018; and former sections 859a and
1462.

3
STATEMENT OF THE CASE
A. California Requires that a Represented Defendant in a Capital
Case May Plead Guilty Only With the Consent of Defense Counsel,
Whereas a Self-Represented Defendant May Not Plead Guilty
Under Any Circumstance
California Penal Code section 1018 provides, in pertinent part: “No plea of
guilty of a felony for which the maximum punishment is death . . . shall be received
from a defendant who does not appear with counsel, nor shall that plea be received
without the consent of the defendant’s counsel.” 1
The consent-of-counsel requirement applies even where a defendant is not
represented by counsel: “A pro per defendant cannot plead guilty; a represented
defendant can.” Cal. Judges Benchguides 98, Death Penalty Benchguide: Pretrial
and Guilt Phase (CJER 2007 rev.) § 98.4, p. 98-7; see also People v. Mai, 57 Cal.4th
986, 1055 (2013).
Section 1018’s consent-of-counsel requirement was enacted before this Court’s
decision in Faretta v. California, 422 U.S. 806 (1975) (Faretta), which held that a
criminal defendant has a Sixth Amendment right to proceed without counsel. See
Frederickson, 8 Cal.5th at 990–91. The statute is at odds with Faretta and this
Court’s line of cases culminating in McCoy v. Louisiana, 584 U.S. __, 138 S.Ct. 1500
(2018) (McCoy), holding that a defendant has the sole right to control and set the
objectives of his case through the entry of plea, whether guilty or not guilty.
1. All statutory references are to the California Penal Code unless otherwise
specified. “CT” refers to the Clerk’s Transcript.

4
Petitioner was charged with a capital crime. He attempted to enter an
unconditional guilty plea the first time he was asked to enter a plea, and on
numerous occasions and before numerous courts. He attempted to plead guilty both
while represented by counsel, and after exercising his Faretta right and proceeding
pro per. No court would receive his plea. Finally, petitioner was told by the
prosecutor that he could not plead guilty in “any court.” The municipal court
agreed with the prosecutor. Petitioner bowed to the inevitable and ultimately
entered what was essentially an involuntary not guilty plea in superior court.
There is no question that petitioner was competent to make the plea decision, nor
any doubt that his attempted guilty plea was valid. Section 1018, the state statute
at issue here, violated petitioner’s Sixth Amendment right to set the objectives of his
case by pleading guilty and proceeding to the penalty phase.
B. Procedural History
In June 1996, petitioner was charged by in Orange County Municipal Court
with one count of robbery, and one count of first degree murder. As a special
circumstance was alleged—killing while engaged in the commission of an attempted
robbery—petitioner was eligible for the death penalty. Frederickson, 8 Cal.5th at
970.
A jury found petitioner guilty of one count of first degree murder, and the
attempted-robbery special circumstance allegation was found to be true.
Frederickson, 8 Cal.5th at 970. The jury then found petitioner to be sane, and, after
a penalty trial, returned a verdict of death. Ibid. The death judgment was entered

5
by the trial court on January 9, 1998.
The California Supreme Court’s opinion was issued on February 3, 2020.
Rehearing was denied on April 22, 2020. The instant petition follows.
C. Statement of Relevant Facts
1. The Crime
On June 13, 1996, petitioner walked into a home improvement store in
Orange County, California while the store manager was at the safe getting change.
Petitioner pointed a pistol at the manager and told him to put money in a bag. The
manager said nothing, closed the safe and began to walk away. Petitioner shot the
manager once in the head, killing him instantly. Frederickson, 8 Cal.5th at 970–71,
973.
2. Petitioner’s Attempts to Plead Guilty
Petitioner admitted his guilt the day after his arrest during an interrogation,
id. at 971–72, and the following day, during an interview by a newspaper reporter.
Id. at 973. On June 18, 1996, he was arraigned in the municipal court and defense
counsel was appointed. Id. at 979–80. On August 12, 1996, he again admitted
guilt during an interrogation. Id. at 973.
After having been represented by counsel for four months, and just prior to
the initial arraignment and entry of plea, petitioner’s motion to substitute counsel
was heard at a closed hearing before the municipal court. Petitioner informed the
court: “I’m pleading guilty, Sir. I mean, the only thing is, we have to go for a
penalty phase.” No mention was made at this hearing of either section 1018, or of

6
the municipal court’s ability to accept a guilty plea in a potentially capital case. At
the arraignment that followed immediately, the court directed its plea inquiry to
defense counsel, defense counsel entered a not guilty plea. Frederickson, 8 Cal.5th
at 980. One week later, petitioner’s Faretta motion was granted. The municipal
court asked no questions concerning a possible conflict between petitioner and
counsel over his decision to plead guilty, and did not inform petitioner that he could
not plead guilty in a capital case without the consent of counsel, even if he were to
discharge counsel. Advisory counsel, Edgar Freeman, was appointed. Id. at 980–
81, 1001–02.
At several subsequent proceedings, petitioner tried to plead guilty before both
municipal court and superior court judges, but was not allowed to do so.
On January 23, 1997, at a closed hearing held before a superior court judge
relating to the disbursement of investigative funds, petitioner “expressed a desire to
waive his preliminary hearing and plead guilty [.]” Frederickson, 8 Cal.5th at 984;
id. at 1029 (Liu, J., concurring). He informed the court that he wanted to go into
open court and plead guilty; and, he stated that he had spoken with his previous
counsel and that they had agreed to take the case for the penalty phase after he
pleaded guilty. Frederickson, 8 Cal.5th at 982–83. He repeated this request
several times during the hearing. Id. at 983–84. He also asked the court to
calendar the case in the superior court for arraignment and trial of the penalty
phase. Jan. 23, 1997 RT 21–22.
The superior court judge informed petitioner that “the issue as to whether or

7
not you’re going to plead guilty or waive a preliminary hearing is really not before
me today.” Id. at 983. When petitioner repeated his decision to plead guilty to the
charges (“I’m pleading guilty and that’s that”), the court responded, “Well, you
haven’t done that yet,” and petitioner replied, with apparent exasperation, “Well,
I’m attempting to very, very, very hard.” Id. at 984. The superior court judge then
made clear to petitioner that it intended to assist him “in his effort to waive the
preliminary examination and plead guilty.” Ibid. The judge promised petitioner
that he would have his clerk call the municipal court department to help petitioner
plead guilty and added, “If I have to call over there personally, I would do it.” Ibid.
On January 27, 1996, at another in camera hearing before the superior court
relating to investigative services, petitioner’s decision to plead guilty was again
discussed. Id. at 984. Freeman informed the superior court that petitioner had
informed him several times of his decision to plead guilty and to have prior defense
counsel reappointed and told petitioner: “Well, Daniel, that is your decision. That
is up to you. I will not participate in entering into a plea with you in your case.”
Id. at 985. The superior court ended the proceeding by again offering to help
petitioner waive his preliminary hearing and plead guilty by arranging for a hearing
in the municipal court. Ibid. True to its word, the superior court arranged a
hearing before the municipal court for petitioner to enter his guilty plea.
Two facts are clear from this record. First, the superior court judge believed
that the municipal court was a proper court in which petitioner could plead guilty;
no mention was made of the municipal court’s inability to accept a guilty plea in a

8
capital case. Second, the superior court, not petitioner, choose the municipal court
as the appropriate court in which petitioner could enter his guilty plea.
On January 27, 1996, petitioner appeared in open municipal court to enter
his unconditional guilty plea. He stated:
The guilt of my crime has been weighing heavily on me with a
remorseful heart. I would like to offer a change of plea and enter a
plea of guilty to murder in the first degree and admit the special
circumstance[].
Frederickson, 8 Cal.5th at 985.
Before petitioner could say anything further, the prosecutor intervened and
spoke to petitioner off the record. The prosecutor then went back went on the
record, and informed the municipal court of the following:
I had a brief conversation with Mr. Frederickson in the presence of Mr.
Freeman [advisory counsel] and I had suggested to Mr. Frederickson
that he seriously reconsider his thoughts about what he was planning
on doing.
He wants to plead guilty to the charges. I told him by law he cannot
plead guilty to a special circumstances allegation case. He understands
that, but I told him no judge can accept your plea.
Furthermore, I told him that it was my opinion Mr. Freeman would
offer him the best possible representation and suggested that he follow
Mr. Freeman’s advice on the matter.
It’s my understanding Mr. Frederickson despite Mr. Freeman’s
conversations with him and my own conversations with him in Mr.
Freeman’s presence Mr. Frederickson still wants to plead guilty,
although I think he realizes that he cannot.
I think it’s his desire to actually waive the preliminary hearing which
is still scheduled for February 5th. My last suggestion to him was not
to do anything today. That we just come on February 5th and have
more of a chance to think about it, to talk to Mr. Freeman, or talk to
his investigator and then he can decide what he wants to do on the 5th.
Frederickson, 8 Cal.5th at 1029 (Liu, J., concurring), italics in original.

9
The municipal court “endorsed the entirety of the prosecutor’s remarks to
[petitioner] by stating, ‘Well, that is all true.’” Id. at 1030 (Liu, J., concurring).
The municipal court then told petitioner to “think about this” and come back
in nine days,” and petitioner agreed. Id. at 989. But the municipal court was not
referring to petitioner’s request to plead guilty: the court had already endorsed the
prosecutor’s statements that “by law” petitioner could not plead guilty to a capital
case, and that “no judge can accept your plea.” Instead, the court was referring to
whether petitioner would want to waive the preliminary hearing in nine days: “You
will have had another nine days to think about this and decide whether or not you
truly want to waive preliminary hearing or not.” Id. at 986.
Thus, when the municipal court endorsed the entirety of the prosecutor’s
statements to petitioner—“by law” petitioner could not plead guilty to a capital case,
and “no judge” could accept the guilty plea—the court explicitly denied petitioner’s
request to plead guilty. The basis for that denial, as shown by subsequent
proceedings, was not the former statutes relied upon by the California Supreme
Court; those statutes were never mentioned at any time in the proceedings. And
although section 1018’s consent-of-counsel requirement was not explicitly
mentioned during these hearings, statements made at subsequent hearings
establish beyond any reasonable doubt that section 1018 was the basis for the
municipal court’s refusal to accept petitioner’s unconditional guilty plea.
First, at a pre-trial conference on October 20, 1997, the prosecutor made a
motion to preclude any mention of a proposed plea deal in front of the jury.

10
Petitioner replied by bringing up his earlier attempts to plead guilty, and stated:
“Counsel at that time refused to join, and the court refused to accept that or
acknowledge my plea of guilty, but it was placed on the record.” Frederickson, 8
Cal.5th at 989. The prosecutor stated: “the Penal Code specifically disallows a
guilty plea while he’s in pro. per., and no counsel has ever agreed to join in his plea,
so technically it’s an illegal, unacceptable plea and still should not be mentioned to
this jury.” Ibid. The section of the Penal Code to which the prosecutor referred,
the section that disallows a guilty plea without defense counsel’s consent, even
when a defendant is “in pro per,” is unequivocally section 1018.
Second, on October 27, 1997, petitioner sought to introduce evidence at the
guilt phase of his attempts to plead guilty, and stated:
[A] clear and distinct part of my testimony and evidence is the fact of
my remorse and confession. It would appear to a trier of fact that I am
playing a game by pleading not guilty yet introducing evidence of my
confessions of guilt. Just because my attorneys have refused to join
my plea pursuant to [section] 1018 does not alter the truth. The truth
is that I have attempted to plead guilty and accept responsibility for
the [killing]. [¶] . . . [¶] . . . The jury is going to feel like, well, if he’s
confessing and now coming in front of us and saying he’s not guilty,
he’s pulling the wool over our eyes. My veracity is at stake here, Your
Honor.”
Id. at 989–90. Petitioner then asked the court to “instruct the jury on [section]
1018,” and to explain to the jury “that the defendant has attempted to plead guilty”
but that, by law, he could not do so. Id. at 990. The motion was denied, but once
again the point is that when petitioner stated that he could not plead guilty “by
law,” he was clearly referring to section 1018 The prosecutor did not dispute
petitioner’s assertion that he had been precluded from pleading guilty by section

11
1018. In sum, the record establishes that defense counsel would not consent to
petitioner’s attempted guilty plea, and the courts and the prosecutor below were of
the view that section 1018 barred such a plea without defense counsel’s consent, and
a self-represented defendant such as petitioner could not plead guilty under any
circumstance.
From this point on, after repeatedly being rebuffed by his own counsel, the
prosecutor, and the courts in his attempt to set the objectives of his case by pleading
guilty, petitioner bowed to the inevitable and made no further attempts to plead
guilty. When the case was transferred to the superior court, he entered a not guilty
plea. Frederickson, 8 Cal.5th at 986. In context, the not guilty plea was an
involuntary assent to the inescapable and unyielding mandate of section 1018.
3. The State Court’s Forfeiture Conclusion
The California Supreme Court acknowledged that petitioner had attempted
repeatedly to plead guilty in municipal court. However, it concluded that
petitioner’s Sixth Amendment claim had been forfeited because under two former
statutes in effect in 1996, a municipal court could not accept a guilty plea in a
capital case. Frederickson, 8 Cal.5th at 996.
In a concurring opinion, Justice Liu disagreed that the Sixth Amendment
claim had been forfeited: petitioner “diligently pursued his desire to plead guilty
before trial until the prosecution informed him that he could not lawfully do so, and
the municipal court appeared to endorse that view.” Id. at 1029 (Liu, J.,
concurring).

12
A full rebuttal to the California Supreme Court’s forfeiture reasoning is set
forth in Section B, post. In sum, the former statutes relied upon by the California
Supreme Court were no mentioned during the proceedings in this case. The record
is clear that the petitioner was not allowed to plead guilty due to the
consent-of-counsel requirement in section 1018, not because former statutes
precluded a municipal court from accepting a guilty plea in a capital case.
REASONS FOR GRANTING THE WRIT
CERTIORARI SHOULD BE GRANTED TO AFFIRM THAT A DEFENDANT
IN A CAPITAL CASE HAS A SIXTH AMENDMENT RIGHT TO SET THE
OBJECTIVES OF HIS CASE BY PLEADING GUILTY
A. Petitioner’s Sixth Amendment Right to Set the Objectives of His
Case by Pleading Guilty Was Violated by Section 1018
1. Petitioner Had a Sixth Amendment Right to Set the Objectives
of the Case by Pleading Guilty
In McCoy v. Louisiana, 584 U.S. __, 138 S.Ct. 1500 (2018), a capital case, this
Court held that defense counsel cannot concede a defendant’s guilt over the
defendant’s express objections. Id. at 1505, 1509–10. The Court reasoned that the
right to defend under the Sixth Amendment is personal to the defendant, and the
decision how to plead is fundamental and must be respected to affirm the
defendant’s autonomy. Id. at 1507–08, citing Faretta v. California, 422 U.S. 806
(1975) (Faretta) & McKaskle v. Wiggins, 465 U.S. 168, 176–77 (1984) (McKaskle).
Thus, the Sixth Amendment guarantees a defendant the right to set the objectives
of his defense and prohibits counsel or a court from usurping those objectives.
McCoy, 138 S.Ct. at 1509; id. at 1512 [the trial court’s action in allowing McCoy’s

13
defense attorney to admit his guilt despite McCoy’s insistence that he was innocent
was “incompatible with the Sixth Amendment”].
A defendant sets the objectives at a criminal trial in large part by the choice
of which plea to enter: guilty or not guilty. The plea decision is arguably the single
most important decision that a defendant will make in a criminal case because it is
a choice “about what the [defendant’s] objectives in fact are.” McCoy, 138 S.Ct. at
1508, emphasis in original; see also Amsterdam, Trial Manual for the Defense of
Criminal Cases (5th ed.1988) § 201, p. 339.
Although McCoy involved a defendant who wanted his attorney to present a
defense consistent with his not guilty plea, the Court’s reasoning makes clear that a
defendant’s right to set the objectives of the case also includes the right to plead
guilty. As an example of trial decisions so fundamental that they “are reserved for
the client,” the Court included “whether to plead guilty[.]” Id. at 1508, citing Jones
v. Barnes, 463 U.S. 745, 751 (1983). Further, in the portion of the opinion setting
forth the holding, the Court declared:
With individual liberty—and, in capital cases, life—at stake, it is the
defendant’s prerogative, not counsel’s, to decide on the objective of his
defense: to admit guilt in the hope of gaining mercy at the sentencing
stage, or to maintain his innocence, leaving it to the State to prove his
guilt beyond a reasonable doubt.
McCoy, 138 S.Ct. at 1505. In this context, a “prerogative” is equivalent to a “right.”
See id. at 1511 [“the violation of McCoy’s protected autonomy right was complete
when the court allowed counsel to usurp control of an issue within McCoy’s sole
prerogative”]. And that is precisely what petitioner attempted to do in the present

14
case: plead guilty in the hope of gaining mercy and establishing mitigation at the
sentencing phase. Nowhere in McCoy did this Court limit the right of a defendant
to set the objectives of the defense to the right to assert one’s innocence. Thus,
assuming that the defendant is the captain of the ship for purposes of setting the
objectives of trial, s/he may order the ship to sail to the “not guilty” island or to the
“guilty” island. It would not make sense to acknowledge the defendant as the
captain for purposes of setting the objectives of trial, but then to limit the
destination solely to the “not guilty” island.
As a self-represented defendant, petitioner also had a Sixth Amendment right
under this Court’s Faretta line of cases to preserve actual control over the defense
he chooses to present to the jury. See McKaskle, 465 U.S. at 177. “In determining
whether a defendant’s Faretta rights have been respected, the primary focus must
be on whether the defendant had a fair chance to present his case in his own way.”
Id. at 174. If a self-represented defendant is not permitted a fair chance to present
his case in his own way, the right to self-representation has not been respected and
is violated. See id. at 173–74. In the context of this case, whether a
self-represented defendant, such as petitioner, is allowed to set the objectives of his
case by pleading guilty, determines whether he had a fair chance to present his case
in his own way.
The right to plead guilty in a capital case has its roots in the common law and
the early history of this country. See Fisher, Judicial Suicide or Constitutional
Autonomy? A Capital Defendant’s Right to Plead Guilty, 65 Alb. L.Rev. 181, 183–84

15
(2001). 2 As of 2014, “the federal government and thirty of the thirty-two states
that allow the death penalty permit the accused to plead guilty to the charged
offense.” Kostik, If I Have to Fight for My Life--Shouldn’t I Get to Choose My Own
Strategy? An Argument to Overturn the Uniform Code of Military Justice’s Ban on
Guilty Pleas in Capital Cases, 220 Mil. L.Rev. 242, 286 & n. 276 (2014); see also
Fisher, at 190–91 [only three states refuse to allow a defendant to plead guilty in a
capital case]. In 2019, the Uniform Code of Military Justice was amended to ban
guilty pleas only when “the death penalty is mandatory.” Note, A Rough Form of
Justice: Constitutional Boundaries on Capital Punishment Under the UCMJ, 97
Tex. L.Rev. 1163, 1178 & n. 137 (2020). Petitioner is aware of no other jurisdiction
that conditions the acceptance of a guilty plea in a capital case upon the consent of
defense counsel. In every other jurisdiction, so far as petitioner is aware, the choice
to plead guilty is the defendant’s alone to make, and is not conditioned upon any
2. Guilty pleas are not forbidden under the federal Constitution. Brady v.
United States, 397 U.S. 742, 752 (1970). In North Carolina v. Alford, 400 U.S. 25
(1970), the Court noted in dictum that while a defendant does not have an absolute
right under the Constitution to have his guilty plea accepted, “the States may by
statute or otherwise confer such a right.” Id. at 38, n.11. The opinion in McCoy did
not cite Alford, but did state that a defendant’s Sixth Amendment right to control
his defense includes the decision to plead guilty. California law confers a right to
plead guilty in both noncapital and capital cases. People v. Reza, 152 Cal.App.3d
647, 654 (1984); § 1018. Although the federal Constitution may not afford a
particular right to a defendant, once the state confers it, the right becomes subject to
the requirements of the federal Constitution. For example, although there is no
federal constitutional right to a plea bargain, once that right is conferred by state, a
defendant has a Sixth Amendment right to effective assistance of counsel. See
Lafler v. Cooper, 566 U.S. 156, 162 (2012); Missouri v. Frye, 566 U.S. 134, 140–44
(2012).

16
external condition, other than the requirements for a valid guilty plea – i.e., that it
be made knowingly, intelligently and voluntarily.
2. Petitioner’s Attempt to Set the Objectives of His Case by
Pleading Guilty Was Precluded by Section 1018
The record is clear that petitioner sought set the objectives of his case by
pleading guilty, and to have counsel reappointed for the penalty phase. He told the
court at the October 30, 1996, substitution of counsel hearing: “I’m pleading guilty,
Sir. I mean, the only thing is, we have to go for a penalty phase.” Frederickson, 8
Cal.5th at 980. On January 23, 1997, before a superior court judge in a closed
hearing, petitioner insisted that he wished to plead guilty. Id. at 997. On January
27, 1997, petitioner appeared again before a superior court judge in a closed
proceeding, and asked the court to “schedule me on calendar” in the superior court
to plead guilty, and for the reappointment of defense counsel for the penalty phase.
Id. at 998; Jan. 23, 1997 RT 21–22. On January 27, 1997, before the municipal
court and in open court, petitioner stated that “I would like to offer a change of plea
and enter a plea of guilty to murder in the first degree and admit the special
circumstance[].” Frederickson, 8 Cal.5th at 985. The prosecutor then discussed the
issue with petitioner and reported to the court: ”He wants to plead guilty to the
charges. I told him by law he cannot plead guilty to a special circumstances
allegation case. He understands that, but I told him no judge can accept your plea.”
Frederickson, 8 Cal.5th 1029 (Liu, J., concurring), italics in original.
Equally, there is no doubt that the consent-of-counsel requirement in section
1018 was the reason why he was not allowed to plead guilty. At the pretrial

17
conference on October 20, 1997, petitioner discussed his earlier attempts to plead
guilty, and stated: “Counsel at that time refused to join, and the court refused to
accept that or acknowledge my plea of guilty[.]” Frederickson, 8 Cal.5th at 989.
The prosecutor replied: “the Penal Code specifically disallows a guilty plea while
he’s in pro. per., and no counsel has ever agreed to join in his plea, so technically it’s
an illegal, unacceptable plea and still should not be mentioned to this jury.” Ibid.
There can be no doubt that the “Penal Code” section referred to by the prosecutor
was section 1018. Further, on October 27, 1997, petitioner sought to introduce
evidence at the guilt phase of his attempts to plead guilty, and stated: ”Just
because my attorneys have refused to join my plea pursuant to [section] 1018 does
not alter the truth. The truth is that I have attempted to plead guilty and accept
responsibility for the [killing].” Id. at 989–90. Petitioner then asked the court to
“instruct the jury on [section] 1018,” and to explain to the jury “that the defendant
has attempted to plead guilty” but that, by law, he could not do so. Id. at 990.
Again, the court and the parties understood that petitioner had attempted to plead
guilty multiple times, while represented and while self-represented, but was not
allowed to do so due to section 1018’s consent-of-counsel requirement.
The California Legislature added the consent-of-counsel requirement to
section 1018 in 1973, two years before this Court decided Faretta, at a time when
California did not recognize a constitutional right to self-representation. See
Faretta, 422 U.S. at 811–12. Although the concurring opinion in petitioner’s case
avers that “[a] long and unbroken line of precedent has upheld section 1018.”

18
Frederickson, 8 Cal.5th at 1032 (concurring opinion of Liu, J.), only two cases have
directly addressed the constitutionality of the consent-of-counsel requirement in
that statute: People v. Chadd, 28 Cal.3d 739 (1981) (Chadd); and People v. Alfaro,
41 Cal.4th 1277 (2007) (Alfaro). Several other cases recite in dicta that section 1018
precludes a defendant from pleading guilty without the consent of counsel, but these
cases did not address the claim that section 1018 violates a defendant’s Sixth
Amendment right to set the objectives of his defense. E.g., People v. Mai, 57 Cal.4th
986, 1055 (2013); People v. Daniels, 3 Cal.5th 961, 983 & n. 1 (2017); People v.
Miracle, 6 Cal.5th 318, 336, 340 (2018) [advisory counsel’s consent satisfied the
consent-of-counsel requirement in section 1018].
In 1981, the California Supreme Court first addressed the constitutionality of
the consent-of-counsel requirement in section 1018 in Chadd, a capital case where
the lower court accepted the defendant’s guilty plea over the objection of defense
counsel that his client wanted to plead guilty in order to commit suicide. Chadd, 28
Cal.3d at 744. On appeal, the California Attorney General contended, in reasoning
similar to this Court’s reasoning in McCoy, that the consent-of-counsel requirement
in section 1018 “disturbs the uniquely personal nature of the defendant’s decision to
plead guilty, denies him his fundamental right to control the ultimate course of the
case, and destroys the constitutionally established relationship of counsel as the
defendant’s assistant rather than his master.” Id. at 747, internal quotation marks
omitted. The California Supreme Court found this argument to be “both diffuse
and obscure.” Ibid.

19
Although the defendant in Chadd did not exercise his right to
self-representation, the opinion took great pains to argue that section 1018 did not
violate Faretta. It stated that Faretta “did not strip our Legislature of the authority
to condition guilty pleas in capital cases on the consent of defense counsel,” and
“does not purport to guarantee a defendant acting in propria persona the right to do
any and all things his attorney could have done.” Id. at 750. And it accused the
state of turning Faretta “on its head,” from a defendant’s right to “make a defense”
to “make no such defense[.]” Id. at 751.
In 2007, the California Supreme Court decided Alfaro, the second case to
address the constitutionality of the consent-of-counsel requirement in section 1018.
The court simply quoted at length from Chadd and reiterated its conclusion that the
statute was constitutional. Alfaro, 41 Cal.4th at 1295–1302.
The state court’s conclusion that section 1018 does not violate a defendant’s
fundamental right to set the objectives of his case is inconsistent with both McCoy
and Faretta. As noted, in McCoy, the Sixth Amendment guarantees a defendant
the right to set the objectives of his defense and that objective is set primarily
through the choice of plea. The decision how to plead is fundamental and must be
respected to affirm the defendant’s autonomy interests. McCoy, 138 S.Ct. at 1507–
08. McCoy made clear that neither defense counsel nor a court may usurp those
objectives from the defendant’s control. McCoy, 138 S.Ct. at 1509; id. at 1512.
Petitioner’s case extends that same principle to a statute that likewise attempts to
usurp the objectives of the defendant’s defense away from his control: the

20
consent-of-counsel requirement in section 1018 “represents a unique exception to
the traditional understanding that decisions about what plea to enter are reserved
exclusively to the client.” Bonnie, The Dignity of the Condemned, 74 Virg. L.Rev.
1363, 1370, n. 18 (1988).
The consent-of-counsel requirement in section 1018 is also inconsistent with
Faretta. The Faretta right guarantees a defendant a fair chance to present his case
in his own way. See McKaskle, at 173–74. Section 1018 not only interfered with
petitioner’s control of the case that he had chosen to present to the jury, it actually
precluded him from making that case. Here, the case that petitioner chose to
present to the jury was to plead guilty unconditionally, and proceed directly to the
penalty phase. But he had no fair chance to present that case because, in the words
of the prosecutor, “the Penal Code specifically disallows a guilty plea while he’s in
pro.” Frederickson, 8 Cal.5th at 989. Chadd’s conclusion that the
consent-of-counsel requirement in section 1018 is but a “minor infringement” of the
Faretta right misapprehends the fundamental nature of that right. To prohibit a
self-represented defendant from pleading guilty is no minor infringement of
petitioner’s rights, but rather a dagger to the heart of his right of
self-representation.
It is true that “the right to self-representation is not absolute.” Frederickson,
8 Cal.5th at 1032 (concurring opn. of Liu, J.), citing Martinez v. Court of Appeal of
Cal., Fourth Appellate Dist., 528 U.S. 152, 163 (2000) [no right of self-representation
on direct appeal]. However, the restrictions that may be imposed on that right

21
(gray-area defendants, the timing of the motion, courtroom behavior, direct appeals,
etc.) are qualitatively different from what is involved here. What is involved here is
whether a self-represented defendant is able to exercise actual control over the case
he chooses to present to the jury, and whether the defendant has a fair chance to
present his case in his own way. McKaskle, 465 U.S. at 174, 177. The choice of
plea sets the objectives of the defense case and affects the entire framework of the
proceedings. Where, as here, a self-represented defendant is completely disallowed
from pleading guilty in a capital case, the case that is ultimately presented can no
longer be his own; he no longer has a fair chance to present his case in his own way.
Both Chadd and Justice Liu’s concurrence in the instant case frame the issue
as a clash between autonomy interests under the Sixth Amendment and reliability
interests under the Eighth Amendment. See Chadd, 28 Cal.3d at 751–53;
Frederickson, 8 Cal.5th at 1031–32 (Liu, J., concurring). Under this view, insofar
as section 1018 serves reliability interests, the Legislature may override a
defendant’s autonomy interests.
Justice Liu states that the California Supreme Court has “never suggested
that autonomy interests implicated by a capital defendant’s desire to plead guilty
take precedence over heightened reliability interests.” Frederickson, 8 Cal.5th at
1034, emphasis added. But actually the reverse is true: apart from section 1018’s
consent-of-counsel requirement, the California Supreme Court has never held that
the state’s reliability interests trump a defendant’s autonomy interests. For
example:

22
a death judgment is not unreliable “merely because a self-represented
defendant chose not to present mitigating evidence at the penalty
phase” with the objective of obtaining a death verdict, People v. Bloom,
48 Cal.3d 1194, 1227–28 (1989);
the reliability of a death judgment is not undermined by allowing a
defendant to testify in favor of the death penalty, People v. Anderson, 5
Cal.5th 372, 422 (2018);
“reliability concerns” are not raised by the fact that a represented
defendant, at his own insistence, presented no mitigating evidence or
argument at the penalty phase, People v. Mai, 57 Cal.4th 986, 1054–56
(2013);
the Eighth Amendment’s requirements do not outweigh an individual’s
interest in self-representation, even when a defendant has chosen not
to participate in the defense, People v. Daniels, 3 Cal.5th 961, 983–86
(2017); and
a death judgment is not unreliable where counsel acceded to
defendant’s decision not to argue mitigation or to challenge the
prosecution's evidence, People v. Brown, 59 Cal.4th 86, 116 (2014).
Or, as the California Supreme Court recently stated, “Thirty years of
precedent . . . has consistently held, among the core of fundamental questions over
which a represented defendant retains control is the decision whether or not to
present a defense at the penalty phase of a capital trial, and the choice not to do so
is not a denial of the right to counsel or a reliable penalty determination.” People v.
Amezcua and Flores, 6 Cal.5th 886, 925 (2019).
Justice Liu points out that Eighth Amendment concerns were not at issue in
McCoy. Frederickson, 8 Cal.5th at 1036–37. But what he really means is that the
state in McCoy did not raise Eight Amendment reliability concerns when it defended
the defense attorney’s actions. In fact, neither the Eighth Amendment nor
reliability is mentioned in the McCoy opinion or any of the many amicus briefs filed

23
in that case. Petitioner sees this as an implicit recognition by all concerned that
there is no issue but that Sixth Amendment autonomy rights trump reliability
interests. Yet, there are passages in McCoy that are relevant to the concept of
“reliability.” The Court noted that defense counsel may have reasonably concluded
that a guilty plea “was best suited to avoiding the death penalty[.]” McCoy, 138
S.Ct. at 1508. Similarly, the Faretta line of cases have often noted that
“self-representation will often increase the likelihood of an unfavorable outcome,”
but a defendant must be allowed to make his own choices about the proper way to
protect his own liberty[.]” Ibid., see also id. at 1507 [“an accused may insist upon
representing herself—however counterproductive that course may be”]. Thus, the
over-arching theme in Faretta and McCoy is that although recognizing a defendant’s
right to control and set the objectives of his/her case may decrease the reliability of
the outcome, or decrease a defendant’s likelihood of prevailing, the right to control
and set the objectives of the defense takes precedence.
It is important to note what is not in issue here. Petitioner undoubtedly
received the advice of defense counsel regarding the plea because he was
represented by defense counsel for several months before the initial plea proceeding.
Nothing in the record suggests that petitioner was incompetent to make decisions
establishing the fundamental objectives of his defense, including the decision to
plead guilty. In fact, during the Faretta hearing, the lower court stated to
petitioner, “you strike me as a very bright person, mentally alert.” Frederickson, 8
Cal.5th 981. The issue of competence was not raised by the courts below, defense

24
counsel, advisory counsel, or respondent. Finally, the record is clear and convincing
that petitioner’s decision to plead guilty was knowing, intelligent and voluntary: a
factual basis existed for a guilty plea, as seen from petitioner’s early confessions; his
repeated attempts to plead guilty in the face of opposition show that the decision
was voluntary; and he was aware of the consequences of pleading guilty (that he
would have conceded his guilt and the case would proceed to the penalty phase).
When the lower court granted petitioner’s Faretta motion, it necessarily found that
decision to be knowing, intelligent and voluntary.
Because the right to defend is personal, and it is the defendant who will bear
the consequences of a conviction, the Sixth Amendment requires that he “be allowed
to make his own choices about the proper way to protect his own liberty.” Weaver v.
Massachusetts, 582 U.S. __, 137 S.Ct. 1899, 1908 (2017), citing Faretta, 422 U.S. at
834. Petitioner’s choice about how to present his case was to plead guilty and
proceed to the penalty phase. However, the consent-of-counsel requirement in
section 1018 precluded him from effectuating that decision because it allowed
defense counsel to override that decision, and forbade him from pleading guilty once
he chose self-representation. As a result, petitioner’s Sixth Amendment right to set
the objectives of his case and to exercise actual control over the case that he chose to
present to the jury was violated by section 1018.
3. Precluding Petitioner from Setting the Objectives of His
Defense Was Structural Error
The violation of a defendant’s “Sixth Amendment-secured autonomy” rights is
structural error. McCoy, 138 S.Ct. at 1511; see also McKaskle, 465 U.S. at 177, n. 8.

25
In McCoy, this Court discussed the three categories of structural error identified by
the Court in Weaver, 137 S.Ct. 1899. McCoy, at 1511. Weaver’s first category of
structural errors includes cases where “the right at issue is not designed to protect
the defendant from erroneous conviction but instead protects some other interest,”
such as “the fundamental legal principle that a defendant must be allowed to make
his own choices about the proper way to protect his own liberty. [Citations].” Ibid.
Here, as in McCoy, petitioner was not allowed to make his own choices about the
proper way to protect his own liberty because the consent-of-counsel requirement in
section 1018 precluded him from pleading guilty. That error is structural.
The second category of structural errors identified in Weaver and discussed in
McCoy includes cases where the effects of the error cannot be ascertained or are too
difficult to measure. McCoy, 138 S.Ct. at 1511. In McCoy, this Court concluded the
effects that flowed from defense counsel’s erroneous admission of guilt over the
defendant’s insistence were immeasurable “because a jury would almost certainly be
swayed by a lawyer’s concession of his client’s guilt.” McCoy, at 1511. Similarly, in
petitioner’s case, a jury would almost certainly be affected by being presented with a
defendant who pleaded not guilty in the face of overwhelming evidence. The forced
not guilty plea in petitioner’s case altered the unfolding of the entire case and the
entire framework of the proceedings. Had petitioner been allowed to plead guilty,
there would have been no guilt phase and defense counsel would have been
reappointed, as petitioner had requested. The strength of petitioner’s most crucial
mitigating factor, acceptance of responsibility would have been strengthened.

26
Conversely, it is simply impossible to predict with any degree of certainty the effect
that an unconditional guilty plea would have had on the jury. Any attempt to apply
a harmless-error analysis in this case “would be a speculative inquiry into what
might have occurred in an alternate universe.” United States v. Gonzalez–Lopez,
548 U.S. 140, 150 (2006).
What of the argument that a defendant forced to plead not guilty under
section 1018 can simply make no defense or confess guilt at the guilt phase?
Respondent answered that in its briefing in People v. Miracle, 6 Cal.5th 618:
“proceeding through a trial at which a defendant presents no defense or takes the
stand to confess guilt simply does not have the same force and effect as pleading
guilty in terms of accepting responsibility.” Attempting to asses this effect requires
speculation and the Sixth Amendment “requires more than appellate speculation
about a hypothetical jury’s action[.]” Sullivan v. Louisiana, 508 U.S. 275, 280
(1993).
Section 1018 distorted this case from pillar to post and completely changed
the adversarial framework of the proceedings. In these circumstances, the
consequences are impossible to measure, the errors are structural, and reversal of
the judgment is required.
B. This Court Is Not Barred from Reviewing the Merits of
Petitioner’s Claim
1. The State Court’s Forfeiture Conclusion
As noted, the California Supreme Court did not address the merits of
petitioner’s Sixth Amendment claim, concluding that the claim had been forfeited.

27
The proceedings in petitioner’s case occurred in 1996 and 1997, when there
were two levels of lower courts in California: municipal courts and superior courts.
At that time, every felony case, whether capital or not, began with a number of
proceedings in the municipal court, followed by a transfer of jurisdiction to the
superior court for proceedings and trial. 3 Thus, petitioner’s case was initiated in
the municipal court where the prosecution filed a complaint; he was arraigned in
municipal court, where a not guilty plea was entered by his counsel; his Faretta
request was heard and granted by the same municipal court judge; and, finally, a
preliminary hearing occurred before a different municipal court judge and petitioner
was held to answer. At that point, the prosecution filed an information in the
superior court, petitioner was again arraigned; and, having been precluded from
pleading guilty “in any court,” entered an involuntary not guilty plea.
There is an exception to the usual chronological unfurling of proceedings.
Hearings on investigative funds for an indigent defendant in a capital case must be
held before a superior court under section 987.9, even when the case is pending in a
municipal court. Frederickson, 8 Cal.5th at 998. However, while petitioner’s case
was still in the municipal court, two different municipal court judges presided over
section 987.9 hearings. Municipal Court RT 52–57; Municipal Court RT 68–82;
Municipal Court RT 83–102. Then, on January 23 and January 27, 1997, the

3. In 2002, the two courts were “unified” and municipal courts were abolished.
Frederickson, 8 Cal.5th at 995.

28
section 987.9 hearings were presided over by a superior court judge.
The California Supreme Court concluded that petitioner forfeited his Sixth
Amendment claim based on two former statues in effect at the time of petitioner’s
case, former sections 1462 and 859a, governing the acceptance of pleas by a
municipal court. Former section 1462 provided that a municipal court “shall have
jurisdiction in all noncapital criminal cases to receive a plea of guilty or nolo
contendere, appoint a time for pronouncing judgment under Section 859a,
pronounce judgment[.]” Frederickson, 8 Cal.5th at 995. By implication, a
municipal court “had no power to accept a guilty plea in a capital case.”
Frederickson, 8 Cal.5th at 1000. Former section 859a provided in relevant part that
a municipal court, in a noncapital case, may accept a guilty plea and appoint a time
for pronouncing judgment in the municipal or superior court. Id. at 996. Again, by
implication, that court could only accept a plea of guilty and pronounce judgment in
noncapital cases. Id. at 996. Thus, the state court concluded that at the time of the
proceedings in this case, in a capital case a defendant could not plead guilty in the
municipal court.
Unaddressed by the state court is the fact that California had and still has
separate statutes for the entry of a plea, as opposed to its acceptance. Section 988
provides that an arraignment consists of “asking the defendant” whether he pleads
guilty or not guilty. The statute makes no distinction between capital and
noncapital cases in this respect. Section 1003 provides that a “plea must be put in,
in open Court[.]” Section 1017 governs the place, form and entry of pleas, and

29
requires that all pleas be made personally by the defendant in open court.” Finally,
section 1018 states that “every plea shall be entered or withdrawn by the defendant
himself or herself in open court.” None of these statutes makes a distinction
between capital and noncapital cases with respect to the entry of the plea.
Accordingly, no statute prevented petitioner from entering a guilty plea in municipal
court.
Thus, at the time of petitioner’s case, although a defendant was allowed to
plead guilty in a capital case in a municipal court, under the former statutes that
plea could not be accepted. There was no statute governing what should be done in
these circumstances. To petitioner’s knowledge, no case has addressed that issue;
at least, until the opinion was issued in petitioner’s case, 18 years after the former
statutes were rescinded or amended. That lacuna in authority is unacknowledged
in the state court’s opinion.
2. The Record Shows that Section 1018 Precluded Petitioner
from Pleading Guilty, Not the Former Statutes Claimed by the
State Court
The problem with the state court’s reasoning is this. Neither the former
statutes relied upon by the state court nor the ability of a municipal court to accept
a guilty plea in a capital case were mentioned at the proceedings below. No judge,
no defense attorney, and no prosecutor ever stated in any proceeding here that “a
municipal court judge cannot accept a guilty plea in a capital case.”
What was mentioned was section 1018 and its consent-of-counsel
requirement. On January 27, 1997, when petitioner attempted to plead guilty

30
before the municipal court, the prosecutor explained why petitioner could not plead
guilty: “I told him by law he cannot plead guilty to a special circumstances
allegation case. He understands that, but I told him no judge can accept your plea.”
Id. at 985, 998; id. at 1029 (Liu, J., concurring). As Justice Liu points out in his
concurring opinion, the prosecutor’s use of the term “by law,” was an evident
reference to section 1018. Id. at 1030 (Liu, J., concurring). And, the prosecutor did
not say “no municipal court judge can accept your plea”; he said “no judge” and no
judge means both the municipal court and the superior court. As Justice Liu states,
the prosecutor “suggested that the legal bar to pleading guilty was unconditional for
Frederickson, who proceeded pro per.” Id. at 1030 (Liu, J., concurring). In fact, the
California Supreme Court has stated that section 1018 erects a legal bar to a
self-represented defendant’s attempt to plead guilty. People v. Mai, 57 Cal.4th 986,
1055 (2013) [a self-represented defendant cannot plead guilty in a capital case due
to section 1018].
The record shows that the municipal court responded to the prosecutor’s
statements by saying, “Well, that is all true,” thereby endorsing each of the
prosecutor’s remarks. When the municipal court agreed that “no court” could
accept petitioner’s guilty plea, that constituted a denial of petitioner’s request to
plead guilty. Thus, the California Supreme Court was wrong when it concluded
that the municipal court “never made a section 1018 ruling prohibiting defendant
from pleading guilty[.]” Frederickson, 8 Cal.5th at 1000. Petitioner’s attempted
guilty plea was before the court and it made a ruling when it denied that plea in

31
reliance on the prosecutor’s statements.

4

In later proceedings, when the parties discussed why petitioner had not been
allowed to plead guilty, no mention was made of the former statutes or a municipal
court’s inability to accept that plea. Instead, section 1018 was given as the reason
why petitioner was not allowed to plead guilty. Thus, at the October 20, 1997,
pretrial motion to forbid petitioner from mentioning his attempts to plead guilty, the
prosecutor stated: “the Penal Code specifically disallows a guilty plea while he’s in
pro. per., and no counsel has ever agreed to join in his plea, so technically it’s an
illegal, unacceptable plea and still should not be mentioned to this jury.”
4. The main opinion theorizes that the prosecutor’s statements on January 27,
1997, referred not to section 1018, but rather to the municipal court’s inability to
accept a guilty plea under the former statutes. Frederickson, 8 Cal.5th at 1000, n.
11. This theory requires several grim assumptions: the prosecutor knew that
under former sections 1462 and 859a, petitioner could not plead guilty in the
municipal court, but could plead guilty in the superior court; he knew that
petitioner was unaware of these statutes; he failed to inform petitioner, a
self-represented defendant, that statutes prevented a municipal court from
accepting his plea; he failed to inform the defendant that he could plead guilty in
superior court; and he misstated the law when he told petitioner that “no judge”
could accept the guilty plea, when he knew that a superior court judge could in fact
do so. Thus, to avoid discomfiting facts, the state court posits a prosecutor that
deviously withheld vital information from a self-represented defendant, interfered
with the defendant’s right to set the objectives of his defense, and intentionally
misled the defendant and the court by stating, falsely, that no judge could accept the
guilty plea when he knew that a superior court judge could.
Petitioner does not agree with the state court’s characterization of the
prosecutor. Petitioner’s briefing before the California Supreme Court states that he
was “in no way suggesting” that the prosecutor or the municipal court intentionally
misled petitioner. A more proper reading of the record is that the prosecutor’s
statements to petitioner and the court stemmed from his belief that under section
1018, a self-represented defendant such as petitioner could not plead guilty before
any court.

32
Frederickson, 8 Cal.5th at 989. The former statutes relied upon by the California
Supreme Court did not disallow a guilty plea from a “pro. per.” defendant; only
section 1018 did that. The prosecutor’s reference to the fact that “no counsel has
ever agreed to join in his plea” is a direct reference to the consent-of-counsel
requirement in section 1018. The former statutes relied upon by the California
Supreme Court said nothing about counsel joining a plea. The prosecutor did not
say, as the California Supreme Court did some 24 years later, that petitioner had
forfeited the issue because he attempted to plead guilty in municipal court, two
former statutes regarding the ability of a municipal court to accept a guilty plea in a
capital case, and he failed to renew his attempt in the superior court. And, on
October 27, 1997, when petitioner moved to introduce at the guilt phase evidence of
his attempts to plead guilty, he stated “Just because my attorneys have refused to
join my plea pursuant to [section] 1018 does not alter the truth.” Id. at 989–90.
The prosecutor did not contradict that statement; his silence constituted a tacit
recognition that petitioner was not allowed to plead guilty due to section 1018.
The California Supreme Court’s theory that petitioner’s attempted guilty
pleas were not accepted due to a municipal court’s inability to accept a guilty plea in
a capital case under the former statutes is unsupported by and inconsistent with the
record. The record shows that the acceptance of petitioner’s guilty plea was blocked
by section 1018 and its consent-of-counsel requirement.
If a defendant wished to plead guilty in a capital case that was pending in the
municipal court under the former statutes, how should he have proceeded? The

33
state court contrives a two-step process that petitioner was required to have
followed if he “wanted to plead guilty” while the case was pending in the municipal
court: (1) waive the preliminary hearing, and (2) enter his guilty plea in superior
court. Ibid. No capital case or secondary authority is given to support this
proposition. Instead, the sole case cited as authority for this two-step process is In
re Van Brunt, 242 Cal.App.2d 96, 101–02 (1966), a 54-year-old, noncapital, court of
appeal case where the defendants waived the preliminary hearing in order to plead
guilty in superior court. Frederickson, 8 Cal.5th 996. The “two-step process” relied
upon by the state court in this case was discussed in the facts of Van Brunt but had
nothing to do with the issue in that case. In order for a state procedural rule to
preclude federal review, the rule must be, firmly established, regularly followed, and
consistently applied. Ford v. Georgia, 498 U.S. 411, 423–24 (1991). Here, the
two-step process contrived by the state court from a half-century old, non-capital
case fails to meet either requirement.
3. Under McCoy, the Violation of Petitioner’s Sixth Amendment
Right Was Complete When the Municipal Court Denied His
Attempt to Plead Guilty
The state court’s forfeiture reasoning is also at odds with decisions from this
Court regarding when the violation of autonomy-based rights under the Sixth
Amendment, such as the right to counsel of choice, the right to self-representation,
and the right to set the objectives of the case, is complete. In McCoy, the Court
stated: “the violation of McCoy’s protected autonomy right was complete when the
[lower] court allowed counsel to usurp control of an issue within McCoy’s sole

34
prerogative.” McCoy, 138 S.Ct. at 1511.
When this principle is applied here, the result is that petitioner’s Sixth
Amendment right to set the objectives of his case by pleading guilty was violated on
January 27, 1997. On that date, the prosecutor informed petitioner and the
municipal court that “by law he cannot plead guilty to a special circumstances
allegation case. He understands that, but I told him no judge can accept your plea.”
Frederickson, 8 Cal.5th at 1029 (Liu, J., concurring). The municipal court then
agreed with the prosecutor’s statements when it said, “Well, that is all true.” Id. at
1030 (Liu, J., concurring). In other words, the court ruled that not only could
petitioner not plead guilty in the municipal court, but that no court, which would
include the superior court, could accept that plea. The choice of what plea to enter
was an issue within petitioner’s sole prerogative. McCoy, 138 S.Ct. at 1511. When
that choice was usurped by the court’s ruling, the violation of petitioner’s Sixth
Amendment right to set the objectives of his case was complete.
4. After the Municipal Court Agreed with the Prosecutor that
“No Court” Could Accept Petitioner’s Guilty Plea, Requiring
Petitioner to Renew that Attempt in the Superior Court
Ignore the Sheer Futility of Such an Attempt
Even if there were a tenable argument to be made for procedural default
here, principles of futility and reliance by petitioner upon statements made by the
prosecutor and rulings by the courts would allow this Court to rule on the merits of
petitioner’s claim.
The California Supreme Court concludes that petitioner should have
attempted to plead guilty before the superior court. Frederickson, 8 Cal.5th at 999–

35
1000. But clearly, any attempt by petitioner to have done so would have been
utterly futile. The prosecutor specifically told petitioner that “no judge can accept
your plea,” and “no judge” includes both the municipal and the superior court. The
municipal court agreed with the entirety of the prosecutor’s statements.
Hypothetically speaking, had petitioner attempted to plead guilty in the
superior court, the judge would have replied, “I cannot accept your plea because
under section 1018, and binding authority from the California Supreme Court which
I am required to follow, you need the consent of counsel to plead guilty.” The
prosecutor would state, “I told him that no judge could accept his plea, and that by
law he cannot plead guilty to a special circumstances allegation case without the
consent of counsel.” And the superior court judge would have entered a not guilty
plea. This is the essence of futility. The state courts, at all levels of the
proceedings, were given an opportunity to address the merits of petitioner’s claim:
whether section 1018 violates a defendant’s Sixth Amendment right to set the
objectives of his/her case.

The merits of that claim should be addressed.
CONCLUSION

A defendant has a fundamental Sixth Amendment right to set the objectives
of the defense by pleading guilty or not guilty, and that right adheres whether he is
represented by counsel or self-represented. Section 1018’s consent-of-counsel
requirement is a unique and impermissible intrusion into that right.
//

APPENDICES

Appendix A
People v. Frederickson, 8 Cal.5th 963 (2020)

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

8 Cal.5th 963
Supreme Court of California.
The PEOPLE, Plaintiff and Respondent,
v.
Daniel Carl FREDERICKSON, Defendant and
Appellant.

not improperly permit jury to find the special
circumstance true without finding that defendant killed
the victim while engaged in an attempted robbery.
Affirmed in part.
Liu, J., filed concurring opinion.

S067392
|
February 3, 2020
West Headnotes (56)
Synopsis
Background: Defendant was convicted in the Superior
Court, Orange County, No. 96CF1713, William R.
Froeberg, J., of first-degree murder and was sentenced to
death. Appeal was automatic.

[1]

Criminal Law
Entry

Requisites and Proceedings for

Requirement of counsel’s consent to guilty pleas
in capital cases was intended to serve as
independent safeguard against erroneous
imposition of death sentence. Cal. Penal Code §
1018.

Holdings: The Supreme Court, Chin, J., held that:
[1]

trial court acted within its discretion in finding no
irreconcilable conflict requiring counsel’s replacement
under Marsden, at pretrial stage;

[2]

defendant’s waiver of right to counsel at pretrial stage
was not rendered invalid by municipal court’s failure to
advise defendant that even if he waived right to counsel,
he still could not plead guilty;

[2]

[3]

any error in trial court’s failure to readvise defendant of
his rights, including right to be represented by counsel, at
arraignment when defendant made second waiver of right
to counsel pursuant to prosecutor’s request, was harmless
and thus did not render such waiver invalid;

Criminal Law Arraignment and plea
Criminal Law Necessity of ruling on
objection or motion
Capital murder defendant failed to preserve for
appeal his challenge to constitutionality of
statutory requirement of counsel’s consent to
guilty pleas in capital cases, where defendant’s
request to plead guilty was made in municipal
court, which lacked authority to accept plea,
rather than in superior court, and defendant
never asked superior court to make a ruling
based on such statute. Cal. Penal Code § 1018.

[4]

evidence was sufficient to support finding that
defendant’s waiver of Miranda rights was knowing,
intelligent, and voluntary;

[5]

defendant’s post-Miranda waiver question to police
officers during interview was not unequivocal invocation
of right to counsel;

[6]

trial court did not violate defendant’s right to obtain
evidence when it applied shield law to refuse to require a
reporter to disclose her notes from jailhouse interview
with defendant; and

[7]

modified pattern jury instruction on special
circumstance allegation of attempted-robbery-murder did

[3]

Criminal Law
pro se

Effect of waiver or appearing

Self-represented defendants are held to the same
standard of knowledge of law and procedure as
is an attorney, and that point remains valid even

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

in capital cases.

[7]
[4]

Criminal Law

Particular Cases

Criminal Law

Criminal Law

Mental competence in general

Discharge by Accused

Disagreements between defendant and counsel
regarding trial preparation and strategy are
tactical disagreements which do not by
themselves constitute an irreconcilable conflict
that would require counsel’s replacement under
Marsden.

[6]

Capacity and requisites in

The requirements for a valid waiver of the right
to counsel are (1) a determination that the
accused is competent to waive the right, that is,
he or she has the mental capacity to understand
the nature and object of the proceedings against
him or her; and (2) a finding that the waiver is
knowing and voluntary, that is, the accused
understands the significance and consequences
of the decision and makes it without coercion.
U.S. Const. Amend. 6.

Trial court acted within its discretion in finding
no irreconcilable conflict between defendant,
who wanted to represent himself, and counsel
requiring counsel’s replacement under Marsden,
at pretrial stage of capital murder prosecution,
where defendant’s main concern was about
whether certain witnesses would be called at
penalty phase.

[5]

Criminal Law
general
Criminal Law

[8]

Criminal Law
Criminal Law

Counsel
Review De Novo

On appeal, Supreme Court examines de novo
the whole record, not merely the transcript of the
hearing on the Faretta motion itself, to
determine the validity of the defendant’s waiver
of the right to counsel. U.S. Const. Amend. 6.

Waiver of right to counsel

Capital murder defendant’s waiver of right to
counsel at pretrial stage was not rendered invalid
by municipal court’s failure to advise defendant
that even if he waived right to counsel, he still
could not plead guilty, despite argument that
court should have known that reason for waiving
counsel was desire to plead guilty, where, when
defendant made his oral motion to proceed
without counsel, he did not say anything about
intent to plead guilty, and when defendant later
learned that he would be unable to plead guilty
as a self-represented defendant, he reaffirmed
desire to continue without counsel. U.S. Const.
Amend. 6.

[9]

Criminal Law
Advice

Duty of Inquiry, Warning, and

When a defendant waives right to counsel, trial
court need only inform the defendant in general
terms of the most common disadvantages. U.S.
Const. Amend. 6.

[10]

Criminal Law

Waiver of right to counsel

Municipal court’s Faretta inquiry was sufficient
to support valid waiver of right to counsel prior

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

to trial in capital murder case, where court
confirmed that defendant was aware of charges
against him, that he knew he faced both a guilt
phase and, if found guilty, a penalty phase, that
he could expect to have access to only limited
resources due to his incarceration, and that the
assistance of an attorney was highly
recommended. U.S. Const. Amend. 6.

[11]

Criminal Law
pro se

for abuse of discretion. U.S. Const. Amend. 6.

[14]

Any error in trial court’s failure to readvise
capital murder defendant of his rights, including
right to be represented by counsel, at
arraignment when defendant made second
waiver of right to counsel pursuant to
prosecutor’s request, was harmless, where
record showed that at subsequent proceedings,
defendant was aware of right to appointed
counsel and that explicit advisement at
arraignment would not have been likely to lead
to defendant reconsidering decision to represent
himself. U.S. Const. Amend. 6; Cal. Penal Code
§ 987(b).

Effect of waiver or appearing

Trial court acted within its discretion in denying
capital murder defendant’s request for
revocation of Faretta right to selfrepresentation, which was made at hearing on
disbursement of investigative funds, where
defendant indicated motivation for request was
his desire to change to guilty plea, and trial court
informed defendant that change of plea was not
before court and offered to help defendant with
proper procedure for change of plea. U.S. Const.
Amend. 6.
[15]

[12]

Criminal Law
general

[13]

Criminal Law

Right of defendant to counsel

A trial court’s denial of a request to revoke
Faretta right to self-representation is reviewed

Criminal Law

Particular Cases

Evidence was sufficient to support finding that
defendant’s waiver of Miranda rights at police
interview was knowing, intelligent, and
voluntary; officers explained each Miranda right
to defendant, after which he indicated that he
understood, and, following a complete
admonition, defendant began to discuss his role
in murder.

Capacity and requisites in

A motion to abandon self-representation and
have counsel reappointed must be unequivocal;
equivocation may occur where the defendant
tries to manipulate the proceedings by switching
between requests for counsel and for selfrepresentation, or where such actions are the
product of whim or frustration. U.S. Const.
Amend. 6.

Criminal Law Appointment; waiver;
appearance pro se

[16]

Criminal Law

Form and sufficiency

Under Miranda, a suspect must be warned prior
to any questioning that he has the right to remain
silent, that anything he says can be used against
him in a court of law, that he has the right to the
presence of an attorney, and that if he cannot
afford an attorney one will be appointed for him
prior to any questioning if he so desires. U.S.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

Const. Amend. 5.

rights and agreed to speak with police, any
subsequent invocation of the right to counsel
must be unequivocal and unambiguous. U.S.
Const. Amend. 5.

1 Cases that cite this headnote

[17]

Criminal Law

Waiver of Rights

After a suspect has heard and understood
Miranda rights, he or she may waive them.

[22]

Criminal Law

Effect; revocation

After a knowing and voluntary waiver of
Miranda rights, interrogation may proceed until
and unless the suspect clearly requests an
attorney.
[18]

Criminal Law
general
Criminal Law

Form and sufficiency in
Invocation of rights

Prosecution bears the burden of showing that
Miranda waiver was knowing, voluntary, and
intelligent under the totality of circumstances.

[19]

Criminal Law

[23]

Criminal Law

Reception of evidence

Evidence wrongfully obtained

On review of denial of a motion to suppress, the
reviewing court must accept the trial court’s
resolution of disputed facts and its assessment of
credibility.

[21]

Criminal Law

Effect; revocation

Capital murder defendant’s question to police
officers, subsequent to waiving of Miranda
rights, of “Hey, when am I going to get a chance
to call my lawyer? It’s getting late, and he’s
probably going to go to bed pretty soon” was not
unequivocal invocation of right to counsel and
thus did not require interrogation to cease;
reasonable officer would have concluded that
defendant’s remark expressed concern over
length of interview and a desire to contact
counsel when interview was over, and defendant
never said that he wanted to stop interview
immediately and consult counsel. U.S. Const.
Amend. 5.

On appeal, reviewing court views the evidence
in a light most favorable to an order denying a
motion to suppress.

[20]

Criminal Law

Effect; revocation

[24]

Criminal Law
Criminal Law

Right to counsel
Counsel

Police interview of capital murder suspect
without attorney present did not violate Sixth
Amendment right to counsel, where defendant
initiated contact with officers, defendant was
thoroughly advised of right to have counsel
present during interview, and defendant
unequivocally waived that right. U.S. Const.

When a defendant has waived his Miranda
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

Amend. 6.

[25]

Criminal Law
proceedings

discovery provided to defendant clearly
indicated that gun was located during post-arrest
search and not during subsequent search with
warrant, and defendant did not assert he was
provided erroneous or incomplete pretrial
discovery. Cal. Penal Code § 1538.5.
Adversary or judicial

The Sixth Amendment guarantees the accused,
at least after the initiation of formal charges, the
right to rely on counsel as a medium between
him and the state. U.S. Const. Amend. 6.

[26]

Criminal Law
general

1 Cases that cite this headnote

[29]

Criminal Law Time for filing; waiver for
failing to file or to timely file
A defendant is not permitted to raise a search
and seizure issue for the first time during trial
unless the opportunity for the motion did not
previously exist or the defendant was not aware,
prior to trial, of the grounds for the motion. Cal.
Penal Code § 1538.5.

Capacity and requisites in

A suspect has the right to knowingly and
intelligently waive the Sixth Amendment right
to counsel, especially if the accused himself
initiates communication. U.S. Const. Amend. 6.
[30]

[27]

Criminal Law

Trial court did not violate capital murder
defendant’s right to obtain evidence when it
applied shield law to refuse to require a reporter
to disclose her notes from jailhouse interview
with defendant, where defendant did not
establish that such notes existed, much less
make threshold showing that there was a
reasonable possibility, beyond mere speculation,
that information contained in reporter’s notes
would have materially assisted defense, and trial
court allowed defendant to cross-examine
reporter on all circumstances surrounding
interview with defendant, including statements
defendant might have made that were not
published. Cal. Const. art. 1, § 2; Cal. Evid.
Code § 1070.

Waiver of rights

Declaration by psychologist that capital murder
defendant was “mentally ill” did not require
invalidation of defendant’s waiver of Sixth
Amendment right to counsel during police
interview; psychologist was not cross-examined
by State at suppression hearing, and trial court
found that legal conclusion of mental illness
lacked foundation. U.S. Const. Amend. 6.

[28]

Privileged Communications and
Confidentiality Journalists

Criminal Law Time for filing; waiver for
failing to file or to timely file
Evidence was sufficient to support finding that
capital murder defendant’s mid-trial motion to
suppress gun found as result of warrantless,
post-arrest search was untimely, where

[31]

Privileged Communications and
Confidentiality Journalists

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

Factors for balancing interests of a criminal
defendant seeking to overcome the immunity
granted by the newsperson’s shield law with the
newsperson’s interests are: (a) whether the
unpublished information is confidential or
sensitive; (b) whether the interests sought to be
protected by the law would be thwarted by
disclosure; (c) the importance of the information
to defendant; and (d) whether the is an
alternative source for the unpublished
information. Cal. Const. art. 1, § 2; Cal. Evid.
Code § 1070.

[32]

Privileged Communications and
Confidentiality Journalists
Before the court may weigh the interests sought
to be protected by the newsperson’s shield law,
in response to criminal defendant’s seeking of
disclosure of unpublished information, the
defendant must first make the threshold showing
that there is a reasonable possibility that the
information will materially assist his defense.
Cal. Const. art. 1, § 2; Cal. Evid. Code § 1070.

[33]

Modified pattern jury instruction on special
circumstance allegation of attempted-robberymurder did not improperly permit jury to find
the special circumstance true without finding
that defendant killed the victim while engaged in
an attempted robbery, in capital murder
prosecution arising out of defendant’s shooting
of store manager, even though instruction
referred to whether murder “was committed in
the course of” attempted robbery rather than “in
order to carry out or advance” robbery;
instruction conveyed to jury that it could not
find special circumstance true if it found
attempted robbery to be merely incidental to
commission of murder. CALJIC 8.8.17.

Criminal Law
Evidence

[35]

Instruction on flight as circumstantial evidence
of guilt, given in capital murder prosecution,
was not impermissibly argumentative even
though it used if/then structure to state that if
flight were proved, it was a fact that could be
considered in deciding guilt, where allegedly
argumentative language did not focus on
defendant’s version of the facts. CALJIC 2.52.

[36]

Homicide

Flight or surrender

Weight and Sufficiency of

Jury instruction on attempted-robbery-murder
was not tantamount to directed verdict on issue
of whether killing occurred during commission
of attempted robbery, in capital murder
prosecution arising out of defendant’s shooting
of store manager, where instruction left it to jury
to decide whether attempted robbery was
complete before murder took place. CALJIC
8.21.1.

[34]

Criminal Law

Sentencing and Punishment
reversible error

Harmless and

Any error in trial court’s refusal of capital
murder defendant’s proposed penalty phase
instruction that would have informed the jurors
that they could not double-count the facts
underlying the special circumstance was
harmless error, where defendant did not allege
that prosecutor argued issue in a misleading
manner, nor did defendant point to anything in
record giving rise to a substantial likelihood of
double-counting.

Robbery

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

8.84.1.
[37]

Sentencing and Punishment

Instructions

In instructing jury in penalty phase of capital
murder prosecution, trial court need not define
which statutory factors could be considered
aggravating and mitigating. Cal. Penal Code §
190.3.

[41]

Sentencing and Punishment Factors
Affecting Imposition in General
Law expresses no preference as to appropriate
punishment in capital murder prosecution.

[38]

Sentencing and Punishment

Instructions

In penalty phase of capital murder prosecution,
trial court was not required to instruct jury that
defendant bore no burden to prove the existence
of mitigating factors, that a mitigating factor
need not be proven beyond a reasonable doubt,
or that the jury need not unanimously agree on
any fact or circumstance offered in mitigation.
Cal. Penal Code § 190.3.

[39]

Criminal Law

Custody and conduct of jury

[42]

Inconsistent or contradictory

To extent a discrepancy exists between the
written and oral versions of jury instructions, the
written instructions provided to the jury will
control.

[43]

On appeal, reviewing court presumes that jury
understood and followed trial court’s
instruction, including written instructions.

Sentencing and Punishment
authorizing death penalty

Provision

State’s death penalty law adequately narrows the
class of murderers subject to the death penalty
and does not violate the Eighth Amendment.
U.S. Const. Amend. 8; Cal. Penal Code § 190.3.

2 Cases that cite this headnote

[40]

Criminal Law
instructions

Criminal Law Punishment and powers of
recommendation to mercy
Trial court permissibly found capital murder
defendant’s proposed penalty phase instruction
cumulative; instruction would have told jury that
they could not allow sympathy for victim or
victim’s family to divert attention from
sentencing role or impose penalty of death as
purely emotional response to evidence, while
court had instructed jury with pattern instruction
stating that jury could not be influenced by bias
nor prejudice against defendant nor swayed by
public opinion or public feelings. CALJIC

[44]

Sentencing and Punishment
mitigating circumstances

Aggravating or

Statute setting forth the circumstances in which
the penalty of death may be imposed is not
impermissibly broad in violation of the Eighth
Amendment. U.S. Const. Amend. 8; Cal. Penal
Code § 190.2.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

[45]

Sentencing and Punishment
mitigating circumstances

While all the jurors must agree death is the
appropriate penalty to support imposition of
death verdict, the guided discretion through
which jurors reach their penalty decision must
permit each juror individually to assess such
potentially aggravating factors as the
circumstances of the capital crime, prior felony
convictions, and other violent criminal activity
and decide for himself or herself what weight
that activity should be given in deciding the
penalty. Cal. Penal Code § 190.3.

Aggravating or

Allowing the jury to consider the circumstances
of the crime in sentencing capital murder
defendant does not lead to the imposition of the
death penalty in an arbitrary or capricious
manner. Cal. Penal Code § 190.3(a).

[46]

Sentencing and Punishment

Procedure
[50]

Death penalty statute is not unconstitutional for
not requiring findings beyond a reasonable
doubt that certain aggravating circumstances
have been proved, that the aggravating factors
outweighed the mitigating factors, or that death
is the appropriate sentence. Cal. Penal Code §
190.3.

Sentencing and Punishment

Sentencing and Punishment

Instructions

In penalty phase of capital murder prosecution,
instructions on the meaning of a sentence of life
imprisonment without the possibility of parole
and on the “presumption of life” are not
constitutionally required. Cal. Penal Code §
190.3.

Unanimity

A death verdict need not be based on unanimous
jury findings. Cal. Penal Code § 190.3.

[49]

Sentencing and Punishment

Instructions

Concluding instruction for penalty phase of
capital murder trial is not impermissibly broad.
CALJIC 8.88.

[48]

Instructions

In penalty phase of capital murder prosecution,
trial court need not instruct the jury that it must
return a sentence of life without the possibility
of parole if it finds that mitigation outweighs
aggravation. Cal. Penal Code § 190.3.

[51]
[47]

Sentencing and Punishment

Sentencing and Punishment Manner and
effect of weighing or considering factors
Sentencing and Punishment Unanimity

[52]

Sentencing and Punishment

Instructions

The trial court has no obligation to delete
inapplicable statutory mitigating factors from
jury instruction in penalty phase of capital
murder prosecution, nor must it identify which
factors are aggravating and which are
mitigating. Cal. Penal Code § 190.3; CALJIC
8.85.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

General.]

[53]

Sentencing and Punishment

Proportionality

Comparative intercase proportionality review by
the trial or appellate courts in a capital murder
prosecution is not constitutionally required. Cal.
Penal Code § 190.3.

**7 ***121 Orange County Superior Court, 96CF1713,
William R. Froeberg, Judge
Attorneys and Law Firms
Michael J. Hersek, State Public Defender, and Douglas
Ward, Deputy State Public Defender,

[54]

Constitutional Law Capital punishment;
death penalty
Sentencing and Punishment Procedure
Capital sentencing scheme does not violate
equal protection by denying to capital
defendants procedural safeguards that are
available to noncapital defendants. U.S. Const.
Amend. 14; Cal. Penal Code § 190.3.

Edmund G. Brown, Jr., Kamala D. Harris and Xavier
Becerra, Attorneys General, Gerald A. Engler, Lance E.
Winters and Dane R. Gillette, Chief Assistant Attorneys
General, Julie L. Garland, Ronald Matthias and Gary W.
Schons, Assistant Attorneys General, Holly D. Wilkens,
Theodore M. Cropley, Annie Featherman Fraser, Ronald
A. Jakob and Tami Falkenstein Hennick, Deputy
Attorneys General, for Plaintiff and Respondent.
Opinion
Opinion of the Court by Chin, J.

[55]

Sentencing and Punishment
Penalty

The Death

State’s death penalty does not violate
international law or international norms of
decency. Cal. Penal Code § 190.3.

[56]

Costs

Liabilities of defendant

Restitution fine was required to be stricken from
abstract of judgment in capital murder
prosecution, where trial court did not actually
impose the fine at the sentencing hearing but
rather fine was merely added to the abstract of
judgment later. Cal. Penal Code § 1202.4.

*970 A jury convicted defendant, Daniel Carl
Frederickson, of the first degree murder of Scott Wilson.
(Pen. Code,1 § 187, subd. (a).) It found true the special
circumstance allegation that defendant committed the
murder while engaged in the commission of the attempted
robbery (§ 190.2, subd. (a)(l7)(i)), and it also found true
that defendant personally used a firearm while
committing the crime (§§ 1203.06, subd. (a)(1), 12022.5,
subd. (a)). Following a sanity trial, the jury found
defendant was sane at the time of the crimes. After a
penalty trial, the jury returned a verdict of death, and the
trial court imposed a judgment of death. This appeal is
automatic.
1

All further undesignated statutory references are to this
code.

We strike an improperly imposed restitution fine and
affirm the judgment in all other respects.

Witkin Library Reference: 4 Witkin &
Epstein, Cal. Criminal Law (4th ed. 2012)
Pretrial Proceedings, § 295 [Waiver of Counsel:
Self-Representation; Time for Request; In
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

I. FACTUAL BACKGROUND
On June 13, 1996, defendant walked into a home
improvement store and shot the store manager once in the
head, killing him. Defendant represented himself at trial
with the assistance of advisory counsel.

A. Guilt Phase

1. Prosecution Case
On June 13, 1996, 30-year-old Scott Wilson was working
as a customer service manager at the HomeBase home
improvement store in Santa Ana. The store was crowded
due to a relocation sale. Around 11:30 a.m., cashier
Maricela Saucedo asked Wilson to make change for her to
give to a customer. Wilson walked to the store’s safe,
which was located behind the customer service area.
Saucedo turned back to her customer. Within seconds, she
heard a gunshot. She turned and saw defendant waving
his gun while running out of the store. Saucedo saw
Wilson lying bleeding on the ground, holding 10 fivedollar bills in his hand.
*971 Cashier Susan Bernal saw Wilson walking toward
the customer service area and a man following him.
Wilson did not argue with anyone and did not call out for
help. Bernal saw the man shoot Wilson in the head at
close range and then run out of the store.
Loss prevention employee Christopher Rodriguez saw
defendant run out of the store carrying what appeared to
be a silver revolver. Rodriguez followed defendant
outside to an alleyway. The man entered the passenger
side of a white van, which then drove away. Rodriguez
memorized ***122 the license plate number and provided
it to the police.
Santa Ana police officers arrived at HomeBase within a
few minutes of the shooting. Officer Ronald Dryva was
on the scene for two to three hours interviewing
witnesses. During that time, defendant called and spoke
**8 to an employee. Defendant did not identify himself
by name. The employee handed the phone to Dryva.
Defendant, who believed he was still speaking with the
employee, told Dryva, “I’ve never killed or shot anyone
before. This is stupid. That is what I do for a living. Do
you understand?” Defendant continued, “You need to tell

your employees that money is not worth getting killed
over.”
Dryva asked defendant why he “pull[ed] the trigger.”
Defendant replied, “Because I was flustrated [sic]. He
didn’t do what I told him. Do you understand?”
Defendant explained that he followed Wilson to the safe.
“While I pointed the gun at him and told him to put the
money in the bag, he just started counting the money. I
told him not to count the fucking money. I told him to put
the money in the box. He just closed the safe and started
walking away. The man continued — continued to say
[that] he didn’t believe I was serious. I got mad, flustrated
[sic], so I shot him.” Defendant told Dryva he would
“probably” turn himself in that night.
The next day, June 14, 1996, police officers conducted
surveillance outside defendant’s residence. In the
driveway, officers observed a white van matching the
description Rodriguez had given. Approximately three
hours after beginning their surveillance, officers observed
the van, driven by defendant, pull out of the driveway. An
officer ordered defendant to stop and exit the vehicle.
Officers arrested him and searched his residence, a
camper located on his grandparents’ property. They found
a .32-caliber revolver containing five live rounds and one
empty round.
Santa Ana police investigators Phillip Lozano and Mark
Steen interviewed defendant shortly after his arrest on
June 14, 1996. Steen advised him of his Miranda rights.
(Miranda v. Arizona (1966) 384 U.S. 436, 86 S.Ct. 1602,
16 L.Ed.2d 694 (Miranda).) Defendant acknowledged he
understood his rights *972 and agreed to speak with the
officers. The prosecution played an audiotape recording
of the interview for the jury. Defendant admitted he had
been committing robberies for nearly 15 years and that he
walked into the HomeBase on June 13 with “a game
plan.” Defendant first looked around to “get a feel for the
place” and to identify the manager. After he identified
Wilson as the manager, he waited until Wilson needed to
retrieve change for a customer. He followed Wilson to the
safe and said, “Excuse me?” When Wilson looked up,
defendant said, “Can you put that money in this box?”
Wilson ignored defendant and began counting five-dollar
bills. Defendant showed Wilson part of his gun, and
Wilson closed the safe door and stood up. Defendant said
that “the next thing I knew, you know, [the gun] was at
his temple.” He expected Wilson to hand over the money
and was surprised and “pissed off” that Wilson refused.
After firing the shot, he ran out of the store and into his
van.
Defendant explained that he called the HomeBase store

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

approximately one hour later and asked to speak with a
manager. Crying, he told the officers, “I just laid into him.
I told him, ‘You son of a bitch. That fucker didn’t need to
die.’ ... I just told him man. He ought to make his fucking
life mission to instruct all of his employees of the proper
procedures. Just giving the money up, and that fucker
died protecting [the money].” He said he was “just tired
of ... being broke all the time” ***123 and “just got
frustrated with life and shit, and said, well, fuck it man, if
I get caught, you know, I’ll go back in for about two or
three years and, you know, ... get out and try it again
later.”
The following day, newspaper reporter Marla Jo Fisher
interviewed defendant in jail. Defendant admitted that he
was attempting to rob the store and shot Wilson during
the attempt. He explained that Wilson did not hand over
the money, and after Wilson shut the safe door, defendant
shot him. According to Fisher, defendant thought “Wilson
was brave but stupid. He admired Wilson’s courage but
thought [Wilson] was foolish for defying him and that he
should have complied with his request for money.” He
blamed HomeBase management for failing to train their
managers to hand over the money if they were robbed.
On July 25, 1996, defendant sent Officer Lozano a letter
asking to speak with the investigators again. Lozano and
Steen interviewed defendant at the jail on August 12.
Defendant explained that he had “held back **9 some
info” regarding accomplices. He stated that he got the gun
from his “associate” John McCanns. McCanns met
defendant in January or February of 1996 and, at some
point, moved into defendant’s camper. McCanns and
defendant discussed the robbery beforehand, and after the
murder, McCanns took the spent shell casing.
*973 Dr. Richard Fukomoto, the pathologist who
performed the autopsy on Wilson’s body, testified that
Wilson died from a single gunshot wound to the head. He
opined that the barrel of the gun was six to twelve inches
from the wound when the gun discharged.

2. Defense Case
Defendant represented himself during the guilt phase. He
called as a witness clinical psychologist Dr. Martha
Rogers, who had evaluated defendant regarding his sanity
at the time of the offense. Dr. Rogers met with defendant
for almost 15 hours and reviewed defendant’s juvenile
records and prior psychological testing records. Dr.

Rogers found no neurological injury or impairment, and
no loss of cognitive function. She found him to be “a
pretty high functioning individual.” She noted in her
report that defendant “most likely has not had a memory
lapse or loss of functioning such that he did not know or
understand his behavior was wrong or illegal as he
claims.”
The defense also called psychologist Dr. Roberto Flores
de Apodaca. Dr. Flores interviewed defendant for
approximately four hours and reviewed several relevant
records. Dr. Flores did not conduct any clinical testing,
although he reviewed reports from testing previously
conducted. He opined that defendant suffered from a
personality disorder that expressed itself with narcissistic
and antisocial features. He concluded that no psychiatric
condition prevented defendant from knowing the
difference between right and wrong, and that defendant
was not insane.
Attorney Wayne Dapser testified that he was defendant’s
mentor through an organization called Volunteers in
Parole. Dapser explained that he was struck by
defendant’s high degree of optimism, but there were also
times when defendant got very depressed. Defendant
often told Dapser that he turned down criminal activity,
such as using stolen credit cards or getting involved in
drugs. Dapser never felt that defendant was a danger to
society. Dapser agreed that defendant had “fairly good
cognitive abilities,” including the ability to plot and
strategize.
Defendant’s 22-year-old cousin, Nick Peres, testified that
defendant had previously ***124 asked Peres to kill him.
When Peres refused, defendant asked him to find an
assassin to kill him. He also asked Peres to help him get a
gun. Peres testified that defendant used drugs “all the
time.”
Jan Moorehead testified that she became defendant’s
probation officer when he was 14 years old. Moorehead
said that defendant was a “high control” parolee because
of his high violence potential and mental instability. She
tested him for drugs approximately twice a month. When
defendant told *974 Moorehead he felt depressed, she
encouraged him to write down positive thoughts.
Moorehead had referred defendant to the Volunteers in
Parole program because she thought he was “worth taking
a chance on.”

B. Sanity Phase

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

1. Defense Case
Defendant’s advisory counsel conducted the sanity phase.
Roger Wunderlich, a staff psychiatrist at Atascadero State
Hospital, testified that he examined defendant on June 17,
1994, to determine, in connection with a different case,
whether defendant was a Mentally Disordered Offender
(MDO).2 After interviewing defendant for 30 minutes, Dr.
Wunderlich concluded defendant was an MDO. As a
result, defendant was paroled to the hospital for treatment.
Dr. Wunderlich **10 testified that defendant wanted
treatment under the MDO law because he “was afraid of
what he might do if paroled” to the streets. On crossexamination, Dr. Wunderlich said that the basis of his
MDO determination was that defendant had “violent
fantasies” that had, in fact, resulted in an assault. He
further testified that defendant was a “coherent, fairly
intelligent individual.” Dr. Wunderlich opined that
defendant was able to distinguish between right and
wrong.
2

The Mentally Disordered Offenders Act (§ 2960 et
seq.) “addresses the treatment and civil commitment of
offenders who suffer from a ‘severe mental disorder.’ ”
(People v. Blackburn (2015) 61 Cal.4th 1113, 1127,
191 Cal.Rptr.3d 458, 354 P.3d 268.) “The term ‘severe
mental disorder’ means an illness or disease or
condition that substantially impairs the person’s
thought, perception of reality, emotional process, or
judgment; or which grossly impairs behavior; or that
demonstrates evidence of an acute brain syndrome for
which prompt remission, in the absence of treatment, is
unlikely.” (§ 2962, subd. (a)(2).)

Psychiatrist Joseph Chong-Sang Wu testified that he
performed positron emission tomography (PET) scans on
defendant. Defendant’s scans showed an impairment in
his frontal lobe function, which has been reported in
patients with attention deficit hyperactivity disorder. The
scans also showed increased activity in defendant’s
temporal lobes, which is found in people with
“aggressive, explosive, [and] violent” behavior.
Steven Clagett, a therapist and case manager for Health
Care Agency of Orange County, testified that he
evaluated defendant at the state hospital on May 5, 1995,
about a year before the Wilson murder, and concluded
that defendant was not suitable for release into the
community. Clagett explained that defendant had not met
the agency’s release criteria, which included 12 months of
nonaggressive behavior, cooperation with the treatment
plan, and participation in the groups, programs, and

activities that the agency recommended. During the
evaluation, Clagett saw no evidence of a thought *975
disorder, hallucinations, or suicidal or homicidal ideation.
Defendant told Clagett that he had “played up”
psychiatric symptoms in the past, trying to “get out of the
prison system” and “into the hospital.”
Defendant testified at the sanity trial. He said he was first
hospitalized when he was 13 years old. He had been
running ***125 away from home, sleeping on the streets,
and getting into fights at school. Defendant described
“thought patterns” and “fantasies” that led him to “act out
and to destroy or to hurt things.” Sometime after his first
hospital stay, defendant started taking medication that
helped him control these thoughts. Defendant was
hospitalized again two years later. At that time, he was
diagnosed as having latent schizophrenia with explosive
personality disorder.
Defendant spent his juvenile and adult life in and out of
institutions. He underwent several mental health
evaluations while incarcerated and testified that he
functioned better while medicated, both in and out of
prison. Defendant was in prison in 1994, and before his
scheduled release, defendant indicated to prison mental
health professionals that he wanted to be sent to the state
hospital as an MDO because he did not receive mental
health treatment on the streets. Following two evaluations
and a parole hearing, he was committed to Atascadero on
July 1, 1994. Defendant was released from the state
hospital on August 22, 1995. He did not meet with the
parolee outpatient doctor between the date of his release
and the date of the instant offense, nearly 11 months later.
He developed suicidal thoughts and, on June 13, 1996
(the date of the Wilson murder), acquired a gun with
which to commit suicide. He drove to HomeBase later
that day to buy material for a project he was working on
with a friend. He carried the gun with him in case he
found the opportunity to commit suicide while running
errands. Defendant testified that he did not intend to rob
the store.
On cross-examination, the prosecutor questioned
defendant about several theft incidents: stealing cigarettes
in 1977; possession of a stolen moped in 1978; stealing
clothing from a department store in 1979; possession of a
stolen moped in 1980; stealing a car in 1981; and armed
robbery of a market in 1982. Defendant also
acknowledged that he pleaded guilty for stabbing a fellow
inmate in September 1984, although he claimed he did not
actually stab the individual. Regarding a conviction for
assault with a deadly weapon in 1991, defendant testified
that someone was attacking another person, and defendant
tried to intervene. The family of the attacker paid

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

defendant to plead guilty, and he agreed to do so because
he “needed an excuse” to go back to prison. He denied
that he committed the instant offense in order to go back
to prison.
The prosecutor asked defendant about his testimony on
October 7, 1997, when he testified as a gang expert for
the defense in an **11 unrelated trial. The *976
prosecutor in that case had asked defendant if he
considered himself to be insane, and defendant replied,
“No.” The prosecutor asked if he considered himself
insane at the time he murdered Wilson, and defendant
replied, “No, sir. I presented that as a defense, and it’s up
to a jury to decide whether I was insane at the time the
crime occurred.” Defendant also admitted testifying in the
other trial that he had claimed to have violent fantasies so
that he could get into Atascadero.

2. Prosecution Case
The prosecution recalled Drs. Flores and Rogers. Dr.
Flores testified that he reviewed defendant’s medical
records and spoke with defendant, and that he did not
believe defendant met the criteria for insanity under
section 1026, which governs insanity pleas. Dr. Flores
opined that at the time of Wilson’s murder, defendant
knew the difference between right and wrong, and he
chose to ignore it. Dr. Flores believed defendant’s
diagnosis of attention deficit hyperactivity disorder was
***126 “debatable” and irrelevant to the issue of insanity.
Dr. Rogers reviewed defendant’s medical records and
examined his behavior before, during, and after the
Wilson murder. In her opinion, defendant was sane when
he murdered Wilson.
Phillip Kelly, a staff psychiatrist at Atascadero, testified
that he had daily contact with defendant between July
1994 and September 1995. Defendant told Dr. Kelly that
he had “manipulated the examiners” into declaring him to
be an MDO. When Dr. Kelly told defendant that because
he manipulated himself into the hospital, he would “have
to deal with the problem,” defendant replied, “Well you
are the experts, you shouldn’t have let me get away with
it.” Dr. Kelly ultimately diagnosed defendant with
antisocial personality disorder and substance abuse. He
did not believe defendant belonged in the MDO program,
concluding he did not have a mental illness.
The jury found that defendant was sane at the time he

committed the crime.

C. Penalty Phase

1. Prosecution Evidence
Four witnesses testified regarding defendant’s prior
criminal activity. Jeff Tawasha testified that he was
working as a cashier at a market on October 25, 1981.
Around 3:00 p.m., defendant, wearing a stocking over his
face, entered the market with a sawed-off shotgun and
said, “This is a robbery. Give me the money or I’ll blow
your head off.” A female customer walked into the *977
store, and defendant pointed the shotgun at her and
ordered her behind the counter. He then ordered Tawasha
to take cash out of the cash register and put the money in
his bag. Defendant ran out on foot and entered a waiting
vehicle.
Correctional Officer Grant Henry testified that on January
12, 1983, he conducted a search of defendant’s jail cell
and found a “manufactured stabbing implement.” The
weapon had been made by sharpening a metal rod.
Correctional Lieutenant Richard Martinez testified that on
March 7, 1984, he was working as a floor officer in the
prison where defendant was housed. At approximately
8:00 p.m., Martinez was talking to an inmate when
defendant began stabbing the inmate. Defendant stabbed
the inmate three to seven times before Martinez separated
them.
Deputy Sheriff Bradford Blakely testified that on
November 15, 1990, he was working in a men’s jail
where defendant was housed. While searching
defendant’s cell, he found a five-inch stabbing instrument
fabricated from a mop bucket.
The prosecutor also introduced defendant’s testimony
from an unrelated trial, in which he admitted that in 1991
he had stabbed a man six times.
Four witnesses testified regarding defendant’s mental
health. Dr. Flores testified that defendant’s personality
disorder had minimal to no impact on his free will. He
explained that defendant’s “history is not indicative of
someone who acts in an irrational manner, out of touch
with reality in ways that don’t make sense. His history is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

consistent with someone who violates the rights of others,
consistently.” Dr. Hannah McGregor, a psychiatrist **12
with the California Department of Corrections, testified
that she certified defendant as an MDO in 1994 after she
reviewed reports from Dr. Wunderlich and another
psychiatrist, Dr. Steven Moberg. Neurologist Dr. Helen
Mayberg testified that she reviewed defendant’s PET
scans. She disagreed with many of Dr. Wu’s findings and
methods. She further opined that defendant’s frontal lobes
were “relatively normal” and ***127 that his temporal
lobes were normal. Psychologist Dr. Leisla Howell
testified that she had evaluated defendant in 1982 at a
state prison following his armed robbery conviction. She
testified that defendant did not take responsibility for his
actions and blamed “everything on everybody for his
difficulties.”
The prosecution also recalled reporter Marla Jo Fisher,
who testified that defendant had told her that he had
committed the robbery because he wanted to go back to
prison. He told Fisher that he did not like “life on the
outside.” He appeared apologetic for shooting Wilson, but
blamed HomeBase officials for failing to teach employees
to hand over money without arguing.
*978 Officer Mark Steen testified regarding his interview
of defendant, conducted with Officer Lozano, on June 14,
1996. When Steen asked defendant why he tried to
commit a robbery, defendant replied that he was “tired of
being broke all the time” and “want[ed] to be rich.”
Defendant told the investigators that he was “in [his] right
mind” during the attempted robbery.
Three witnesses provided victim impact testimony.
Maricela Saucedo, the cashier who asked Wilson for
change, testified that Wilson had been her manager for
two months, during which time she saw him nearly every
day. She described Wilson as outgoing, understanding,
friendly, and a hard worker. She felt responsible for his
death, because if she had not asked him for change, he
would not have walked to the safe and would not have
been killed. Wilson’s aunt, Joyce Fyock, testified that
Wilson’s father had died when he was a toddler and that
she had helped his mother care for him. She described
Wilson as outgoing and said he cared about people. She
discussed visiting Wilson in the hospital before he died
and having to take Wilson’s mother to the mortuary.
Wilson’s brother Kirk testified that because he was 10
years older than Wilson and because their father had died,
the brothers had a father-son relationship. He described
walking into Wilson’s hospital room and staying in the
room until Wilson was pronounced dead about five hours
later. He testified that Wilson enjoyed working at
HomeBase because he liked being around people, but he

said that Wilson was also trying to pursue a career in
sports broadcasting. Wilson had just become an intern at a
local network and produced one sports promotional
segment before he died.

2. Defense Evidence
The defense recalled Dr. Wu, who disagreed with Dr.
Mayberg’s conclusions and interpretations of defendant’s
PET scans.
Defendant testified on his own behalf, with advisory
counsel conducting the examination. He explained that his
family moved frequently and that his father left when he
was five years old. He struggled to fit in with his peers
and even with members of his own family, because he
was a “mixture of Scandinavian and Hispanic.” He
attended school through seventh grade and applied for his
General Educational Development (GED) certificate in
1982, at the age of 19, while incarcerated. Defendant
served in the United States Navy for five months in 1982,
receiving an honorable discharge. From the time he was
12 years old until trial, when he was 34 years old,
defendant estimated that he spent 15 years in group
homes, juvenile halls, or state institutions.
Defendant studied religion and language while
incarcerated, and he spent time with several different
religious communities. In 1992, he earned vocational
certificates in drywall installation and small engine repair.
In 1995, he *979 earned four computer and programming
certificates. Defendant explained that he felt motivated
and was able ***128 to focus on his studies because of
the “external controls” that existed in prison and because
of the guidance provided by deputies, counselors, and
correctional officers.
Defendant further testified that he was “groomed” to join
the Mexican Mafia gang **13 beginning in 1981 and that
he officially joined the gang in 1984. He withdrew from
the gang in 1985 after he disagreed with the gang’s
decision to go to war with other prisoners. Shortly after, a
fellow Mexican Mafia member stabbed defendant with a
welding rod, because leaving a gang was punishable with
death. Defendant’s subsequent prison sentences had to be
served in protective custody.
He said that he asked his mother several times to attend
the penalty phase of his trial, but she did not want to
testify, because her husband’s parents did not know about

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

the offense, and she worried they would find out about it
if she testified on behalf of her son.
Defendant asked the jury to return a verdict of death. He
explained that he had wanted to be put to death since the
day of his arrest. The death penalty would be a “fitting
end to a ruined life.” He also said that he would “like to
apologize” and that he had never denied his guilt. He said
that he had tried to plead guilty and “acknowledge full
responsibility to all of the charges, including the special
circumstances, even though I don’t believe in my mind
that they’re true.”
The defense recalled Volunteers in Parole mentor Wayne
Dapser. Dapser testified that he knew defendant
“probably better than anyone in this courtroom.” He
believed defendant was one of the most intelligent men he
knew. He stated that defendant “had a childhood from
hell” and “a history that very few of us can even
comprehend.” Dapser did not believe defendant deserved
the death penalty.

II. GUILT PHASE ISSUES

A. Self-Representation and Desire to Plead Guilty
Defendant raises several arguments in relation to his
decision to represent himself and his desire to plead guilty
in the municipal court prior to his preliminary hearing.
Before addressing the specific arguments, a detailed
description of the relevant procedural history is necessary.

1. Procedural Background
On June 18, 1996, defendant appeared for arraignment
before a municipal court magistrate. (Former §§ 859,
859b, 860.) At defendant’s request, the *980 court
appointed the public defender to represent him, and the
arraignment was continued to a later date. On July 16,
1996, defendant filed a handwritten motion seeking to
proceed in propria persona (in pro. per.). At a hearing in
the municipal court on August 22, 1996, the court asked
defendant, “You are willing to roll the dice all by yourself
without any skills of an experienced attorney to assist

you?” Defendant replied that he did not trust the public
defender’s office. The court warned defendant that, as a
self-represented defendant, he would not have special
privileges, that his “opposition will be a skilled and
talented attorney,” that if convicted he could not later
complain he did not have effective assistance of counsel,
and that he would be unable to change his mind during
the trial. Defendant’s counsel then asked the court to defer
ruling on the motion, and the court continued the matter
to the date of the scheduled arraignment.
At the arraignment on October 30, 1996, defendant
informed the municipal court that he did not then want to
represent himself, but he reserved the right to represent
himself at some later point. Additionally, defendant
requested a hearing pursuant ***129 to People v.
Marsden (1970) 2 Cal.3d 118, 84 Cal.Rptr. 156, 465 P.2d
44 (Marsden), asking the judge to replace one or both of
his attorneys. The court conducted a Marsden hearing in
chambers. Defendant explained that he had “zero
confidence” in his two attorneys and that he did not want
“that vigorous of a defense.” He continued, “I want them
to let me — allow me to steer them away from certain
witnesses that I don’t want called onto the stand because
of — you know, I just — I just don’t want certain
information coming out.” Defendant clarified that he was
concerned about information coming out in the penalty
phase of the case, not the guilt phase. The court
explained, “Well, you’re here now facing just a
preliminary hearing, where the People put on some of
their evidence and the defense puts on nothing. So you’re
talking about way down the line at trial and then
sentencing rights.” Defendant replied that he wanted to
waive the preliminary hearing and plead guilty. He
acknowledged that his attorneys were not ineffective and
that he was not yet **14 ready to represent himself, but he
wanted counsel who would not work as hard. The court
explained that it could not remove counsel for working
too hard and denied the Marsden motion.
After holding the Marsden hearing, the municipal court
arraigned defendant. Defense counsel acknowledged
receipt of a copy of the complaint, waived reading and
advisement, and entered a plea of not guilty. Defendant
then said, “Over my objection.” Defense counsel clarified,
“What he means is he would like to have the complaint
read.” Defendant did not offer any further clarification,
and the court noted his objection on the record.
One week later, on November 7, 1996, defendant made an
oral motion in the municipal court to proceed in propria
persona. Defendant said that he had *981 a GED
certificate, was aware he faced the death penalty, and had
previously represented himself in superior court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

proceedings. Defendant’s only concern was whether, as a
self-represented defendant, he would still have the ability
to request funding for an investigator, and the court
assured him he would. The court stated that it found
defendant to be “a very bright person, mentally alert,” and
it granted the motion to proceed in propria persona.
Defendant then accepted the court’s offer to appoint
advisory counsel, and the court appointed Edgar Freeman.
The court went through defendant’s list of requested jail
privileges related to his status as a self-represented
defendant, and it granted much of what defendant sought.
At an in camera hearing on December 5, 1996, defendant
asked the municipal court to award funds for a guilt phase
investigator and a penalty phase investigator. The court
explained that the district attorney had not yet declared an
intent to pursue the death penalty and therefore the case
was not yet a capital case. Defendant responded that the
prosecutor had stated in open court that it was a capital
case. Defendant also informed the court that he had
submitted a letter to the prosecution offering “to stipulate
to the murder in the first degree and admit all special
circumstances and waive all appellate rights in order for a
sentence of life without the possibility of parole.”
Defendant said, “The district attorney has refused that.
It’s a death penalty case, your honor. I wish it wasn’t.”
The court then explained that it only needed to provide
sufficient investigation funding to allow defendant to
have a fair preliminary hearing; after that, assuming
defendant was held to answer in the superior court, the
superior court would be responsible for disbursing
investigation funds. The court then appointed an
investigator and explained that the investigator ***130
could submit bills to the court for the court’s discretionary
consideration.
On December 17, 1996, the municipal court called
defendant back for another in camera hearing, revoking
all prior orders concerning jail privileges and substituting
a new order that, among other things, granted no more
than $3,000 in investigative funds. When the court denied
defendant’s request for an additional $3,000 for office
supplies, defendant complained that the county provided
the public defender’s office with money for office
supplies, and he accused the court of not taking his case
seriously. The court replied that “this is a very serious
case. I want you to appreciate your life is on the line and
that you’re not, despite what you think, you are not, I
don’t believe, capable of adequately representing
yourself, that is, doing a legally competent job. ... I want
you to know that my offer to appoint counsel for you
remains outstanding.” Defendant replied, “I’ll accept if
you are going to appoint secondary counsel on the case
under [section] 987, subsection (d), which grants a second

attorney to a capital defendant.” The court asked whether
defendant intended to continue to act as his own lead
counsel, and defendant *982 responded in the affirmative,
indicating that his request was for appointment of
cocounsel in place of advisory counsel. The court denied
the request without prejudice.
On December 20, 1996, the municipal court called
defendant back once again, this time to make
clarifications regarding its prior orders. Defendant
expressed frustration with some of his self-representation
jail privileges, mentioning in particular his inability to
reach his investigator via collect calls. The court then
acknowledged its previous denial of defendant’s **15
request for secondary counsel, and it offered defendant
the opportunity to show a need for such counsel.
Defendant argued that, given the limitations of his jail
privileges, it would help him to have second counsel to
prepare briefs and motions, and to make appearances on
minor matters. He told the court that writing motions was
“a little bit above” him but added, “I am stubborn enough
that if the court does not grant me a second chair, I will
continue to fight the case as best I can.” The court granted
defendant’s request and appointed Edgar Freeman as
“second counsel,” vacating Freeman’s appointment as
advisory counsel. The significance of that change was
apparently that Freeman could make appearances on
behalf of defendant.
As of December 24, 1996, the case was being formally
treated as a capital case, and a superior court judge, sitting
in camera, was handling disbursements of investigative
funds under section 987.9. (See Anderson v. Justice Court
(1979) 99 Cal.App.3d 398, 402, 160 Cal.Rptr. 274
[“[T]he superior court is the only court with jurisdiction
to entertain an application for funds under section
987.9.... A magistrate has only such powers as are
statutorily granted and it cannot be said that section 987.9
clearly grants this power to the magistrate.”].) For
purposes of the preliminary hearing, however, the case
was still before a municipal court magistrate. (See former
§ 860.)
On January 23, 1997, a superior court judge held an in
camera hearing to discuss defendant’s request to replace
his investigator. The court stated at the outset of the
hearing that it had received notice that an officer had
discovered a file folder containing nude photographs in
defendant’s jail cell. This discovery indicated a violation
of defendant’s self-representation jail privileges, because
the photographs were being stored in plastic sheet
protectors that defendant had requested from the court for
purposes of preparing his defense. When the superior
court judge raised the issue, defendant stated, “Well, if the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

court would ***131 please hear my first motion, this
matter could become moot very fast.”
Defendant then informed the superior court that he
wanted to “go public” — as opposed to in camera — and
plead guilty. He requested the court schedule the penalty
phase for February 5, 1997, and reappoint the public *983
defender’s office to represent him. He stated that he had
already spoken with his previous attorneys and that they
had agreed to take the case for the penalty phase after he
pleaded guilty. The superior court judge asked defendant
if he had spoken to cocounsel Freeman and received
advice about pleading guilty. Defendant replied that he
had spoken to Freeman but “this is not on the advice of
anyone, sir. This is a decision that I have made based on
the fact that there is absolutely zero potential for me
receiving any type of justice whatsoever.” He expressed
frustration over his inability to get a working computer in
jail and his difficulty placing unmonitored telephone calls.
He continued, “I do not care to allow the State of
California, the government, to run over me. I just want to
go ahead, plead guilty, go and put my life in front of a
jury, and let the jury decide whether or not I should get
this death penalty, or whether I should get life
imprisonment. But as to the matter of death, I don’t even
want to play these games anymore. I want to just go
ahead, I want to enter a plea of guilty. I have a right to do
so, and I wish to do so at this time. [¶] I’ve spoken with
counsel. And like I said, I would drop my pro. per. status
and accept the public defender’s office to represent me as
far as the penalty phase is concerned. And if the court
would take my waiver, I’m making a knowing and ...
intelligent waiver.”
As noted, this request to plead guilty arose while the
superior court was holding an in camera hearing solely to
address the disbursement of investigative funds under
section 987.9. The case was not otherwise in the superior
court, since the preliminary hearing had not occurred and
defendant had not been held to answer. The superior court
therefore explained to defendant that “the issue as to
whether or not you’re going to plead guilty or waive a
preliminary hearing is really not before me today.”
Defendant replied, “I would like it to be before you
because it would handle a lot of these other matters.”
**16 Defendant explained that he had received money
from the court for investigation services but had not
received an investigative report, and he had to “keep
coming to this court and begging for phone calls, begging
for materials, begging for this, while a criminal
investigation needs to proceed.” The court then stated that
it would hold a hearing the following week on the
allegations surrounding defendant’s jail violation, and it

temporarily suspended his self-representation jail
privileges. The court continued, “But I would be frank
with you and say this is one of the things I tried to talk to
you [about] out front when I kind of bottom-lined it [on]
one of the first days you were in court. I sincerely hope
you’re sincere in wanting these privileges to defend
yourself.” Defendant replied that he did not believe the
court had ever been sincere in its efforts to assist him. He
added that he would “still like to make the matter moot”
by waiving the preliminary hearing, pleading guilty, and
accepting the appointment of the public defender’s office
for the penalty phase.
*984 The court then agreed to help defendant. It said,
“With your permission and request, I’ll contact — or have
my clerk contact — the judicial officer in Division [311
(where the preliminary hearing was scheduled to be held)
] and request your matter be calendared as soon as
possible because you want [¶] ... [¶] ... to consider ***132
a change of plea or waiver of preliminary hearing ....”
Later, defendant said, “I’m pleading guilty and that’s
that.” The court responded, “Well, you haven’t done that
yet,” and defendant said, “Well, I’m attempting to very,
very, very hard.” When asked whether he had discussed
the matter with cocounsel Freeman, defendant answered
that he had done so. Defendant discussed the difficulties
he was having with his investigator, and he repeated that
the problem would be moot if the court would allow him
to plead guilty. The court then told defendant, “That part
of the matter’s not before me. [¶] ... [¶] Okay. Those
matters are pending in [Division] 311 [of the municipal
court] [¶] ... [¶] We’re going to make arrangements to
have you brought over to [Division] 311, and you can
discuss your desires there.”
After more discussion concerning defendant’s request to
replace his investigator, the court denied that request. The
court then made clear that it intended to assist defendant
in his effort to waive the preliminary examination and
plead guilty. The court said, “[We]’ll do our best to get
you calendared in [Division] 311 [of the municipal court]
as soon as possible. I can’t guarantee when that will be.
As soon as we’re in recess, I’m sure my clerk will call
over there. If I have to call over there personally, I would
do it.” The hearing then came to an end. The minute order
for the hearing reflected the court’s effort to help
defendant achieve his aim of pleading guilty. It states:
“Defendant’s oral request that preliminary hearing in Div.
311 be advanced and waived, that defendant be allowed to
change his plea to a guilty plea and that the Public
Defender be appointed to represent defendant. Court
orders that Div. 311 be contacted by the Court clerk and
that defendant’s requests be expedited in Div. 311.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

A few days later, on January 27, 1997, the superior court
held another in camera hearing, this time to address
defendant’s violation of his self-representation jail
privileges. The court stated, “It appears to me in this short
time that I have been involved in this case that Mr.
Frederickson at least has a dual focus in what he is doing.
Part of it he is trying to defend himself, and part of it he is
trying to use his pro. per. privileges to do other things that
common sense would indicate just aren’t appropriate and
are a violation of the implicit terms of the pro. per.
privilege. [¶] ... He was in court the other day on the 23rd.
He indicated that, well, judge, you don’t have to worry
about it. I am going to waive the preliminary hearing. I
am going to plead guilty. ... [¶] He wanted me to contact
the judge at [Division] 311 to see if he could be brought
over there to waive [the] preliminary hearing or whatever
he was talking about doing.”
*985 Cocounsel Freeman then represented to the court
that defendant was dedicated and committed but had, in
his opinion, a low tolerance for frustration. Freeman
stated that after a “series of frustrations,” including a
poorly functioning computer, defendant **17 told him
that he wanted to “ ‘go in and plead guilty in muni[cipal]
court and get this over with and get it on the road and let
the public defender handle [the] penalty phase.’ ”
Freeman continued, “I told him, ‘Well, Daniel, that is
your decision. That is up to you. I will not participate in
entering into a plea with you in your case.’ I have told
him that.”
Lieutenant Danny Jarvis, a facility master at the intake
center that housed defendant, then testified about
defendant’s violation of his self-representation jail
privileges. Jarvis explained that defendant was “very,
very inconvenient to care for,” because he was in
protective custody due to his self-representation. He
continued, ***133 “What I see that he is doing within the
jail environment, he is using his pro. per. status to
manipulate his status within the areas that he is housed to
try to bring more credence on him so he can have some
sort of status and role within the jail population, which
makes it doubly difficult.” After more discussion among
the court, defendant, and cocounsel Freeman, the court
revoked defendant’s self-representation jail privileges. It
closed the hearing by again offering to help defendant to
waive his preliminary hearing and plead guilty, if that was
what defendant still wanted: “We will call [the municipal
court judge assigned to your case] and see if she can work
it in sometime late this morning, or sometime this
afternoon.”
That afternoon, defendant appeared in the department of
the municipal court assigned to his case. He explained to

the court, “[T]he guilt of my crime has been weighing
heavily on me with a remorseful heart. I would like to
offer a change of plea and enter a plea of guilty to murder
in the first degree and admit the special circumstances and
waive all appellate rights at this time.” The prosecutor
then requested to speak with both defendant and Freeman
off the record. Following that conversation, the prosecutor
informed the municipal court that he had explained to
defendant that “by law he cannot plead guilty to a special
circumstances allegation case.” The prosecutor continued,
“I told him no judge can accept your plea. [¶]
Furthermore, I told him that it was my opinion Mr.
Freeman would offer him the best possible representation
and suggested that he follow Mr. Freeman’s advice on the
matter. [¶] It’s my understanding Mr. Frederickson —
despite Mr. Freeman’s conversations with him and my
own conversations with him in Mr. Freeman’s presence
— Mr. Frederickson still wants to plead guilty, although I
think he realizes that he cannot.” The prosecutor added, “I
think it’s his desire to actually waive the preliminary
hearing which is still scheduled for February 5th. My last
suggestion to him was not to do anything today. That we
just come on *986 February 5th and have more of a
chance to think about it. To talk to Mr. Freeman, or talk to
his investigator, and then he can decide what he wants to
do on the 5th.”
The court reminded the parties that the People also have a
right to a preliminary hearing, and even if defendant
waived his right, the People could choose not to do so.
The prosecutor stated that the People were not prepared to
waive the preliminary hearing at that time, although the
People might be willing to do so on the scheduled date of
the hearing. The court then explained to defendant, “If the
People are unwilling at this time, or at any time, to waive
the preliminary hearing, it doesn’t really matter [that you
want to do so], because they have the right to have a
preliminary hearing in your case. ... [¶] So [the
prosecutor] is telling me that he is not prepared today to
make that decision even if you are. So to have further
discussions and undertake further proceedings today
would be — for lack of a better word — a waste of time,
and I am going to suggest that we terminate these
proceedings today and that you come back on February
5th. [¶] ... You will have had another nine days to think
about this and decide whether or not you truly want to
waive [the] preliminary hearing or not.”3 Defendant
agreed with that solution.
3

The magistrate’s statement implied that defendant
could waive the preliminary hearing despite his selfrepresented status. The text of former section 860 and
relevant case law suggest otherwise. (See former § 860,
Stats. 1963, ch. 1174, § 2, p. 2670 [“... a defendant
represented by counsel may ... waive his right to an

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...
examination ...,” italics added]; People v. White (1963)
213 Cal.App.2d 171, 174, 28 Cal.Rptr. 656 [“Unless
represented by counsel a felony defendant who appears
before a committing magistrate may not ... waive a
preliminary examination (Pen. Code, § 860).”].)
Defendant did, however, have the assistance of Edgar
Freeman who, per the magistrate’s order, was serving
as “second counsel.” We need not decide whether, with
Freeman serving in that role, defendant could waive the
preliminary hearing, because, as noted in the main text,
the People were not prepared to join such a waiver.

**18 ***134 On the scheduled date of the preliminary
hearing, February 5, 1997, defendant never requested to
waive the hearing, and the hearing proceeded. At the end
of the hearing, defendant was held to answer the
allegations of the complaint in the superior court.
By information filed in the superior court on February 18,
1997, the People formally charged defendant with one
count of first degree murder, an enhancement allegation
of personal use of a firearm, and a robbery-murder special
circumstance allegation. On February 24, 1997, defendant
appeared in superior court with cocounsel Freeman and
entered pleas of not guilty and not guilty by reason of
insanity. Defendant said nothing about a desire to plead
guilty. At an appearance the following day, defendant
confirmed that despite the revocation of his selfrepresentation jail privileges, he still intended to represent
himself. Then, during an in camera hearing on February
*987 28, 1997, the court granted defendant’s request to
appoint a second investigator, tasked solely with
interviewing his family. The court also reinstated
defendant’s jail privileges.
On March 14, 1997, the assigned trial judge began
presiding over defendant’s case. On the same date, the
prosecutor requested the court take a second waiver of
defendant’s right to counsel (see Faretta v. California
(1975) 422 U.S. 806, 95 S.Ct. 2525, 45 L.Ed.2d 562
(Faretta)), because the first waiver occurred before the
People had formally declared an intent to seek the death
penalty. Defendant stated he understood his rights and the
maximum sentence he faced, and he signed a written
Faretta waiver.
At a pretrial hearing on July 25, 1997, defendant told the
court, “I’m contemplating withdrawing my right to ...
plead in propria persona and ask for counsel to start
representing me.” Later in the hearing, defendant
explained, “[O]ne of the reasons why I would even be
considering giving up my pro. per. status would be [that] I
feel, if counsel represents me, the court will give counsel
the funds to do it, whereas they won’t give it to me.” The

judge presiding over the trial of a capital case does not
oversee disbursement of investigative funds (§ 987.9,
subd. (a)), and therefore the court responded, “It’s an
issue I’m not involved in, so I really can’t comment.”
On August 1, 1997, the trial court held a Marsden hearing
at defendant’s request, despite the circumstance that
defendant was representing himself. Defendant explained,
“I wanted to let the court know, if the court was not
aware, that I’m in pro. per. I’m lead counsel; he is second
chair. ... This hearing was not about [cocounsel] Freeman
or whether or not he was effectively representing me. It’s
about whether I’m effectively representing myself as a
pro. per. defendant. It sounds funny, a pro. per. defendant
stating that he’s complaining of ineffective representation,
but through all the information that I’ve been filing, the
court has doggedly refused to give me funds for my
investigation. ... And if that continues, your honor, then
obviously I’m going to lose. And I feel if I continue to
represent myself, it would be a danger to my life, and
therefore, if the ***135 court steadfastly refuse[s] to
acknowledge that the defendant needs [section] 987.9
funds for an investigation, then the defendant would
request that the court appoint counsel, [so] that the court
will give money to defend me, which is wrong. I
shouldn’t have to waive my right for defending myself
just so I can have money to effectively represent myself,
that’s what I’m complaining of.”
The court reminded defendant that by representing
himself, he could not claim incompetence of counsel.
Defendant replied, “I’m complaining actually of
incompetence of judiciary in this case.” The court then
informed defendant that an appointed attorney would not
be given unlimited investigative funds, *988 and it asked,
“So I just need to know if you want to represent yourself,
or do you want [the] court to appoint counsel for you?”
Defendant **19 said that he was withdrawing his
Marsden motion and would continue to represent himself.
The same issue came up again on September 25, 1997.
During an in camera hearing, the court read aloud a note it
had received from defendant: “ ‘Sir, I am requesting an ex
parte, in camera hearing with you to discuss the very
possible mechanics of turning my case over to appointed
counsel. My reasons are legion, but the biggest is the fact
that the court will not give me investigative funds to fully
investigate my cause. I know that it is only due to my
persistence of wanting pro. per. that this is the case. [¶] So
the issues to be discussed by us in camera and ex parte
are: 1. Appointment of new lead counsel; 2. Appointment
of new second chair; 3. Hear any argument by defendant
and counsel for the purpose of retaining some of the pro.
per. privileges now enjoyed to assist in the speedy

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

transition of case information.’ ” The note continued: “
‘Sir, I know that a lot of men go pro. per. just to confound
the court’s process. I assure you my intention was
honorable. It is still my desire to defend myself, but I
cannot present a case to [the] jury without a full and
proper investigation. The court will be open to new
counsel’s requests, where they were closed to mine. I
know that this will also probably make me waive more
time, a thing the court knows I do not want to do, but if
we could just sit down and work out a good plan of action
immediately, I am sure the end of justice will be served.
Thank you, sir.’ ”
After a lengthy discussion, the court explained: “I’ve
always been prepared to work with you, sir, the problem,
sir, I can’t hold you to a lower standard than I hold
everybody else. Someone who represents himself or
herself basically steps into the shoes of someone that is
represented by counsel, and so there aren’t any special
privileges. Your pro. per. privileges I don’t think are
special privileges; we basically afford you ... the
privileges so you can basically be able to do the same
things that a lawyer can do if the lawyer were
representing you.” Defendant then asked to speak with
cocounsel Freeman off the record. On return, the court
asked defendant to state his “desire with respect to
representation.” Defendant asked to discuss funding first,
“because that’s the primary motivation of whether or not I
will continue in pro. per. or give the case over to counsel,
but I mean it seems dangerous ... for me to set precedent
for the rest of the pro. per. [litigant]s if all the court has to
do is set a few harsh standards, and then the pro. per.
[litigant] can lay down, and counsel can step in and
automatically start getting funds available to do the case.
It would be dangerous to future pro. per. [litigant]s of the
United States of America.” The court then reminded
defendant that there was no guarantee that an attorney
would receive investigative funds that defendant had not
received, and the court ***136 asked defendant if he
wished to continue to represent himself. Defendant said,
“I intend to proceed in pro. per.”
*989 On October 20, 1997, during a pretrial conference,
the court initiated a discussion on cocounsel Freeman’s
role during trial. The court opined that “advisory counsel
is just that, an advisory counsel. There is no such thing as
a pro. per. cocounsel.” Defendant explained that Freeman
had been relieved as advisory counsel and appointed as
cocounsel under section 987, subdivision (d). Defendant
further related that he planned to present the opening
statement and closing argument, and to conduct the
examination of witnesses during the guilt phase, while
Freeman would conduct the sanity phase. Defendant and
Freeman planned to share responsibilities during the

penalty phase, with defendant conducting the opening
statement and the examination of witnesses, Freeman
conducting the direct and redirect examination of
defendant, and both of them conducting the closing
argument.
The court responded, “I’m somewhat puzzled at [the
municipal court’s] order, because the research that I’ve
done indicates that there is no such thing as cocounsel
when the defendant is pro. per.” The court continued,
“The reason I need to sort that out is because in my
opinion, if you are going to be representing yourself, you
need to represent yourself in all processes — all stages of
the trial.” After defendant requested that Freeman be
permitted to object on his behalf throughout trial, the
court said, “No. You **20 either represent yourself or you
don’t. He can certainly advise you. ... But in terms of him
acting as your attorney, either he is your attorney or he’s
advisory counsel, which means it’s up to you.” After
more discussion, the court concluded that the previous
appointment of Freeman as second chair was
inappropriate. It said: “So I’m going to be conducting this
trial as if you are representing yourself in pro. per., and
Mr. Freeman is your advisory counsel.”
Shortly thereafter, the prosecutor asked the court to order
defendant not to mention any discussion of a proposed
plea deal in front of the jury. Defendant replied by
bringing up his earlier attempt to plead guilty: “In
Division 311 and on several occasions the defendant has
attempted to plead guilty, and the prosecution has refused
to accept that. Counsel at that time refused to join, and the
court refused to accept that or acknowledge my plea of
guilty, but it was placed on the record.” The prosecutor
acknowledged that “[i]t was placed on the record” but
pointed out that “the Penal Code specifically disallows a
guilty plea while he’s in pro. per., and no counsel has ever
agreed to join in his plea, so technically it’s an illegal,
unacceptable plea and still should not be mentioned to
this jury.” The court agreed that defendant’s attempts to
plead guilty were not relevant for the guilt phase, but the
question was “open to argument” for the sanity and
penalty phases.
On October 27, 1997, defendant again asked the court to
allow him to introduce evidence of his attempts to plead
guilty. He said, “Your honor, a clear and distinct part of
my testimony and evidence is the fact of my *990
remorse and confession. It would appear to a trier of fact
that I am playing a game by pleading not guilty yet
introducing evidence of my confessions of guilt. Just
because my attorneys have refused to join my plea
pursuant to [section] 1018 does not alter the truth. The
truth is that I have attempted to plead guilty and accept

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

responsibility for the [violation of section] 187. [¶] ... [¶]
... The jury is going to feel like, well, if he’s confessing
and now coming in front of us and saying he’s not guilty,
he’s pulling the wool over our eyes. My veracity is at
stake here, ***137 your honor.” Defendant then asked the
court to introduce evidence that defendant had “accepted
responsibility and guilt for [his] crime and [had]
attempted to plead guilty.” The court reminded defendant
that such information was relevant at the penalty phase
but not at the guilt phase. Defendant nonetheless asked
the court to “instruct the jury on [section] 1018.” He
asked that the court explain to the jury “that the defendant
has attempted to plead guilty” but that, by law, he could
not do so. The court again ruled that the information was
relevant only at the penalty phase, not at the guilt phase.

2. Right to Plead Guilty
Defendant contends that he was denied his personal and
fundamental right to control his defense when the trial
court, acting under compulsion of section 1018, refused to
permit him to plead guilty without the consent of counsel.
We conclude his claim is forfeited because he never
moved to plead guilty in the superior court, thereby
causing that court to invoke section 1018.

a. Legal Background
[1]

Section 1018 provides in relevant part: “No plea of
guilty of a felony for which the maximum punishment is
death, or life imprisonment without the possibility of
parole, shall be received from a defendant who does not
appear with counsel, nor shall that plea be received
without the consent of the defendant’s counsel.” This
portion of section 1018 was added in 1973 as part of an
extensive revision to the death penalty laws. (Stats.1973,
ch. 719, § 11, p. 1301.) “The fact that the requirement of
counsel’s consent to guilty pleas in capital cases was
enacted as part of [an extensive revision of the state’s
death penalty laws in response to Furman v. Georgia
(1972) 408 U.S. 238, 92 S.Ct. 2726, 33 L.Ed.2d 346]
demonstrates that the Legislature intended it to serve as a
further independent safeguard against erroneous
imposition of a death sentence.” (People v. Chadd (1981)
28 Cal.3d 739, 750, 170 Cal.Rptr. 798, 621 P.2d 837
(Chadd).)

Two years after the 1973 amendment to section 1018, the
high court recognized a defendant’s constitutional right to
self-representation **21 in Faretta, supra, 422 U.S. 806,
95 S.Ct. 2525. In Chadd, supra, 28 Cal.3d 739, 170
Cal.Rptr. 798, 621 P.2d 837, we *991 reconciled the right
of self-representation with section 1018’s requirement
that counsel consent to a guilty plea in a capital offense.
Defense counsel in Chadd informed the trial court that the
defendant wanted to plead guilty against counsel’s advice,
and counsel explained that he would not consent to his
client entering such a plea, because the defendant’s desire
was to commit suicide. (Id. at p. 744, 170 Cal.Rptr. 798,
621 P.2d 837.) The defendant admitted to the court that he
had attempted suicide, and if he did not receive the death
penalty, he would “just have to do it myself.” (Id. at p.
745, 170 Cal.Rptr. 798, 621 P.2d 837.) Defense counsel
reminded the court that a guilty plea by his client was
without his consent, and the prosecutor agreed that
section 1018 prohibited the court from accepting such a
plea. (Chadd, at p. 745, 170 Cal.Rptr. 798, 621 P.2d 837.)
The trial court ruled that if it found the defendant
competent to act as his own attorney under Faretta, it
could accept his guilty plea despite section 1018. (Chadd,
supra, 28 Cal.3d at p. 745, 170 Cal.Rptr. 798, 621 P.2d
837.) The court questioned the defendant, found him
competent under Faretta, and then, without actually
dismissing defense counsel, allowed the defendant to
plead guilty to the information. (Chadd, at p. 745, 170
Cal.Rptr. 798, 621 P.2d 837.) On appeal, the Attorney
General argued that section 1018 could be construed
***138 to permit a capital defendant to discharge his
attorney, represent himself, and plead guilty. (Chadd, at p.
746, 170 Cal.Rptr. 798, 621 P.2d 837.) We rejected this
contention, however, stating that the language of section
1018 plainly required the consent of counsel to plead
guilty. (Chadd, at p. 746, 170 Cal.Rptr. 798, 621 P.2d
837.) Construing the statute “to permit a capital defendant
to discharge his attorney and plead guilty if he knowingly,
voluntarily, and openly waives his right to counsel”
“would make a major portion of the statute redundant,”
we reasoned, because “that is precisely what the third
sentence of section 1018 expressly authorizes noncapital
defendants to do.” (Chadd, at p. 747, 170 Cal.Rptr. 798,
621 P.2d 837.)
We noted the larger public interest at stake in guilty pleas
in capital offenses, as well as the Legislature’s
“increasing concern to insure that no defendant enter a
guilty plea in our courts without fully understanding the
nature and consequences of his act.” (Chadd, supra, 28
Cal.3d at pp. 748–749, 170 Cal.Rptr. 798, 621 P.2d 837.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

We read Faretta as not affecting the Legislature’s
authority to condition guilty pleas on counsel’s consent.
(Chadd, supra, 28 Cal.3d at p. 750, 170 Cal.Rptr. 798,
621 P.2d 837.) “Nothing in Faretta, either expressly or
impliedly, deprives the state of the right to conclude that
the danger of erroneously imposing a death sentence
outweighs the minor infringement of the right of selfrepresentation resulting when defendant’s right to plead
guilty in capital cases is subjected to the requirement of
his counsel’s consent.” (Chadd, at p. 751, 170 Cal.Rptr.
798, 621 P.2d 837.) We further concluded that Faretta did
not grant a capital defendant the right *992 to discharge
counsel and waive his automatic appeal, explaining that
the state, too, had an indisputable interest in correct
judgments in capital cases. (Chadd, at p. 752, 170
Cal.Rptr. 798, 621 P.2d 837.)
We again held section 1018 to be constitutional more than
25 years later in People v. Alfaro (2007) 41 Cal.4th 1277,
63 Cal.Rptr.3d 433, 163 P.3d 118 (Alfaro). In Alfaro, the
defendant accepted complete responsibility for the
offenses in a videotaped confession on the day of her
arrest. (Id. at p. 1295, 63 Cal.Rptr.3d 433, 163 P.3d 118.)
Eleven days before jury selection began, defense counsel
informed the trial court that the defendant wanted to plead
guilty to the special circumstances against counsel’s
advice and asked the court whether it believed he should
withdraw from the case. (Ibid.) The defendant explained
to the court that she wanted to plead guilty because she
feared for her safety and that of her family should she
implicate her accomplice in the crime. (Id. at p. 1296, 63
Cal.Rptr.3d 433, 163 P.3d 118.) The court responded that
under section 1018 she could not plead guilty against her
attorney’s advice. The court also declined to remove
defense counsel from the case, concluding that **22 the
disagreement between counsel and the defendant involved
trial tactics and therefore did not require counsel’s
removal. (Alfaro, at p. 1296, 63 Cal.Rptr.3d 433, 163 P.3d
118.) The prosecutor then argued during the penalty phase
that the defendant had not accepted responsibility and
lacked remorse, and the jury did not hear evidence that
the defendant had attempted to enter a guilty plea. (Id. at
pp. 1296–1297, 63 Cal.Rptr.3d 433, 163 P.3d 118.)
We acknowledged the defendant’s argument that “a
defendant has the ultimate, fundamental right to control
his or her own defense,” but concluded that section 1018
was “one of several exceptions to the general rule.”
(Alfaro, supra, 41 Cal.4th at p. 1298, 63 Cal.Rptr.3d 433,
163 P.3d 118.) We noted that “[t]he statute constitutes a
***139 legislative recognition of the severe consequences
of a guilty plea in a capital case, and provides protection
against an ill-advised guilty plea and the erroneous
imposition of a death sentence.” (Id. at p. 1300, 63

Cal.Rptr.3d 433, 163 P.3d 118.) We rejected the
defendant’s assertion that the trial court improperly failed
to inquire into her reasons for desiring to plead guilty and
that had it done so, it would have discovered her intent to
demonstrate remorse. We noted that nothing in the record
supported the defendant’s assertion on appeal that her
desire to plead guilty was motivated by a desire to
establish a defense of remorse or to establish that she
accepted responsibility for the murder. (Id. at p. 1302, 63
Cal.Rptr.3d 433, 163 P.3d 118.) “Accordingly, the trial
court reasonably concluded that the dispute between
defendant and her counsel did not implicate a
constitutionally protected fundamental interest that might
override the plain terms of section 1018.” (Alfaro, at p.
1302, 63 Cal.Rptr.3d 433, 163 P.3d 118.) We left
undecided whether a defendant might be able to make a
successful as-applied challenge to the constitutionality of
section 1018 in a case in which the evidence of guilt was
very strong and the defendant’s express reason for
wanting to plead guilty was to lay the foundation for a
remorse argument at the penalty phase.
*993 Most recently, in McCoy v. Louisiana (2018) –––
U.S. ––––, 138 S.Ct. 1500, 200 L.Ed.2d 821 (McCoy), the
United States Supreme Court held that “it is the
defendant’s prerogative, not counsel’s, to decide on the
objective of his defense: to admit guilt in the hope of
gaining mercy at the sentencing stage [of a capital case],
or to maintain his innocence, leaving it to the State to
prove his guilt beyond a reasonable doubt.” (Id. at p. ––––
, 138 S.Ct. at p. 1505, italics added.) In McCoy, the
defendant’s retained counsel determined that the best
strategy for avoiding a death sentence was to concede
guilt as to the three murders during the guilt phase and
plead for mercy during the penalty phase. (Id. at p. ––––,
138 S.Ct. at p. 1506.) The defendant was “ ‘furious’ ”
with counsel’s strategy and wanted to pursue acquittal
instead. (Ibid.) The trial court denied the defendant’s
request to remove his counsel, as well as defense
counsel’s request to be relieved if the defendant secured
other counsel. (Ibid.) The court told counsel that it was his
decision whether to concede guilt or put on a defense
case. (Ibid.) Defense counsel then acknowledged during
his opening statement to the jury that the evidence
unambiguously showed that the defendant had committed
the murders. Nonetheless, the defendant testified he was
innocent. (Id. at p. ––––, 138 S.Ct. at p. 1507.) The jury
found the defendant guilty and then returned three death
verdicts. (Ibid.)
The defendant, represented by new counsel,
unsuccessfully moved for a new trial on the ground that
the court had violated his constitutional rights by allowing
counsel to concede his guilt over his objection. (McCoy,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

supra, ––– U.S. ––––, 138 S.Ct. at p. 1507.) The
Louisiana Supreme Court affirmed the trial court’s ruling,
concluding that the concession was permissible because
defense counsel reasonably believed that admitting guilt
offered the defendant the best chance to avoid a death
sentence. (Id. at p. ––––, 138 S.Ct. at p. 1507.)
The United States Supreme Court reversed the judgment.
(McCoy, supra, ––– U.S. ––––, 138 S.Ct. at p. 1512.) It
explained that the Sixth Amendment guarantees a
defendant the right to make a defense; it “ ‘speaks of the
“assistance” of counsel, and an assistant, however expert,
is still an assistant.’ **23 ” (Id. at p. ––––, 138 S.Ct. at p.
1508.) While some decisions, such as trial management,
are best left to ***140 counsel, “[s]ome decisions ... are
reserved for the client — notably, whether to plead guilty,
waive the right to a jury trial, testify in one’s own behalf,
and forgo an appeal.” (Id. at p. ––––, 138 S.Ct. at p. 1508,
italics added.) The high court held that a defendant who
“insist[s] on maintaining her innocence at the guilt phase
of a capital trial” cannot be forced by counsel to concede
guilt. Defense counsel can make strategic choices
regarding how best to achieve a defendant’s objectives,
but the defendant chooses those objectives. (Ibid.)

Supp. 1, 148 Cal.Rptr. 850, Supp. 4–Supp. 6.) A
municipal court judge, sitting as a magistrate (not as a
judge), could arraign a defendant in a noncapital felony
case, and if the defendant pleaded guilty (or nolo
contendere), the magistrate could accept the plea and
certify the case to the superior court for entry of
judgment. (Former § 859a,5 Stats. 1980, ch. 540, § 1, pp.
1495–1496; People v. Miskiewicz, at pp. 824–825, 204
Cal.Rptr. 873 [upon entry of felony plea, magistrate must
immediately certify case to superior court].) And,
conversely, if the defendant pleaded not guilty, a
municipal court judge, again sitting as a magistrate, could
preside at the preliminary hearing and hold the defendant
to answer. (Former § 859b, Stats. 1989, ch. 897, § 26.5, p.
3066–3067; former § 860, Stats. 1963, ch. 1174, § 2, p.
2670.) But, as stated, the municipal ***141 court lacked
jurisdiction to render a felony judgment. Moreover, under
former *995 section 859a, its judges, sitting as
magistrates, also lacked authority to accept a guilty plea
to a felony punishable by death.
4

*994 b. Analysis

Before 1992, former section 1462 provided: “Each
municipal and justice court shall have jurisdiction in all
criminal cases amounting to misdemeanor, where the
offense charged was committed within the county in
which such municipal or justice court is established
except those of which the juvenile court is given
jurisdiction and those of which other courts are given
exclusive jurisdiction. Each municipal and justice court
shall have exclusive jurisdiction in all cases involving
the violation of ordinances of cities or towns situated
within the district in which such court is established.”

[2]

If defendant wanted to challenge the constitutionality of
section 1018, whether on the ground that it precluded him
from using a guilty plea to lay the foundation for a
penalty phase remorse argument or on some other ground,
he needed to request to plead guilty in the superior court
and ask that court to make a ruling based on section 1018,
thus preserving the issue on appeal. He never did so. The
claim is therefore forfeited.
Before 1992, there were clear jurisdictional lines
separating misdemeanor cases from felony cases: The
municipal court had no jurisdiction in felony cases, and
the superior court had no jurisdiction in misdemeanor
cases. Therefore, in a felony case, the municipal court
could not convict a defendant on a plea of guilty, because
it was not authorized to render a felony judgment. (See,
e.g., former § 1462,4 Stats. 1976, ch. 1288, § 21, p. 5765;
People v. Callahan (1997) 54 Cal.App.4th 1419, 1424–
1425, 63 Cal.Rptr.2d 684 [magistrate had no authority
under the pre-1992 amendment to section 1462 to impose
judgment in noncapital felony cases]; People v.
Miskiewicz (1984) 158 Cal.App.3d 820, 824–825, 204
Cal.Rptr. 873; People v. Denton (1978) 84 Cal.App.3d

5

Before 1992, former section 859a provided in relevant
part: “(a) If the public offense charged is a felony not
punishable with death, the magistrate shall immediately
upon the appearance of counsel for the defendant read
the complaint to the defendant and ask him whether he
pleads guilty or not guilty to the offense charged
therein ... ; thereupon, or at any time thereafter, while
the charge remains pending before the magistrate and
when his counsel is present, the defendant may plead
guilty to the offense charged .... [¶] (b) ... [T]he
magistrate shall, upon the receipt of a plea of guilty ...,
immediately appoint a time for pronouncing judgment
in the superior court ....” (Italics added.)

These jurisdictional lines began to blur in 1992. Former
section 1462 was amended, effective that year, to allow
the municipal courts to accept guilty pleas in “noncapital”
felony cases and to pronounce judgment in such cases,
thus reducing the burden on the superior courts. (Former §
1462,6 Stats. 1991, **24 ch. 613, § 8, p. 2886; see former
§ 859a,7 Stats. 1991, ch. 613, § 6, pp. 2884–2885.) The
same amendment allowed superior courts to take guilty

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

pleas in misdemeanor cases, thus giving superior courts
flexibility to accept misdemeanor plea bargains as a way
of resolving felony charges. (Stats. 1991, ch. 613, § 8, p.
2886.) But the law remained unchanged for capital cases
— that is, the law continued to be that the municipal court
lacked jurisdiction to pronounce judgment in such cases,
and its judges, sitting as magistrates, lacked statutory
authority to accept guilty pleas in such cases. Former
section 1462 was again amended in 1998 in ways that are
not relevant here. (Stats. 1998, ch. 931, § 417, p. 6633.)
Finally, in 2002, due to unification of the municipal and
superior courts, former section 1462 was repealed. (Stats.
2002, ch. 784, § 554.1.)
6

7

As a result of this change, former section 1462
provided: “(a) Each municipal and justice court shall
have jurisdiction in all criminal cases amounting to
misdemeanor, where the offense charged was
committed within the county in which the municipal or
justice court is established except those of which the
juvenile court is given jurisdiction and those of which
other courts are given exclusive jurisdiction. Each
municipal and justice court shall have exclusive
jurisdiction in all cases involving the violation of
ordinances of cities or towns situated within the district
in which the court is established. [¶] (b) Each municipal
and justice court shall have jurisdiction in all
noncapital criminal cases to receive a plea of guilty or
nolo contendere, appoint a time for pronouncing
judgment under Section 859a, pronounce judgment, and
refer the case to the probation officer if eligible for
probation. [¶] (c) The superior courts shall have
jurisdiction in all misdemeanor criminal cases to
receive a plea of guilty or nolo contendere, appoint a
time for pronouncing judgment, and pronounce
judgment.” (Italics added.)

As a result of this change, former section 859a provided
in relevant part: “(a) If the public offense charged is a
felony not punishable with death, the magistrate shall
immediately upon the appearance of counsel for the
defendant read the complaint to the defendant and ask
him or her whether he or she pleads guilty or not guilty
to the offense charged therein .... While the charge
remains pending before the magistrate and when the
defendant’s counsel is present, the defendant may plead
guilty to the offense charged .... [¶] (b) ... [T]he
magistrate shall, upon the receipt of a plea of guilty ...,
immediately appoint a time for pronouncing judgment
in the superior court, municipal court, or justice court
....” (Italics added.)

Therefore, when defendant was in the municipal court in
1996, the judicial officers before whom he appeared were
not acting as judges; rather, they were sitting as
magistrates. (See former §§ 859, 859b, 860.) Moreover,

because the offense charged was a felony “punishable
with death” (former § 859a, subd. (a), Stats. 1992, ch. 78,
§ 1, pp. 274–275), the municipal court judge (sitting as a
magistrate) was, at most, empowered to deliver to
defendant a copy of the complaint (former § 859,
amended by initiative, Primary Elec. *996 (June 5, 1990),
commonly known as Prop. 115), inform defendant that, if
needed, counsel would be provided for him at the public’s
expense (ibid.), set a time for the preliminary hearing
(former § 859b, Stats. 1989, ch. 897, § 26.5, pp. 3066–
3067), and, at that appointed time, “proceed to examine
the case,” unless such examination was waived (former §
860, Stats. 1963, ch. 1174, ***142 § 2, p. 2670). The
magistrate was simply not authorized to accept a plea of
guilty and pronounce judgment, because former section
859a — which authorized that procedure — only applied
“[i]f the public offense charged is a felony not punishable
with death.” (Former § 859a.)8
8

In a letter brief filed after oral argument, defendant
concedes this point, saying, “As it appears that the
municipal court could not accept his guilty plea under
former section 1462, the municipal court should have
certified or transferred the case to the superior court for
acceptance of the plea.”

Hence, if defendant wanted to plead guilty before his
preliminary hearing, when his case was before a
magistrate, his only option was (1) to waive the
preliminary hearing, and then (2) enter his guilty plea in
superior court to the information filed in that court.
(Former § 860, Stats. 1963, ch. 1174, § 2, p. 2670.)
Defendant was required to follow that two-step process.
(See, e.g., In re Van Brunt (1966) 242 Cal.App.2d 96,
101–102, 51 Cal.Rptr. 136.) Moreover, the People could
insist on a preliminary hearing notwithstanding
defendant’s willingness to waive it. (Former § 860, Stats.
1963, ch. 1174, § 2, p. 2670 [“nothing contained herein
shall prevent the district attorney ... from requiring that [a
preliminary] examination be held as provided in this
chapter”].)9
9

As noted in footnote 3 on 258 Cal.Rptr.3d at pages
133–134, 457 P.3d at pages 17–18, ante, defendant may
also have been precluded from waiving the preliminary
hearing because of his self-represented status.

**25 Here, defendant’s attempts to plead guilty, all of
which occurred before the preliminary hearing, were all
rejected for procedural reasons unrelated to section 1018.
Defendant first mentioned wanting to plead guilty on
October 30, 1996, during a Marsden hearing. He
complained that his attorneys were working too hard and
that he did not want “certain information getting out”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

during the penalty phase. When the court explained that
the penalty phase was a long time away, defendant stated
that he wanted to waive the preliminary hearing and plead
guilty. He acknowledged that his counsel were not
ineffective, but he did not want attorneys who would
work so hard. The court denied the Marsden motion and
arraigned defendant that same day. Defense counsel
waived reading of the complaint and entered a plea of not
guilty. Defendant objected, but counsel explained that
defendant’s objection meant that he wanted the complaint
read. Defendant did not further clarify his reason for
objecting. The case was one in which the punishment
might be death, and the municipal court had no power to
accept a guilty plea. At no point did the municipal court
rule that, based on section 1018, it would not accept
defendant’s guilty plea.
*997 On January 23, 1997, defendant was before a
superior court judge for an in camera hearing regarding
investigative funds under section 987.9, but the
preliminary hearing had not occurred and the case was
still before the municipal court. Defendant told the
superior court judge that he wanted to “go public” and
plead guilty. He expressed frustration, saying, “I don’t
even want to play these games anymore. I want to just go
ahead, I want to enter a plea of guilty. I have a right to do
so, and I wish to do so at this time.” Because defendant
was only before a superior court judge on a section 987.9
hearing, the superior court explained that “the issue as to
whether or not you’re going to plead guilty or waive a
preliminary hearing is really not before me today.”
Defendant was insistent, and the court agreed to help
defendant to achieve his aim. As noted, pleading guilty
required a two-step process: (1) waiver of the preliminary
hearing; and (2) entry of a guilty ***143 plea in superior
court.10 Therefore, the superior court judge said, “With
your permission and request, I’ll contact — or have my
clerk contact — the judicial officer in Division [311 of the
municipal court] and request your matter be calendared as
soon as possible because you want [¶] ... [¶] ... to consider
a change of plea or waiver of preliminary hearing ....”
Defendant continued to insist. At one point he said, “I’m
pleading guilty and that’s that.” The superior court judge
responded, “Well, you haven’t done that yet.” And
defendant said, “Well, I’m attempting to very, very, very
hard.” The court told defendant, “That part of the matter’s
not before me. [¶] ... [¶] Okay. Those matters are pending
in [Division] 311 [of the municipal court] [¶] ... [¶] We’re
going to make arrangements to have you brought over to
[Division] 311, and you can discuss your desires there.”
The court added, “[We]’ll do our best to get you
calendared in [Division] 311 [of the municipal court] as
soon as possible. I can’t guarantee when that will be. As
soon as we’re in recess, I’m sure my clerk will call over

there. If I have to call over there personally, I would do
it.” Thus, the superior court judge made a considerable
effort to help defendant achieve his aim of pleading
guilty.
10

Significantly, several times when defendant expressed
his desire to plead guilty, he also said he wanted to
waive the preliminary hearing. It seems, therefore, that
defendant had been informed of the two-step process
requiring him first to proceed through (or waive) the
preliminary hearing before he could enter a guilty plea
in superior court.

Defendant argues that these efforts were misleading. He
contends that the superior court could have accepted his
guilty plea and instead it misleadingly sent defendant to
municipal court, a court that lacked authority to accept the
guilty plea. Because defendant was proceeding in propria
persona, defendant argues, the superior court’s
instructions were unfair to him. Defendant points out that
although a self-represented defendant is held to the same
standard as counsel, the court is not permitted to mislead
a self-represented defendant.
**26 *998 But the superior court did not mislead
defendant. The superior court was only involved because
the case was a capital case that required disbursement of
investigative funds under section 987.9, and a municipal
court judge was not empowered to disburse such funds.
(See Anderson v. Justice Court, supra, 99 Cal.App.3d at
p. 402, 160 Cal.Rptr. 274.) The case was not otherwise
pending in the superior court, and the superior court
therefore could not have accepted defendant’s guilty plea.
Rather, the law required a magistrate to hold a
preliminary hearing (or accept a waiver of such a
hearing), and only then could defendant be held to answer
in superior court and plead guilty. Defendant cites no
authority for the proposition that in 1996, when municipal
court judges sitting as magistrates conducted preliminary
hearings in felony cases, a defendant in a case in which
the punishment might be death could enter a guilty plea in
superior court without first having completed proceedings
in the municipal court. Here, the superior court judge who
was holding the section 987.9 hearing while defendant’s
case was otherwise in the municipal court could not
accept defendant’s guilty plea. Hence, the superior court
judge did not mislead defendant; rather, he sent defendant
on the only path that would have allowed defendant to
achieve his stated aim.
A few days later, on January 27, 1997, the superior court
held another in camera hearing and defendant’s request to
plead guilty was discussed. The superior court again
offered to help defendant waive his ***144 preliminary

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

hearing and plead guilty, if that was what defendant still
wanted: “We will call [the municipal court magistrate
assigned to your case] and see if she can work it in
sometime late this morning, or sometime this afternoon.”
That afternoon, defendant appeared in the department of
the municipal court assigned to his case. He explained to
the court, “[T]he guilt of my crime has been weighing
heavily on me with a remorseful heart. I would like to
offer a change of plea and enter a plea of guilty to murder
in the first degree and admit the special circumstances and
waive all appellate rights at this time.” The prosecutor
then told defendant, off the record (although later
described on the record), that “by law he cannot plead
guilty to a special circumstances allegation case” and “no
judge can accept your plea.” The court then reminded the
parties that the People also have a right to a preliminary
hearing, and even if defendant waived his right, the
People could choose not to do so. The prosecutor stated
that the People were not prepared to waive the
preliminary hearing, and so the municipal court explained
to defendant that there was no choice but to proceed with
that hearing. The court said: “So to have further
discussions and undertake further proceedings today
would be — for lack of a better word — a waste of time,
and I am going to suggest that we terminate these
proceedings today and that you come back on February
5th. [¶] ... You will have had another nine days to think
about this and decide whether or not you truly want to
waive [the] preliminary hearing or not.” Defendant agreed
with that solution.
*999 Then, on the scheduled date of the preliminary
hearing in municipal court, February 5, 1997, defendant
never requested to waive the hearing, and the hearing
proceeded. At the end of the hearing, defendant was held
to answer in superior court.
Defendant was then charged in the superior court by
information filed on February 18, 1997. On February 24,
1997, defendant appeared in superior court and entered
pleas of not guilty and not guilty by reason of insanity.
Defendant said nothing about a desire to plead guilty.
As noted, if defendant wanted to challenge the
constitutionality of section 1018, he needed to ask to
plead guilty in superior court and ask the court to make a
ruling based on section 1018, thus preserving the issue on
appeal. He never did so. He did ask to plead guilty while
his case was in the municipal court, and both the superior
court judge hearing his section 987.9 motion and the
municipal court magistrate assigned to his preliminary
hearing attempted to assist him. But after the preliminary
hearing, when defendant was held to answer in superior

court, he never renewed his request to plead guilty. **27
On the contrary, he entered pleas of not guilty and not
guilty by reason of insanity.
[3]

It is true that defendant was apparently persuaded that
he could not plead guilty. The prosecutor had told him
that “no judge can accept your plea.” Moreover, at the
hearings on October 20 and 27, 1997, he told the court
that he had wanted to plead guilty but could not do so,
due to section 1018, and he asked the court to allow him
to inform the jury of that fact.11 ***145 But, be that as it
may, defendant never requested to plead guilty before the
superior court, and he never asked that court to make a
ruling based on section 1018, which would have
preserved on appeal the issue of that statute’s *1000
constitutionality. He may have been acting based on the
advice that no judge could accept his plea, but he still
needed to obtain a ruling and thus preserve the issue. Selfrepresented defendants are “held to the same standard of
knowledge of law and procedure as is an attorney,” and
that point remains valid even in capital cases. (People v.
Clark (1990) 50 Cal.3d 583, 625, 268 Cal.Rptr. 399, 789
P.2d 127; see People v. Espinoza (2016) 1 Cal.5th 61, 75,
203 Cal.Rptr.3d 647, 373 P.3d 456; People v. Blair
(2005) 36 Cal.4th 686, 734, 31 Cal.Rptr.3d 485, 115 P.3d
1145; People v. Mendoza (2000) 24 Cal.4th 130, 157, 99
Cal.Rptr.2d 485, 6 P.3d 150; Faretta, supra, 422 U.S.
806, 834–835, fn. 46, 95 S.Ct. 2525.) “We have ...
rejected claims that the fact or likelihood that an
unskilled, self-represented defendant will perform poorly
in conducting his or her own defense must defeat the
Faretta right. [¶] ... Instead, we have accepted that the
cost of recognizing a criminal defendant’s right to selfrepresentation may result ‘ “in detriment to the defendant,
if not outright unfairness.” ’ [Citations.] But that is a cost
that we allow defendants the choice of paying, if they can
do so knowingly and voluntarily.” (People v. Mickel
(2016) 2 Cal.5th 181, 206, 211 Cal.Rptr.3d 601, 385 P.3d
796; see People v. Taylor (2009) 47 Cal.4th 850, 866, 102
Cal.Rptr.3d 852, 220 P.3d 872.)
11

Defendant may have been under the impression that his
previous requests to plead guilty, made when his case
was in the municipal court, were denied pursuant to
section 1018, but that possibility does not change the
fact that, under former section 859a, the municipal
court lacked statutory authority to accept defendant’s
guilty plea.
The concurring opinion argues that the municipal court
relied on section 1018 in rejecting defendant’s request
to plead guilty. It focuses on the prosecutor’s statement
to the municipal court that “by law [defendant] cannot
plead guilty to a special circumstances allegation case.”
The concurrence describes that statement as “an evident
reference to section 1018.” (Conc. opn. of Liu, J., 258
Cal.Rptr.3d at p. 169, 457 P.3d at p. 47, post.) But the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...
prosecutor could equally well have been referring to the
municipal court’s lack of authority under former
section 859a. That would explain why the prosecutor
added, “I think it’s [defendant’s] desire to actually
waive the preliminary hearing,” meaning that defendant
wanted to get his case out of the municipal court. To be
sure, the prosecutor also said that “no judge” could
accept defendant’s plea, but the prosecutor may only
have meant that no judge could do so at that time,
before defendant was charged in the superior court.
Significantly, in arguing to the municipal court that
defendant was barred from pleading guilty, the
prosecutor never made any reference to defendant’s
unrepresented status, and the prosecutor’s comments
nine months later in the superior court could not have
influenced the municipal court, which clearly relied on
the People’s right to a preliminary hearing, not section
1018, in rebuffing defendant’s request to plead guilty.

In summary, pleading guilty before the preliminary
hearing was simply not an option for defendant, because
the municipal court magistrate had no power to accept a
guilty plea in a capital case. The municipal court never
made a section 1018 ruling prohibiting defendant from
pleading guilty, because the issue of a guilty plea was not
before it and, for jurisdictional reasons, could not be
before it. The most the municipal court could do for
defendant was accept a stipulated waiver of the
preliminary hearing and then send the case to the superior
court. But the People did not agree to waive the
preliminary hearing, and when the day of the preliminary
hearing arrived, defendant did not renew his request to
plead guilty. Nor did he renew it in the superior court
after he was held to answer. Only the superior court could
have made a ruling based on section 1018, and once the
case got to the superior court, defendant never asked to
plead guilty, so such a ruling never became necessary. We
therefore reject defendant’s constitutional challenge to
section 1018 on the ground that the trial court **28 never
made a ruling under section 1018, and his claim is
therefore forfeited.

***146 3. Validity of Waiver of Right to Counsel
Defendant challenges the validity of his waiver of his
right to counsel, making several arguments. None of his
arguments has merit.

*1001 a. Municipal Court’s Asserted Error in Denying
Defendant’s Marsden Motion without Sufficient Inquiry
[4]

Defendant first contends his waiver of the right to
counsel was induced by the municipal court’s errors
during his first Marsden hearing on October 30, 1996,
when he said that he did not want that vigorous of a
defense and added that he wanted to plead guilty. He
asserts that the court made no inquiry into his intent to
plead guilty or his conflict with counsel, and it then
permitted counsel to enter a not guilty plea despite
defendant’s stated desire to plead guilty. He argues that
the court’s actions placed him in an unconstitutional
dilemma of either (1) defending himself with counsel who
would not “accede to his fundamental and personal right
to control his defense by pleading guilty and pursuing a
case for life at penalty,” or (2) defending himself without
counsel. In these circumstances, he argues, there was no
valid waiver of the right to counsel. He asserts that the
unaddressed and unresolved conflict he had with his
counsel negated the required showing that his waiver was
voluntary and intelligent.

[5]

Defendant is wrong. After defendant made an oral
Marsden motion, the municipal court held a Marsden
hearing in chambers. The court started the hearing by
asking defendant to describe why he believed one or both
of his attorneys were not rendering competent or
reasonable representation. Defendant explained that he
did not agree with “their idea of what they want to do
tactical-wise” and that he did not want them to call
witnesses over his objection. Defendant’s complaints
regarding trial preparation and strategy were tactical
disagreements, as defendant conceded in the hearing,
which do not by themselves constitute an irreconcilable
conflict. (People v. Cole (2004) 33 Cal.4th 1158, 1192, 17
Cal.Rptr.3d 532, 95 P.3d 811 (Cole); see People v. Bolin
(1998) 18 Cal.4th 297, 334, 75 Cal.Rptr.2d 412, 956 P.2d
374 [whether to call certain witnesses is a matter of trial
tactics].) Although the McCoy court acknowledged a
defendant’s fundamental right to choose the objective of
his or her defense, the court also acknowledged that it is
defense counsel’s job to determine how best to achieve a
client’s objectives. (McCoy, supra, ––– U.S. ––––, 138
S.Ct. at p. 1508.)
Defendant did not indicate to the municipal court that the
conflict he had with counsel was so serious that he would
consider representing himself just to terminate his
relationship with his current public defenders, nor did
defendant say that his conflict with counsel concerned
whether or not to enter a guilty plea. On the contrary,
defendant’s main concern was about whether certain
witnesses would be called at the penalty phase. When the
municipal court said that the penalty phase was still a long

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

way off, defendant responded that it was not a long way
off, because he planned to waive the preliminary hearing
and plead guilty, which meant the penalty phase would
*1002 occur relatively soon. He added that his dispute
with counsel concerned how to conduct the penalty phase.
His counsel wanted “to check all avenues,” and defendant
didn’t want that. He also said that he didn’t want to
represent himself and allow the prosecutor “to just walk
all over me.” He continued, “I’m going to keep these
counsel. I’m not saying they are ineffective.” Defendant’s
comments contradict his assertion that his waiver of the
right to counsel was due to a conflict over whether he
should plead ***147 guilty. On the contrary, what he told
the court was that the conflict was over how the penalty
phase should be conducted, and the court acted within its
discretion in finding no irreconcilable conflict requiring
counsel’s replacement.

b. Failure to Advise that Defendant Could Not Plead
Guilty
[6]

Defendant next contends his waiver was invalid because
the municipal court failed to advise him that even if he
waived his right to counsel, he still could not plead guilty.
He notes that his request to waive counsel “came one
week after counsel was **29 allowed to thwart [his]
stated intent to plead guilty,” suggesting that the court
should therefore have known that his reason for waiving
counsel was his desire to plead guilty. He points out that
section 1018 prohibits a capital defendant from pleading
guilty without consent of counsel, and he argues that court
failed to ensure he was aware of the rule.

[7] [8]

“The requirements for a valid waiver of the right to
counsel are (1) a determination that the accused is
competent to waive the right, i.e., he or she has the mental
capacity to understand the nature and object of the
proceedings against him or her; and (2) a finding that the
waiver is knowing and voluntary, i.e., the accused
understands the significance and consequences of the
decision and makes it without coercion.” (People v.
Koontz (2002) 27 Cal.4th 1041, 1069-1070, 119
Cal.Rptr.2d 859, 46 P.3d 335.) “On appeal, we examine
de novo the whole record—not merely the transcript of
the hearing on the Faretta motion itself—to determine the
validity of the defendant’s waiver of the right to counsel.”
(Id. at p. 1070, 119 Cal.Rptr.2d 859, 46 P.3d 335.)
Defendant here asserts, in effect, that the court did not
ensure he was aware of all of the disadvantages of self-

representation; namely, that he would not be able to plead
guilty because such a plea requires the consent of counsel
under section 1018. Defendant argues that the timing of
his Faretta request, made only one week after he
attempted to plead guilty, demonstrated that his request
stemmed from a mistaken belief that a guilty plea would
be accepted after counsel was discharged.
[9]

Defendant cites no authority for the proposition that
when a defendant waives the right to counsel, the trial
court must inform the defendant of *1003 every possible
specific disadvantage that might later flow from the
waiver. Countless disadvantages might result from a
waiver of the right to counsel, and a trial court could not
possibly predict each of those disadvantages in advance.
Therefore, the trial court need only inform the defendant
in general terms of the most common disadvantages. (See
People v. Riggs (2008) 44 Cal.4th 248, 277–278, 79
Cal.Rptr.3d 648, 187 P.3d 363 (Riggs); People v. Lopez
(1977) 71 Cal.App.3d 568, 572–573, 138 Cal.Rptr. 36.)
Nor on this record was the municipal court made aware of
the need to inform defendant that he could not plead
guilty if he represented himself. On November 7, 1996,
when defendant made his oral motion to proceed in
propria persona, he did not say anything about an intent to
plead guilty. Quite the opposite: Defendant’s only
concern about representing himself was whether he would
have the ability to obtain funding for an investigator to
assist him. It is true that defendant had told the court one
week earlier, during the Marsden hearing, that it was his
plan to waive the preliminary hearing and plead guilty.
However, when the court arraigned defendant after the
hearing, counsel entered a plea of not guilty. Defendant
then said, “Over my objection,” but counsel clarified that
defendant’s objection related to the reading of the
complaint, and defendant ***148 did not dispute that
point. Those facts do not support defendant’s assertion
that on the day of the Marsden hearing “counsel was
allowed to thwart [his] stated intent to plead guilty.”
A week later when defendant waived his right to counsel,
defendant’s actions were too ambiguous for the court to
have reasonably known that the reason he sought to
represent himself was that he wanted to plead guilty.
Furthermore, when defendant later learned that he would
be unable to plead guilty as a self-represented defendant,
he reaffirmed his desire to continue without counsel.
We conclude that the record “ ‘as a whole demonstrates
that the defendant understood the disadvantages of selfrepresentation, including the risks and complexities of the
particular case’ ” (Riggs, supra, 44 Cal.4th at p. 276, 79
Cal.Rptr.3d 648, 187 P.3d 363), and that because

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

defendant did not make his intent clear, the municipal
court was not obligated to specifically inform defendant
that he would not be able to plead guilty if he waived his
right to counsel.

c. Sufficiency of the Court’s Inquiry
[10]

Defendant further contends that the municipal court’s
Faretta inquiry was insufficient **30 to support a valid
waiver of the right to counsel in a capital case. He asserts
the court did not specifically inquire into his
understanding of capital case proceedings and did not
make him aware of the specific dangers and
disadvantages of proceeding without counsel in capital
proceedings or of *1004 the fundamental legal rights that
would be affected by proceeding without counsel. He also
notes that his Faretta form did not advise him of such
disadvantages. We conclude the court’s inquiry was
sufficient.
As noted, the trial court could not possibly predict every
disadvantage that might flow from a waiver of the right to
counsel, and therefore it need only inform the defendant
in general terms of the most common disadvantages. We
have upheld warnings similar to those that defendant here
received. (Riggs, supra, 44 Cal.4th at pp. 277–278, 79
Cal.Rptr.3d 648, 187 P.3d 363 [advisements were
adequate where record showed the defendant was aware
that defending himself against capital charges was a
complex process involving extremely high stakes and that
his ability to defend himself might be hampered by his
incarceration and lack of training]; People v. Blair (2005)
36 Cal.4th 686, 709–710, 31 Cal.Rptr.3d 485, 115 P.3d
1145 [advisements were adequate where record reflects
that the defendant understood the nature of the charged
offense, the nature of a capital proceeding and penalty
phase, and was advised by the court to receive help from a
lawyer].)
On August 22, 1996, the municipal court discussed at
length with defendant his desire to plead guilty.
Defendant explained that he had been involved in several
cases in the criminal justice system and had previously
represented himself against three felony charges, none of
which went to jury trial. He understood that he would be
treated the same as an attorney and would receive no
special privileges. He affirmed that he could read and
understand English “very well” and that he had a
“healthy, clear mind.” On November 7, 1996, defendant
executed a written waiver of his right to counsel. The

waiver form emphasized that it was “almost always
unwise to represent yourself” and reminded defendant
that he would be facing a skilled and experienced
prosecutor. During the oral colloquy, defendant affirmed
his awareness that he faced “murder with special
circumstances and [that] the maximum term is the death
penalty.”
***149 The record here reflects that defendant was aware
of the charges against him, that he knew he faced both a
guilt phase and, if found guilty, a penalty phase, that he
could expect to have access to only limited resources due
to his incarceration, and that the assistance of an attorney
was highly recommended. The court’s inquiry was
sufficient.

d. Requests to Reappoint Counsel
[11]

Defendant next asserts the trial court erred by failing to
address and grant his requests on January 23 and 27,
1997, for reappointment of counsel.
The hearing on January 23 was an in camera hearing
before a superior court judge who was overseeing
disbursement of investigative funds under *1005 section
987.9. At the start of the hearing, the court explained that
it had received notice that defendant had violated the
terms of the order granting him jail privileges. Defendant
replied that he wished to plead guilty. He expressed
frustration with his lack of a working computer and
difficulty placing unmonitored phone calls. He explained
that he did not want the government to “run over” him
and did not “want to play these games anymore.” He told
the court that he preferred to plead guilty and have the
public defender’s office reappointed to represent him
during the penalty phase. Defendant complained that he
had to “keep coming to this court and begging” for phone
calls, materials, and investigation reports and did not
believe the court was sincere in its efforts to assist him.
Defendant asked insistently to “go public” and allow him
to change his plea. The court, which was addressing only
the disbursement of investigative funds under section
987.9, said, “That part of the matter’s not before me.” As
noted, the court told defendant he would need to discuss
his desire to change his plea in the proper department, and
the court offered to help him do so. (See ante, 258
Cal.Rptr.3d at p. ––––, 457 P.3d at p. ––––.)
**31 Defendant returned to the superior court on January
27, 1997, for an in camera hearing on his alleged jail

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

violation and to further discuss his displeasure with his
assigned investigator. The court revoked defendant’s selfrepresentation jail privileges and closed the hearing by
again offering to help defendant waive his preliminary
hearing and plead guilty, if that was what defendant still
wanted: “We will call [the municipal court judge assigned
to your case] and see if she can work it in sometime late
this morning, or sometime this afternoon.”
That afternoon, defendant appeared in the department of
the municipal court assigned to his case and asked to
plead guilty. As already discussed, the municipal court
had no authority to accept a guilty plea in a capital case.
Instead, if defendant insisted on pleading guilty, the court
would need to proceed with the preliminary examination,
hold defendant to answer, and then defendant would have
to plead guilty in the superior court. The prosecutor told
defendant that the law prevented him from pleading
guilty. The municipal court then explained that the People
were not prepared to waive the preliminary hearing, and
therefore there was no choice but to proceed with that
hearing. The court said, “I am going to suggest that we
terminate these proceedings today,” adding that defendant
should return on the day scheduled for the preliminary
hearing, having considered the matter further. Defendant
agreed with that solution.

informed defendant that the matter of his pleading guilty
was not before it and that he needed to raise that issue in
the proper department. It then arranged a hearing in the
division of the municipal court that was assigned to
defendant’s preliminary hearing. Because defendant’s
request to have counsel reappointed was expressly
conditioned on his pleading guilty, and because he could
not plead guilty without proceeding through the
preliminary hearing (or waiving it), the court properly
directed defendant to the division of the municipal court
where he could begin that process.
On January 27, 1997, when defendant was before the
municipal court division that was handling his
preliminary hearing, defendant again requested to plead
guilty, but he did not repeat his request to have counsel
reappointed. Because the People were not willing to
waive the preliminary hearing, the court had no choice but
to proceed with that hearing as scheduled.
Contrary to defendant’s claim, the trial court did not fail
to address his request to plead guilty and have counsel
reappointed. Instead, it did what was within its power to
assist defendant. We conclude there was no error.

[12] [13]

A motion to abandon self-representation and have
counsel reappointed must be unequivocal. (People v.
Lawrence (2009) 46 Cal.4th 186, 193, 92 Cal.Rptr.3d
613, 205 P.3d 1062 (Lawrence); see *1006 ***150
People v. Lewis and Oliver (2006) 39 Cal.4th 970, 1002,
47 Cal.Rptr.3d 467, 140 P.3d 775 (Lewis and Oliver).)
“Equivocation ... may occur where the defendant tries to
manipulate the proceedings by switching between
requests for counsel and for self-representation, or where
such actions are the product of whim or frustration.”
(Lewis and Oliver, supra, 39 Cal.4th at p. 1002, 47
Cal.Rptr.3d 467, 140 P.3d 775.) A trial court’s denial of a
Faretta revocation request is reviewed for abuse of
discretion. (Lawrence, at p. 192, 92 Cal.Rptr.3d 613, 205
P.3d 1062.)
At the hearing on January 23, 1997, defendant did not
simply request to have counsel reappointed. Instead, he
expressed an intent first to plead guilty, and only then to
have counsel reappointed to handle the penalty phase. As
already discussed, however, in order to plead guilty,
defendant needed to proceed through the preliminary
hearing (or waive it), be held to answer in superior court,
and then enter his guilty plea in that court. The superior
court, which was handling only disbursement of
investigative funds under section 987.9, did not fail to
address defendant’s request. The court appropriately

e. Waiver of Right to Counsel after Defendant Was Held
to Answer in Superior Court
[14]

Lastly, defendant asserts he did not validly waive
counsel on March 14, 1997, when the superior court took
a second **32 Faretta waiver. The prosecutor requested
this second waiver of defendant’s right to counsel,
because defendant’s previous waiver was before the
prosecution had formally declared its intent to pursue the
death penalty.
At the hearing on March 14, 1997, the superior court
advised defendant that he had the right to a speedy and
public trial, and the right to a trial by *1007 jury. The
court also advised defendant that he had the right to use
the court to subpoena witnesses or records he might need
and the right to confront in open court all witnesses called
to testify against him. The court then noted that,
according to a minute order dated February 28, another
judge had gone “through all this” with defendant.
Defendant clarified that “those were in camera hearings.”
The court asked, “Were all these rights explained to you
at that time?” In response, defendant said, “Yeah, I’m
fully aware of my rights. I’m making a knowing and
intelligent waiver of my rights. I understand that this is a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

death penalty case and that the minimum term, mandatory
minimum is life without the possibility of parole. I am
also ***151 aware that by pleading not guilty and not
guilty by reason of insanity, I could spend the rest of my
life in a mental institution if a jury so finds, but I’m
willing to fill out your petition here.” The court stated,
“As long as this has all been gone over with you by [the
other judge], I’m satisfied.” Defendant then signed the
Faretta waiver for the court.
Defendant contends the trial court’s failure to readvise
him of his rights violated section 987, subdivision (b),
which provides that if a capital defendant appears for
arraignment without counsel, the court shall inform him
that he shall be represented by counsel at all stages of the
preliminary and trial proceedings.
In People v. Crayton (2002) 28 Cal.4th 346, 121
Cal.Rptr.2d 580, 48 P.3d 1136, a noncapital defendant
waived his right to counsel in municipal court. After the
defendant was held to answer, the superior court did not
readvise him of his right at his subsequent arraignment, as
is required by section 987, subdivision (a). We held that
when “a defendant has been fully informed of his or her
right to counsel at all stages of the proceedings (including
trial), and voluntarily and knowingly has invoked the
right to represent himself or herself throughout all the
proceedings, the trial court’s failure to provide a new
advisement and obtain a renewed waiver at the
arraignment (as required by section 987) does not operate
to terminate or revoke the defendant’s validly invoked
constitutional right to represent himself or herself at trial.”
(People v. Crayton, at p. 365, 121 Cal.Rptr.2d 580, 48
P.3d 1136.) We further held that a trial court’s error in
failing to comply with section 987 was susceptible to a
harmless error analysis. (People v. Crayton, at p. 365, 121
Cal.Rptr.2d 580, 48 P.3d 1136.) We noted that a review
of the record will reveal whether, despite the absence of
an explicit advisement by the superior court at
arraignment, the defendant was aware that he or she
*1008 had the right to appointed counsel at subsequent
proceedings and whether an explicit advisement at the
arraignment would have been likely to lead the defendant
to reconsider the decision to represent himself or herself.
(Ibid.)
The same rule applies to capital defendants under section
987, subdivision (b). Where, as here, the record reveals
that the defendant was aware that he had the right to
appointed counsel at subsequent proceedings and an
explicit advisement at arraignment would not have been
likely to lead to the defendant’s reconsidering his decision
to represent himself, the court’s failure to readvise the
defendant is harmless beyond a reasonable doubt.

Defendant was well aware that he had the right to
appointed counsel at all stages. When the municipal court
took his Faretta waiver on November 7, 1996, the court
expressly stated that defendant’s motion “is to represent
yourself throughout the proceedings, prelim, pretrial, trial,
everything?” Defendant replied, “Yes, sir.” Defendant
also repeatedly reminded the court during in camera
hearings that he wanted to represent himself, that he was
lead counsel on his case, and that he did not want the
court to handle matters through his advisory counsel. He
also signed a second written waiver of his Faretta rights.
And when the court attempted to readvise defendant of
his rights, he told the court that he was “fully **33 aware”
of his rights and was making a “knowing and intelligent”
waiver of those rights. We conclude that any possible
error was harmless under any standard.

B. Failure to Suppress Statements
Investigators first interviewed defendant shortly after
his arrest on June 14, 1996. Officer Mark Steen advised
defendant of his right to remain silent, that ***152
anything he said could be used against him in court, of his
right to have an attorney present before or during any
questioning, and that if he could not afford an attorney,
one would be appointed before questioning. Following
each advisement, Steen asked defendant if he understood.
To each question, defendant replied, “Yes, sir.” Steen
then proceeded to question defendant about his
involvement in the crime.
[15]

Early in the questioning, defendant said, “Hey, when am I
going to get a chance to call my lawyer. It’s getting late,
and he’s probably going to go to bed pretty soon.” Steen
replied, “Your lawyer? Well you can call your lawyer
after we’re done in our facility.” Defendant said, “Oh,
okay. So what do we got to do in our facility here?” Steen
explained, “Well, we’re conducting this interview.” When
defendant asked if they could finish the interview the
following day, Steen replied, “Um, we can continue
talking tomorrow; however, we’re not going to continue
the interview.” Steen then continued asking defendant
about the murder.
Eleven days later, on July 25, 1996, defendant sent
Officers Steen and Lozano a letter requesting to meet. The
investigators spoke with defendant at the jail on August
12, 1996. Lozano advised defendant that he was
represented by the public defender, who had invoked
defendant’s right to remain silent. Lozano asked if
defendant would like to waive his right to have an
attorney present. Defendant replied, “I waive that, and I

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

have since fired *1009 him.”12 Lozano advised defendant
of his Miranda rights, and defendant signed a waiver.
Lozano then interviewed defendant.
12

Actually, defendant had submitted, on July 16, 1996, a
handwritten motion requesting to proceed in propria
persona. Defendant later withdrew that request, but he
then made a new request, which the court granted on
November 7, 1996.

On June 23, 1997, defendant filed a pretrial motion to
suppress his statements from the June 14 interview. He
also moved to dismiss the information on the grounds that
his confession was obtained in violation of Miranda, and
without the confession, there was insufficient evidence to
hold him to answer on the murder charge. On September
8, 1997, defendant filed a motion to suppress both the
June 14 confession and his statements from the August 12
interview. He argued the August statements “still carried
the taint” of the June 14 interview at which the
investigators engaged in misconduct by failing to notify
his counsel when he requested to speak with them.
Defendant further argued that his “known history of
mental illness and current treatment with psycho[tropic]
medications are factors to consider.”
At a hearing on September 26, 1997, the trial court denied
the motions. The court found that defendant’s statements
during the June 14 interview did not constitute a clear
request for an attorney. Rather, his inquiry into when he
could call his attorney indicated that he was “desirous of
speeding up the interview so he [could] call his lawyer
when the interview was over. There is certainly nothing
close to a clear request for an attorney.” The court found
that because defendant initiated contact before the August
interview and signed written waivers of the presence of
counsel and of his Miranda rights, “defendant can hardly
complain that his statements were coerced, involuntary, or
in violation of his right to counsel.” The court further
found that defendant presented no evidence of any mental
defect that would preclude him from understanding and
waiving his rights.
Defendant asserts the trial court erred in failing to
suppress his statements from ***153 the June 14
interview because he did not validly waive his right to
counsel. He further asserts the trial court erred in failing
to suppress statements from the August 12 interview
because there was no break in the causal chain from the
erroneous first interrogation. Lastly, defendant asserts that
the state violated **34 his Sixth Amendment rights “by
approaching appellant [on August 12] without first
contacting his attorney,” and he further asserts that his
mental illness affected his ability to waive his rights. We

disagree.
[16] [17] [18]

In Miranda, supra, 384 U.S. 436, 86 S.Ct. 1602,
the United States Supreme Court set forth prophylactic
measures to protect an individual’s right against selfincrimination from curtailment under the “inherently
compelling pressures” of custodial interrogation. (Id. at p.
467, 86 S.Ct. 1602.) A suspect “must be warned *1010
prior to any questioning that he has the right to remain
silent, that anything he says can be used against him in a
court of law, that he has the right to the presence of an
attorney, and that if he cannot afford an attorney one will
be appointed for him prior to any questioning if he so
desires.” (Id. at p. 479, 86 S.Ct. 1602.) After a suspect has
heard and understood these rights, he or she may waive
them. (People v. Tate (2010) 49 Cal.4th 635, 683, 112
Cal.Rptr.3d 156, 234 P.3d 428.) The prosecution,
however, bears the burden of showing that the waiver was
knowing, voluntary, and intelligent under the totality of
circumstances. (People v. Linton (2013) 56 Cal.4th 1146,
1171, 158 Cal.Rptr.3d 521, 302 P.3d 927; see Maryland
v. Shatzer (2010) 559 U.S. 98, 104, 130 S.Ct. 1213, 175
L.Ed.2d 1045.)

[19] [20]

On appeal, we view the evidence in a light most
favorable to the order denying the motion to suppress.
(People v. Tully (2012) 54 Cal.4th 952, 979, 145
Cal.Rptr.3d 146, 282 P.3d 173.) “Moreover, the
reviewing court ‘must accept the trial court’s resolution of
disputed facts and its assessment of credibility.’ ” (Ibid.)
In People v. Whitson (1998) 17 Cal.4th 229, 70
Cal.Rptr.2d 321, 949 P.2d 18, a police officer interviewed
the defendant on three separate occasions. At the
beginning of each interview, the officer advised the
defendant of his rights under Miranda and asked whether
he understood them. Each time, the defendant responded
that he did. The officer then proceeded to question the
defendant. (Id. at pp. 237–239, 70 Cal.Rptr.2d 321, 949
P.2d 18.) We concluded the defendant’s statements were
voluntary, noting that the record was devoid of any
suggestion that the police resorted to physical or
psychological pressure to elicit them. (Id. at pp. 248–249,
70 Cal.Rptr.2d 321, 949 P.2d 18.) We concluded the
defendant was aware of the rights he was waiving and the
consequences of his decision to do so, observing that
there was no evidence that during any interview his
judgment was clouded or otherwise impaired. (Id. at p.
249, 70 Cal.Rptr.2d 321, 949 P.2d 18.) We further
concluded that the defendant’s waiver was intelligent,
noting that there was no evidence that he lacked sufficient
intelligence to understand his rights or the consequences
of waiving them. (Id. at p. 250, 70 Cal.Rptr.2d 321, 949
P.2d 18.) We held: “Although the police officers did not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

32

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

obtain an express waiver of defendant’s Miranda rights,
decisions of the United States Supreme Court and of this
court have held that such an express waiver is not
required where a defendant’s actions make clear that a
waiver is intended.” (Ibid.; see North Carolina v. Butler
(1979) 441 U.S. 369, 374–375, 99 S.Ct. 1755, 60 L.Ed.2d
286.)
As in Whitson, ample evidence supports a finding here
that defendant’s waiver was voluntary, knowing, and
intelligent. Officers Steen and Lozano explained each
***154 Miranda right to defendant, after which he
indicated that he understood. Following a complete
admonition, defendant began to discuss his role in the
murder. His actions made clear that a waiver was
intended.
[21] [22] [23]

Defendant also did not unequivocally
*1011
invoke his right to counsel when he subsequently asked,
“Hey, when am I going to get a chance to call my lawyer?
It’s getting late, and he’s probably going to go to bed
pretty soon.” When a defendant has waived his Miranda
rights and agreed to speak with police, any subsequent
invocation of the right to counsel must be unequivocal
and unambiguous. (Davis v. United States (1994) 512
U.S. 452, 461–462, 114 S.Ct. 2350, 129 L.Ed.2d 362.)
“[A]fter a knowing and voluntary waiver, interrogation
may proceed ‘until and unless the suspect clearly requests
an attorney.’ ” (People v. Williams (2010) 49 Cal.4th 405,
427, 111 Cal.Rptr.3d 589, 233 P.3d 1000 (Williams).)
Defendant’s statement that it was getting late and his
question **35 about when he would get to call his lawyer
did not amount to an unequivocal and unambiguous
request for counsel. A reasonable officer in Steen and
Lozano’s position would have concluded that defendant’s
remark expressed concern over the length of the interview
and a desire to contact counsel when the interview was
over. Defendant never said that he wanted to stop the
interview immediately and consult counsel.
We conclude that defendant’s statements from the June 14
interview were properly obtained. It follows that his
subsequent statements at the August 12 interview did not
carry any taint from the previous interview. Furthermore,
the investigators readvised defendant of his Miranda
rights before beginning the August 12 interview, and
defendant signed a waiver.

Miranda rights, Lozano said, “You are being represented,
at this point, that we know of, by a public defender, okay,
... who has invoked your right to remain silent with the
court. He’s filed papers to that effect, ... that you are just
... [to] remain silent, okay? You have the right to have
your attorney ... present while we talk to you, okay? Uh,
... do you wish to have him here at this time, or do you
waive that right to have that attorney ... here at this time?”
Defendant replied, “I waive that, and I have since fired
him.”13
13

As noted, defendant had filed a motion to proceed in
propria persona, but the court had not ruled on it.
Defendant later withdrew the motion.

[25] [26] [27]

“The Sixth Amendment guarantees the accused,
at least after the initiation of formal charges, the right to
rely on counsel as a ‘medium’ between him and the
State.” (Maine v. Moulton (1985) 474 U.S. 159, 176, 106
S.Ct. 477, 88 L.Ed.2d 481.) A suspect has the right,
however, to knowingly and intelligently waive the right to
counsel, especially if the *1012 accused himself initiates
such communication. (Patterson v. Illinois (1988) 487
U.S. 285, 291, 108 S.Ct. 2389, 101 L.Ed.2d 261.)
Defendant initiated contact with the investigators when he
sent them a letter requesting to meet. He was then
thoroughly advised of his right to have counsel present
during the interview, and he unequivocally waived that
right. Moreover, his waiver was not invalidated by his
asserted mental illness. Defendant relies on a declaration
he submitted ***155 to the trial court with his motion to
suppress, in which a psychologist declared that defendant
was “mentally ill” and that his letter requesting a meeting
with the investigators “was a product of this deteriorated
mental state.” On review of this declaration, the trial court
expressed concern over the lack of cross-examination by
the People and found that the psychologist’s statement
was “a legal conclusion that would not be admissible, as it
is without foundation.” In its written order, the trial court
stated that defendant failed to present evidence of any
mental defect that would prohibit him from waiving his
rights.
The record does not demonstrate that defendant failed to
understand or validly waive his rights. We conclude that
substantial evidence supports the trial court’s findings.

[24]

Defendant’s contention that the August 12 interview
violated his Sixth Amendment right to counsel also fails.
Officer Lozano reminded defendant that the investigators
were present for the interview because defendant had
initiated contact through a letter indicating a desire to
speak with them. While advising defendant of his

C. Failure to Suppress Evidence
Santa Ana Police Corporal Richard Reese testified at
trial that he arrested defendant on the evening of June 14,
[28]

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

33

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

1996. After the arrest, Reese and other law enforcement
personnel conducted a parole search of defendant’s
camper. They located a .32-caliber revolver in its holster,
hidden under a blanket. Reese testified that they found
five live rounds in the revolver.
Defendant objected and asked the trial court to strike
Reese’s testimony. Outside the jury’s presence, defendant
explained the basis of his objection: “No probable cause
for the search. The evidence that he’s attempting to
introduce is the object of an illegal search and seizure. I
believe that Officer — Corporal Reese testified that the
defendant was already in custody [and hence no longer on
parole], and ... I believe that there was no exigent
circumstances for them to conduct a **36 search without
a search warrant. They could have obtained a search
warrant, so on and so forth.” The prosecutor replied that if
defendant wanted to suppress the evidence of the search,
“he had ample time before the proceedings” to do so. He
argued the search was actually conducted by parole agent
Jan Moorehead pursuant to a parole condition. The
prosecutor explained that he “did not want to raise the
specter of a parole search” before the jury, and he had
only vaguely questioned Reese as to whether other
investigators were present, so as not to reveal to the jury
that defendant was on parole. Defendant replied that he
was in custody at the time of the search and no longer on
parole.
*1013 The court stated that the objection was “extremely
tardy” and asked defendant why he waited until mid-trial
to raise the issue. Defendant explained that he was under
the assumption that the officers had conducted the search
pursuant to a warrant, but he realized after Reese’s
testimony that they did not have a warrant. The prosecutor
responded that an evidence list from the parole search had
listed a revolver, holster, and bullets, thus informing
defendant that the gun was found during the parole
search, not during a later search of the same camper, done
pursuant to a warrant.
The court denied defendant’s motion, stating: “If there’s
nothing in any of the discovery to indicate that the
weapon was taken during a search pursuant to a warrant,
I’m somewhat confused as to how you would not be
aware that it was taken by Corporal Reese during his
search of the camper.” Defendant explained that the
documents confused him and that he did not purposefully
wait to make the argument. The court replied, “The
problem presented here is that if I were to allow this
motion to be heard at this time, it would be granting
favoritism to an individual who decided to represent
himself. I ***156 don’t believe that it’s fair to the process
of justice to do that. The defendant, having chosen to

represent himself, is bound to know the rules and
procedures. I frankly can’t see any justification for
waiting mid-trial to make a motion to suppress.”
[29]

Section 1538.5, subdivision (a), provides that a
defendant may move to suppress as evidence any tangible
thing obtained as a result of an illegal search or seizure. A
defendant is not permitted to raise a search and seizure
issue for the first time during trial, however, unless the
opportunity for the motion did not previously exist or the
defendant was not aware, prior to trial, of the grounds for
the motion. (§ 1538.5, subd. (h); People v. Brooks (1980)
26 Cal.3d 471, 476, 162 Cal.Rptr. 177, 605 P.2d 1306.)
We conclude that sufficient evidence supported the trial
court’s finding that defendant’s motion to suppress the
evidence was untimely. The discovery provided to
defendant clearly indicated that the gun was located
during Reese’s post-arrest search of the camper, not
during the subsequent execution of the search warrant.
Defendant said the paperwork confused him; he did not
claim, however, that he had been provided erroneous or
incomplete pretrial discovery and therefore was incapable
of discovering the grounds for his motion. Defendant’s
failure to bring his motion to suppress prior to trial
therefore does not fall within the exceptions recognized in
section 1538, subdivision (h).

D. Disclosure of Reporter’s Unpublished Notes
Defendant contends the trial court violated his right to
obtain evidence when it refused to require a reporter to
disclose her notes from her jailhouse *1014 interview
with him. He asserts application of the newsperson’s
shield law (Cal. Const., art. I, § 2, subd. (b); Evid. Code, §
1070) limited his ability to challenge testimony from
Marla Jo Fisher, a reporter with the Orange County
Register (the Register).
[30]

On June 15, 1996, the day after defendant’s arrest, Fisher
visited the jail to conduct an interview. After Fisher
identified herself to defendant and explained the purpose
of her visit, he agreed to speak with her. He admitted that
he was attempting to rob the HomeBase store and that he
shot Wilson. The following day, the Register published an
article containing several statements and admissions from
defendant.
The prosecution subpoenaed Fisher to testify at trial.
Defendant in turn subpoenaed **37 the Register for any
notes and materials it had regarding Fisher’s interview.
The Register provided a copy of the published article.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

34

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

After defendant argued that the Register wanted to “quash
the unpublished” notes, the trial court issued an order to
show cause why the Register should not produce the
requested documents. In response, the Register, on its
own behalf and on behalf of Fisher, moved for a
protective order limiting the scope of subpoenas to
information not protected under the California reporter’s
shield law and also the First Amendment to the United
States Constitution. Defendant opposed the motion,
arguing that statements he made during the interview
would establish mitigating circumstances relative to the
penalty determination, might establish that the murder
was not in furtherance of a robbery, and might be relevant
for the sanity phase. He further argued that Fisher
published his statements out of context, and he needed the
ability to impeach her credibility and to show that she was
acting as a government agent.
At a hearing on the matter, the court concluded that
defendant could cross-examine Fisher regarding the
circumstances ***157 surrounding the interview,
including statements he may have made that were not
published. The court also concluded, however, that it
would not order Fisher to turn over her notes at that time,
stating that making such an order would depend on her
testimony and whether she relied on those notes in
refreshing her recollection while testifying.
The trial court then conducted another hearing before
Fisher testified to determine whether she would be using
any unpublished notes to refresh her recollection.
Attorney Alec Barinholtz appeared on behalf of Fisher
and the Register’s parent company. Fisher did not testify
regarding whether she had taken notes during her
interview with defendant. Rather, she said that prior to
coming to court, she had refreshed her recollection by
reviewing the published newspaper article and watching a
videotape of a televised interview. The court ruled that
because Fisher did not rely on any notes to refresh her
*1015 recollection, any notes she may have taken were
shielded by law. The court concluded that defendant
could “inquire about matters that were discussed during
his interview with her. ... Well, anything that he recalls
that he wants to talk to her about that occurred during the
course of the interview is subject to be examined upon.”
Article I, section 2, subdivision (b) of the California
Constitution provides, as relevant to this case, that a
“reporter ... shall not be adjudged in contempt by a
judicial, legislative, or administrative body ... for refusing
to disclose any unpublished information obtained or
prepared in gathering, receiving or processing of
information for communication to the public.” The
constitutional provision is codified in section 1070 of the

Evidence Code. This law, known as the “shield law,”
“protects a newsperson from being adjudged in contempt
for refusing to disclose either: (1) unpublished
information, or (2) the source of information, whether
published or unpublished.” (Delaney v. Superior Court
(1990) 50 Cal.3d 785, 797, 268 Cal.Rptr. 753, 789 P.2d
934 (Delaney).) A newsperson’s immunity, however,
must yield to a criminal defendant’s constitutional right to
a fair trial. (Id. at p. 805, 268 Cal.Rptr. 753, 789 P.2d 934;
People v. Charles (2015) 61 Cal.4th 308, 325, 188
Cal.Rptr.3d 282, 349 P.3d 990 (Charles).) “ ‘In order to
compel disclosure of information covered by the shield
law, the defendant must make a threshold showing of a
reasonable possibility that the information will materially
assist his defense. The showing need not be detailed or
specific, but it must rest on more than mere speculation.’
” (People v. Ramos (2004) 34 Cal.4th 494, 526, 21
Cal.Rptr.3d 575, 101 P.3d 478 (Ramos).)
[31]

We have previously “set forth a number of factors to
guide the trial court in balancing the interests of a
criminal defendant seeking to overcome the immunity
granted by the shield law with the newsperson’s interests.
Those factors are: (a) ‘whether the unpublished
information is confidential or sensitive’; (b) whether ‘the
interests sought to be protected’ by the law would be
thwarted by disclosure; (c) ‘the importance of the
information to the criminal defendant’; and (d) ‘[w]hether
there is an alternative source for the unpublished
information.’ ” (Charles, supra, 61 Cal.4th at p. 325, 188
Cal.Rptr.3d 282, 349 P.3d 990; see **38 Delaney, supra,
50 Cal.3d at pp. 810–811, 268 Cal.Rptr. 753, 789 P.2d
934.)
Defendant asserts that the shield law should not apply
because he was both the source of the unpublished
information and the person seeking its disclosure. In
Delaney, supra, 50 Cal.3d 785, 268 Cal.Rptr. 753, 789
P.2d 934, we acknowledged that when “the criminal
defendant seeking disclosure is himself the source of the
information, ***158 it cannot be seriously argued that the
source (the defendant) will feel that his confidence has
been breached. The reporter’s news-gathering ability will
not be prejudiced.” (Id. at pp. 810–811, 268 Cal.Rptr.
753, 789 P.2d 934.)
*1016 [32]Before the court may weigh the interests sought
to be protected by the shield law, however, the defendant
must first make the threshold showing that there is a
reasonable possibility that the information will materially
assist his defense. In Ramos, supra, 34 Cal.4th 494, 21
Cal.Rptr.3d 575, 101 P.3d 478, a newspaper reporter
interviewed the defendant about the charges pending
against him. The newspaper published the interview.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

35

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

When the prosecution subpoenaed the reporter, he filed a
motion to quash on the ground that the information the
prosecution sought was protected by the shield law. (Id. at
p. 523, 21 Cal.Rptr.3d 575, 101 P.3d 478.) Following an
in camera hearing, the trial court decided the defense
could cross-examine the reporter on his observations of
the defendant’s mental status and demeanor, but it did not
require the reporter to produce his notes of the interview.
(Id. at p. 524, 21 Cal.Rptr.3d 575, 101 P.3d 478.)
We concluded that the defendant’s assertion that the
reporter’s notes were material to his defense was mere
speculation. (Ramos, supra, 34 Cal.4th at p. 527, 21
Cal.Rptr.3d 575, 101 P.3d 478.) The defendant had not
established that the notes contained anything different
from the reporter’s testimony, and the record did not
suggest the notes contained anything of substance that the
jury had not already heard. (Ibid.) Because the defendant
failed to meet the threshold showing, we did not balance
the Delaney factors to determine whether disclosure was
required, and we found the trial court did not abuse its
discretion in using the shield law to protect the reporter’s
notes. (Ibid.)
Here, defendant has likewise failed to make a threshold
showing that there was a reasonable possibility, beyond
mere speculation, that the information contained in
Fisher’s notes would have materially assisted his defense.
Indeed, he has not established that such notes even
existed. Although he asserted in his motion that he had
been misquoted in various passages of the article, the
statements attributed to him in the article were consistent
with his statements to the investigators. Defendant’s
vague assertion that he needed the notes to “test her
credibility” does not show a reasonable possibility that the
notes would have materially assisted his defense. He has
not made an adequate showing that any notes made by
Fisher contained anything different from her testimony or
from what the jury had already heard.
Further, the trial court permitted defendant to crossexamine Fisher on “all of the circumstances” surrounding
the interview, including statements defendant may have
made that were not published. As the court told defendant
during the hearing, “Considering the interview was of
you, I think there is significant areas of testing the
credibility available to you.”
The trial court likewise did not err when it denied
defendant’s motion to strike Fisher’s testimony. For the
reasons discussed above, defendant was not, as he asserts,
unable to effectively cross-examine Fisher without her
notes.

*1017 E. Instructional Error

1. Instruction on First Degree Murder
Defendant contends that the instructions permitting him to
be convicted of first degree murder on a theory of either
premeditated murder or felony murder violated his rights
under the Eighth and ***159 Fourteenth Amendments to
the federal Constitution because he was not charged with
first degree murder. He asserts that because he was
charged only with second degree murder under section
187, he cannot be found guilty of first degree murder. He
further asserts that the trial court committed reversible
error by failing to require the jury to unanimously agree
on the **39 theory of first degree murder. We have
repeatedly rejected substantially similar claims and do so
again here. (People v. Geier (2007) 41 Cal.4th 555, 592,
61 Cal.Rptr.3d 580, 161 P.3d 104; Cole, supra, 33 Cal.4th
at p. 1221, 17 Cal.Rptr.3d 532, 95 P.3d 811; People v.
Hughes (2002) 27 Cal.4th 287, 369, 116 Cal.Rptr.2d 401,
39 P.3d 432; People v. Kipp (2001) 26 Cal.4th 1100,
1132, 113 Cal.Rptr.2d 27, 33 P.3d 450; People v. Silva
(2001) 25 Cal.4th 345, 367, 106 Cal.Rptr.2d 93, 21 P.3d
769; People v. Carpenter (1997) 15 Cal.4th 312, 394–
395, 63 Cal.Rptr.2d 1, 935 P.2d 708.) Defendant offers no
persuasive reason to revisit these holdings.

2. Attempted Robbery–Murder Instruction
[33]

Defendant contends the trial court erred when it
instructed the jury on attempted robbery–murder. He
asserts the instruction was “tantamount to a directed
verdict on the issue of whether the killing occurred during
the commission of attempted robbery, because the
undisputed evidence showed that [he] fatally shot the
victim long before he had reached a place of ‘temporary
safety.’ ”
The court instructed the jury in the language of CALJIC
Nos. 8.21: “The unlawful killing by a defendant of a
human being, whether intentional, unintentional or
accidental, which occurs during the commission or
attempted commission of the crime of robbery is murder
of the first degree when the perpetrator had the specific

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

36

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

intent to commit that crime.” It also instructed the jury in
the language of CALJIC No. 8.21.1: “For the purposes of
determining whether an unlawful killing has occurred
during the commission or attempted commission of a
robbery, the commission of the crime of robbery is not
confined to a fixed place or a limited period of time. An
attempted robbery is still in progress after the attempted
taking of the property while the perpetrator is fleeing in
an attempt to escape. Likewise it is still in progress so
long as immediate pursuers are attempting to capture the
perpetrator. An attempted robbery is complete when the
perpetrator has eluded any pursuers and has reached a
place of temporary safety.”
*1018 Defendant asserts that the evidence showed the
attempted robbery and murder were two distinct crimes,
not one continuous transaction, and that the instruction
erroneously removed a factual issue from the jury’s
consideration by directing the jury to conclude that the
attempted robbery was still in progress when he shot the
victim. He relies on People v. Sakarias (2000) 22 Cal.4th
596, 94 Cal.Rptr.2d 17, 995 P.2d 152 (Sakarias). In that
case, the jury asked the court for clarification regarding
when a burglary begins and ends. The court responded, “
‘Although it is alleged that the killing in the present case
occurred sometime after it is alleged the defendant
entered the house, if the jury finds that the defendant
committed burglary by entering the house with the intent
to steal, the homicide and the burglary are parts of one
continuous transaction.’ ” (Id. at p. 623, 94 Cal.Rptr.2d
17, 995 P.2d 152.) In Sakarias, we concluded that the trial
court’s response relieved the jury of its obligation to
determine whether all the elements of first degree murder
and the burglary-murder special circumstance had been
proven beyond a reasonable doubt, but we further
concluded that the error ***160 was harmless. (Id. at pp.
624–625, 94 Cal.Rptr.2d 17, 995 P.2d 152.)
Subsequent to our decision in Sakarias, we have held
CALJIC No. 8.21.1 to be a correct statement of the law.
(People v. Debose (2014) 59 Cal.4th 177, 204–205, 172
Cal.Rptr.3d 606, 326 P.3d 213.) Defendant concedes that
CALJIC No. 8.21.1 “may be a proper instruction under
appropriate circumstances,” but he asserts that the
instruction was erroneous in this situation. He is mistaken.
In Sakarias, the trial court’s written response to the jury’s
question was erroneous because it did not instruct the jury
that it must decide for itself whether the homicide and
burglary were part of a single continuous transaction.
(Sakarias, supra, 22 Cal.4th at p. 626, 94 Cal.Rptr.2d 17,
995 P.2d 152.) The CALJIC No. 8.21.1 instruction given
here did not suffer from the same flaw. The jury was left
to decide whether the attempted robbery was complete
before the murder took place.

3. Special Circumstance Instruction
[34]

Defendant contends the trial court erroneously
instructed the jury on the special **40 circumstance
allegation of attempted robbery–murder. He contends that
the instruction, combined with CALJIC No. 8.21.1,
permitted the jury to find the special circumstance true
without finding that he killed the victim while engaged in
an attempted robbery. We reject the claim.
Over defendant’s objection, the trial court instructed the
jury using a modified version of CALJIC No. 8.8.17 as
follows, with the modified portion in italics: “To find that
the special circumstance, referred to in these instructions
as murder in the commission of attempted robbery, is
true, it must be proved: 1. The murder was committed
while the defendant was engaged in the attempted
commission of a robbery, or the murder was committed
during *1019 the immediate flight after the attempted
commission of a robbery by the defendant and 2. The
murder was committed in the course of the commission of
the crime of attempted robbery or to facilitate the escape
therefore or to avoid detection. In other words, the special
circumstance referred to in these instructions is not
established if the attempted robbery was merely incidental
to the commission of the murder.”
The standard jury instruction at the time of trial read,
“The murder was committed in order to carry out or
advance the commission of the crime ....” (Italics added.)
Defendant asserts that the evidence supported instructing
the jury with the standard “carry out or advance”
language, because the jury could have reasonably
concluded that any intent to steal no longer existed when
he shot the victim. We have previously held, however,
that there “is nothing magical about the phrase ‘to carry
out or advance’ the felony. Indeed, we ourselves have
stated the requirement without using that phrase.” (People
v. Horning (2004) 34 Cal.4th 871, 908, 22 Cal.Rptr.3d
305, 102 P.3d 228.) We reiterated in Horning that if the
felony was merely incidental to the murder, no separate
felony-based special circumstance exists, and the
instruction’s explanation that the robbery must not be “
‘merely incidental to the commission of the murder’ ”
adequately conveys this requirement. (Ibid.) Because the
court properly instructed the jury that it could not find the
special circumstance true if it found the robbery to be
merely incidental to the commission of the murder, there
was no error.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

37

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

4. Proof Beyond a Reasonable Doubt
Defendant contends the instructions on circumstantial
evidence (CALJIC Nos. 2.01, 2.02, 8.83, 8.83.1) diluted
the proof-beyond-a-reasonable-doubt ***161 standard
because they “informed the jurors that if [he] reasonably
appeared to be guilty, they could find him guilty even if
they entertained a reasonable doubt as to guilt.” We have
previously rejected similar challenges to these
instructions. (People v. Brasure (2008) 42 Cal.4th 1037,
1058, 71 Cal.Rptr.3d 675, 175 P.3d 632.) Defendant
offers no persuasive reason for us to revisit our precedent.

argumentative language that focused on the defendant’s
version of the facts, not his legal theory of the case.
(Bonilla, at p. 330, 60 Cal.Rptr.3d 209, 160 P.3d 84.) In
Bonilla, we also rejected the defendant’s argument that
CALJIC No. 2.03, another consciousness of guilt
instruction, was argumentative simply because it, too,
contained the if/then structure. (Bonilla, at p. 330, 60
Cal.Rptr.3d 209, 160 P.3d 84.) For the same reason, we
reject defendant’s argument here.
Lastly, defendant asserts that the instruction permitted the
jury to draw an impermissible inference concerning his
guilt. We have previously rejected this contention (People
v. Bryant, Smith and Wheeler (2014) 60 Cal.4th 335, 438,
178 Cal.Rptr.3d 185, 334 P.3d 573; People v. Rundle
(2008) 43 Cal.4th 76, 153–154, 74 Cal.Rptr.3d 454, 180
P.3d 224), and defendant presents no compelling reason
to reconsider these decisions.

5. Flight Instruction
Defendant raises three challenges to the trial court’s
instruction on flight, CALJIC No. 2.52.
He first asserts the instruction was unnecessary because it
was duplicative of the general jury instructions regarding
circumstantial evidence, citing CALJIC Nos. 2.00, 2.01,
and 2.02. We have previously rejected this claim,
concluding: “ ‘CALJIC Nos. 2.00, 2.01, and 2.02 instruct[
] the jury on *1020 the definition of circumstantial
evidence and its sufficiency in establishing facts to
establish guilt. On the other hand, CALJIC No. 2.52 [is] a
cautionary instruction that benefit[s] the defense by
“admonishing the jury to circumspection regarding
evidence that might otherwise be considered decisively
inculpatory.” [Citation.]’ ” (People v. Leon (2015) 61
Cal.4th 569, 608, 189 Cal.Rptr.3d 703, 352 P.3d 289.)

6. Motive Instruction
Defendant contends the trial court erred in instructing the
jury with CALJIC No. 2.51, regarding motive, because it
improperly allowed the jury to determine guilt based upon
the presence of an alleged motive and thus shifted the
burden of proof to the defense. We have repeatedly
rejected substantially similar contentions, and we do so
again here. (People v. Nelson (2016) 1 Cal.5th 513, 552–
553, 205 Cal.Rptr.3d 746, 376 P.3d 1178; People v.
Capistrano (2014) 59 Cal.4th 830, 876–877, 176
Cal.Rptr.3d 27, 331 P.3d 201.)

***162 *1021 III. PENALTY PHASE ISSUES

[35]

Defendant next contends the instruction was
impermissibly argumentative in light of People v. Mincey
(1992) 2 Cal.4th 408, 6 Cal.Rptr.2d 822, 827 P.2d 388,
which he contends rejected, as argumentative, an
instruction structurally similar to CALJIC No. 2.52. We
have described the instruction in Mincey, like that in
CALJIC No. 2.52, as having an if/then structure: “ ‘If
[certain facts] are shown, then you may [draw particular
conclusions].’ ” ( **41 People v. Bonilla (2007) 41
Cal.4th 313, 330, 60 Cal.Rptr.3d 209, 160 P.3d 84.) We
explained in Bonilla, however, that the structure of the
instruction given in Mincey was not problematic. Rather,
the Mincey instruction was flawed because it contained

A. Refusal of Defendant’s Requested Jury
Instructions

1. Instructions on Aggravating Factors
[36]

Defendant contends the trial court erred when it

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

38

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

refused his proposed instruction that would have informed
the jurors that they could not double-count the facts
underlying the special circumstance. The proposed
instruction read: “You must not consider as an
aggravating factor the existence of any special
circumstances if you have already considered the facts of
the special circumstance as a circumstance of the crime
for which the defendant has been convicted. [¶] In other
words, do not consider the same facts more than once in
determining the presence of aggravating factors.” The
trial court rejected the proposed instruction, concluding
that defendant’s concern was addressed in CALJIC No.
8.88.
Defendant cites People v. Monterroso (2004) 34 Cal.4th
743, 22 Cal.Rptr.3d 1, 101 P.3d 956, in which we held the
trial court committed harmless error when it denied the
defendant’s request to instruct the jury against doublecounting the special circumstances. (Id. at p. 789, 22
Cal.Rptr.3d 1, 101 P.3d 956.) The court had instructed the
jury with CALJIC No. 8.85, “which instructed the jury to
consider, take into account, and be guided by, inter alia,
‘the circumstances of the crime of which the defendant
was convicted in the present proceeding and the existence
of any special circumstances found to be true.’ ” (People
v. Monterroso, at p. 789, 22 Cal.Rptr.3d 1, 101 P.3d 956.)
We noted that, even without the clarifying instruction the
defendant had requested, the possibility that a jury would
believe it could weigh each special circumstance twice
was remote, and thus, in the absence of any misleading
argument by the prosecutor or some other event
substantiating the claimed double-counting, reversal was
not required. (Id. at pp. 789–790, 22 Cal.Rptr.3d 1, 101
P.3d 956.)
In the present case, the trial court also instructed the jury
in the language of CALJIC No. 8.85. Defendant does not
allege that the prosecutor argued the issue in a misleading
manner, nor does he point to anything in the record giving
rise to a substantial likelihood of double-counting. Even
assuming error, it was harmless beyond a reasonable
doubt.
Defendant next contends that the trial court erred when it
refused his proposed instruction that read: “In deciding
whether you should sentence the defendant to life
imprisonment without the possibility of parole, or to
death, you cannot consider as an aggravating factor any
fact that was used by you in finding him guilty of murder
in the **42 first degree unless that fact establishes
something in addition to an element of the crime of
murder in the first *1022 degree.” Section 190.3, factor
(a), however, expressly permits the penalty phase jury to
consider the circumstances of the crime in determining

penalty, and on that ground, we have previously upheld
the rejection of substantially similar proposed
instructions. (See People v. Moon (2005) 37 Cal.4th 1, 40,
32 Cal.Rptr.3d 894, 117 P.3d 591.)

2. Refusal of Additional Penalty Phase Instructions
Defendant contends that the trial court erroneously
refused to give several requested penalty phase
instructions that would have clarified the standard penalty
phase instructions and provided guidance to the jurors.
We disagree.
[37]

The first proposed instruction would have told the jury
that certain sentencing factors could only be considered as
mitigating. The trial court concluded the instruction was
duplicative of ***163 CALJIC No. 8.85. It did not err. As
we have previously held, the trial court need not define
which statutory factors could be considered aggravating
and mitigating. (People v. Hillhouse (2002) 27 Cal.4th
469, 509, 117 Cal.Rptr.2d 45, 40 P.3d 754.)
The second proposed instruction would have told the jury
that its consideration of mitigating factors was not limited
to the factors provided and that jurors could consider any
other circumstances relating to the case or to defendant as
reasons for not imposing the death penalty. We have
previously held that such instructions are not necessary
because “the catchall section 190.3, factor (k) instruction
‘allows the jury to consider a virtually unlimited range of
mitigating circumstances.’ ” (People v. Smithey (1999) 20
Cal.4th 936, 1007, 86 Cal.Rptr.2d 243, 978 P.2d 1171.)
The third proposed instruction would have told the jury it
could not consider evidence of defendant’s lifestyle or
background as an aggravating factor, but it could consider
such evidence as a mitigating factor. In People v. Ochoa
(2001) 26 Cal.4th 398, 457, 110 Cal.Rptr.2d 324, 28 P.3d
78, we concluded that the court’s refusal to give a
substantially similar instruction was not erroneous
because, as in this case, the court properly instructed the
jury on aggravating and mitigating factors.
Defendant also proposed instructing the jury that it could
consider as a mitigating circumstance whether defendant
was under the influence of any mental or emotional
disturbance at the time of the offense and whether his
capacity to appreciate the criminality of his conduct was a
result of mental disease, mental defect, or intoxication.
The court rejected these instructions, concluding they

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

39

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

were cumulative. Defendant now asserts the proposed
instructions were not cumulative because, unlike CALJIC
No. 8.85, they did not contain the term “extreme.” (See,
e.g., CALJIC No. 8.85 [permitting the *1023 jury to
consider “[w]hether or not the offense was committed
while the defendant was under the influence of extreme
mental or emotional disturbance” (italics added) ].) He
asserts this distinction is important because jurors “must
be allowed to consider a defendant’s entire personal
history and characteristics, not just those that may be seen
as ‘extreme.’ ” We have previously held, however, that
the “use of restrictive adjectives — i.e., ‘extreme’ and
‘substantial’ — in the list of mitigating factors in section
190.3 does not act unconstitutionally as a barrier to the
consideration of mitigation.” (People v. Harris (2005) 37
Cal.4th 310, 365, 33 Cal.Rptr.3d 509, 118 P.3d 545.) We
have also held that the instruction allows a jury to
consider a defendant’s mental condition as mitigation
even if not “ ‘extreme.’ ” (People v. Babbitt (1988) 45
Cal.3d 660, 720–721, 248 Cal.Rptr. 69, 755 P.2d 253.)
[38]

In addition, defendant requested that the court instruct
the jury that defendant bore no burden to prove the
existence of mitigating factors, that a mitigating factor
need not be proven beyond a reasonable doubt, and that
the jury need not unanimously agree on any fact or
circumstance offered in mitigation. We again conclude
that the trial court did not err in refusing these
instructions. (Kansas v. Carr (2016) 577 U.S. ––––, ––––,
136 S.Ct. 633, 642, 193 L.Ed.2d 535 [“our case law does
not require capital **43 sentencing courts ‘to
affirmatively inform the jury that mitigating
circumstances need not be proved beyond a reasonable
doubt’ ”]; Riggs, supra, 44 Cal.4th at p. 328, 79
Cal.Rptr.3d 648, 187 P.3d 363 [the court was not required
to instruct the jury on burden of proof]; People v. Breaux
(1991) 1 Cal.4th 281, 314–315, 3 Cal.Rptr.2d 81, 821
P.2d 585 (Breaux) [the court is not required to ***164
instruct the jury that unanimity on mitigating factors was
not required].)
Defendant also proposed three instructions regarding the
jurors’ consideration of aggravating factors. The first
proposed instruction would have told the jury it could
consider rebuttal evidence offered by the prosecution only
as it relates to the existence or weight of a mitigating
factor; it could not consider it as an aggravating factor.
Because the prosecutor did not present rebuttal evidence
during the penalty phase, the court did not err in refusing
to give this proposed instruction. Defendant asserts that
the prosecutor nonetheless presented rebuttal evidence
during its case in chief (namely, evidence of his
background and character) and that such evidence should
have instead been presented as rebuttal evidence.

Therefore, defendant argues, the court should have
provided the proposed instruction. Because defendant
does not actually challenge the admissibility of this
evidence during the prosecutor’s case in chief, we decline
to decide whether or not it was improper. As the Attorney
General notes, even if the evidence was improperly
introduced during the case in chief and should have been
introduced as rebuttal evidence, defendant’s proposed
instruction would have confused the jury, as the jury
would not have understood what evidence the instruction
referred to.
*1024 The second proposed instruction would have told
the jury that it must find an aggravating factor has been
proven beyond a reasonable doubt. We have repeatedly
held that, except for evidence of other crimes and prior
convictions under section 190.3, factors (b) and (c), the
jury need not find the aggravating factors have been
proven beyond a reasonable doubt. (People v. Rangel
(2016) 62 Cal.4th 1192, 1235, 200 Cal.Rptr.3d 265, 367
P.3d 649; Williams, supra, 49 Cal.4th at pp. 458-459, 111
Cal.Rptr.3d 589, 233 P.3d 1000.) We have no cause to
reconsider those holdings here.
[39]

[40]

The third proposed instruction would have
instructed the jurors that they could not allow sympathy
for the victim or the victim’s family to divert their
attention from their sentencing role, and they could not
impose a penalty of death as a purely emotional response
to the evidence. The court did not err when it found this
proposed instruction cumulative. The court instructed the
jury with CALJIC No. 8.84.1, which in relevant part
provides, “You must neither be influenced by bias nor
prejudice against the defendant, nor swayed by public
opinion or public feelings.” We presume the jurors
understood and followed the court’s instruction. (People
v. Homick (2012) 55 Cal.4th 816, 873, 150 Cal.Rptr.3d 1,
289 P.3d 791.)
Lastly, defendant requested instructions regarding the
jurors’ weighing of factors and their consideration of
mercy and sympathy. The first proposed instruction
would have told the jury that it could decide to impose
life without the possibility of parole even if it found no
mitigating factors present. We have previously held that
the trial court is not required to so instruct the jury.
(People v. Perry (2006) 38 Cal.4th 302, 320, 42
Cal.Rptr.3d 30, 132 P.3d 235; People v. Johnson (1993) 6
Cal.4th 1, 52, 23 Cal.Rptr.2d 593, 859 P.2d 673.)
The second proposed instruction would have told the jury
that the presence of a single mitigating factor is sufficient
to support a vote against imposing the death penalty. We
have previously held a trial court does not err in refusing

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

40

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

such an instruction. (People v. Gutierrez (2002) 28
Cal.4th 1083, 1160–1161, 124 Cal.Rptr.2d 373, 52 P.3d
572.)
***165 [41]The third proposed instruction provided: “The
law of California does not require that you ever vote to
impose the penalty of death. After considering all of the
evidence in the case and instructions given to you by the
court, it is entirely up to you to determine whether you are
convinced that the death penalty is the appropriate
punishment under all of the circumstances of the case.”
We have previously held that **44 such instruction is
misleading and argumentative if it does not also inform
the jury that the law has no preference for the punishment
of life without the possibility of parole. ( *1025 People v.
Earp (1999) 20 Cal.4th 826, 903, 85 Cal.Rptr.2d 857, 978
P.2d 15.) Rather, a correct statement of California law is
that “our law ‘expresses no preference as to the
appropriate punishment.’ ” (Ibid.) The trial court properly
rejected defendant’s proposed instruction.
Defendant also requested that the jury be instructed that,
on the basis of mercy, it could decide not to impose the
death penalty, regardless of whether or not defendant
deserved their sympathy, and that if any of the evidence
aroused sympathy to such an extent that they believed
death was not an appropriate punishment, the jury could
act on that sympathy by imposing life in prison without
the possibility of parole. In rejecting these proposed
instructions, the trial court concluded they were
duplicative of CALJIC No. 8.85, factor (k), which
informed the jury that it could consider “any sympathetic
or other aspect of the defendant’s character or record that
the defendant offers as a basis for a sentence less than
death, whether or not related to the offense for which he is
on trial.” (Ibid., internal brackets omitted.) “As we have
previously explained, CALJIC No. 8.85 adequately
instructs the jury concerning the circumstances that may
be considered in mitigation, including sympathy and
mercy. [Citation.] We therefore ‘must assume the jury
already understood it could consider mercy and
compassion.’ ” (People v. Ervine (2009) 47 Cal.4th 745,
801, 102 Cal.Rptr.3d 786, 220 P.3d 820.)

defendant, you shall consider all of the evidence which
has been received during any part of the trial of this case
except as you may hereafter be instructed. You may
consider, take into account and be guided by the
following factors, if applicable ....” (Italics added.) The
court erroneously said “may consider” instead of “shall
consider,” but the written version of CALJIC No. 8.85
correctly instructed the jury that it shall consider the
enumerated factors.
The court also instructed the jury with CALJIC No. 8.88,
which read in part: “After having heard all of the
evidence, and after having heard and considered the
arguments of counsel, you shall consider, take into
account and be guided by the applicable factors of
aggravating and mitigating circumstances upon which you
have been instructed.” (Italics added.) The court also
instructed the jurors, “You are to be governed only by the
instruction in its final wording.”
*1026 [42]We presume the jury understands and follows
the trial court’s instructions, including the written
instructions. (People v. Wilson (2008) 44 Cal.4th 758,
803, 80 Cal.Rptr.3d 211, 187 P.3d 1041.) Moreover, “[t]o
the extent a discrepancy exists between the written and
oral versions of jury ***166 instructions, the written
instructions provided to the jury will control.” (Ibid.)
Defendant cites to nothing in the record to rebut the
presumption that the jurors followed the written
instructions that were provided.

IV. OTHER ISSUES

A. Challenges to the Death Penalty
Defendant presents a number of challenges to California’s
death penalty law that our prior decisions have considered
and rejected. He provides no persuasive reason for us to
reexamine the following conclusions:
[43] [44]

B. Instruction on Applicable Sentencing Factors
Defendant contends the trial court prejudicially erred in
delivering its oral instructions to the jury.
While reading the penalty phase instructions to the jury,
the court read CALJIC No. 8.85 as follows: “In
determining which penalty is to be imposed on the

“California’s death penalty law ‘adequately narrows
the class of murderers subject to the death penalty’ and
does not violate the Eighth Amendment. [Citation.]
Section 190.2, which sets forth the circumstances in
which the penalty of death may be imposed, is not
impermissibly broad in violation of the Eighth
Amendment.” (People v. Williams (2013) 58 Cal.4th 197,
294, 165 Cal.Rptr.3d 717, 315 P.3d 1.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

41

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

**45 [45]“Allowing the jury to consider the circumstances
of the crime (§ 190.3, factor (a)) does not lead to the
imposition of the death penalty in an arbitrary or
capricious manner.” (People v. Kennedy (2005) 36
Cal.4th 595, 641, 31 Cal.Rptr.3d 160, 115 P.3d 472.)
[46]

“Nor is the death penalty statute unconstitutional for
not requiring ‘findings beyond a reasonable doubt that an
aggravating circumstance (other than Pen. Code, § 190.3,
factor (b) or (c) evidence) has been proved, that the
aggravating factors outweighed the mitigating factors, or
that death is the appropriate sentence.’ ” (People v.
Erskine (2019) 7 Cal.5th 279, 304, 247 Cal.Rptr.3d 86,
440 P.3d 1112.)

Cal.Rptr.2d 271, 65 P.3d 749.)
***167 [54]“The capital sentencing scheme does not
violate equal protection by denying to capital defendants
procedural safeguards that are available to noncapital
defendants.” (People v. Thomas (2012) 53 Cal.4th 771,
836, 137 Cal.Rptr.3d 533, 269 P.3d 1109 (Thomas).)
[55]

California’s death penalty does not violate international
law or international norms of decency. (Thomas, supra,
53 Cal.4th at p. 837, 137 Cal.Rptr.3d 533, 269 P.3d
1109.)

[47]

CALJIC No. 8.88 is not impermissibly broad. (Breaux,
supra, 1 Cal.4th at p. 316, fn. 14, 3 Cal.Rptr.2d 81, 821
P.2d 585.)

[48] [49]

The death verdict need not be based on unanimous
jury findings. “While all the jurors must agree death is the
appropriate penalty, the guided discretion through which
jurors reach their penalty decision must permit each juror
individually to assess such potentially aggravating factors
as the circumstances of the capital crime (§ 190.3, factor
(a)), prior felony convictions (id., factor (c)), and other
violent criminal activity (id., factor (b)), and decide for
*1027 him- or herself ‘what weight that activity should be
given in deciding the penalty.’ ” (People v. Demetrulias
(2006) 39 Cal.4th 1, 41, 45 Cal.Rptr.3d 407, 137 P.3d 229
(Demetrulias).)

B. Restitution Fine
The abstract of judgment indicates that the trial court
imposed a $10,000 restitution fine. However, the court
did not actually impose the fine at the sentencing hearing;
it was merely added to the abstract of judgment later.
Defendant contends that because the court never imposed
the fine in open court in his presence, it should be stricken
from the abstract of judgment. (See § 1202.4; People v.
Tillman (2000) 22 Cal.4th 300, 303, 92 Cal.Rptr.2d 741,
992 P.2d 1109.) The Attorney General properly concedes
the error. We order the restitution fine stricken from the
record and the minutes, and the abstract of judgment
modified accordingly.
[56]

[50]

The trial court need not instruct the jury that it must
return a sentence of life without the possibility of parole if
it finds that mitigation outweighs aggravation. (People v.
Duncan (1991) 53 Cal.3d 955, 978, 281 Cal.Rptr. 273,
810 P.2d 131.)
[51]

Instructions on the meaning of a sentence of life
imprisonment without the possibility of parole and on the
“ ‘presumption of life’ ” are not constitutionally required.
(Demetrulias, supra, 39 Cal.4th at p. 43, 45 Cal.Rptr.3d
407, 137 P.3d 229.)

*1028 C. Cumulative Error
Defendant contends that the cumulative effect of the
asserted errors requires reversal of the judgment. We have
identified one error, the imposition of the restitution fine,
and assumed other errors but found no prejudice. Nor is
this error and any assumed error cumulatively prejudicial.

[52]

“The trial court has no obligation to delete from
CALJIC No. 8.85 inapplicable mitigating factors, nor
must it identify which factors are aggravating and which
are mitigating.” (People v. Cook (2006) 39 Cal.4th 566,
618, 47 Cal.Rptr.3d 22, 139 P.3d 492.)
[53]

**46 V. CONCLUSION
The restitution fine is ordered stricken from the abstract
of judgment. The judgment is affirmed in all other
respects.

“Comparative intercase proportionality review by the
trial or appellate courts is not constitutionally required.”
(People v. Snow (2003) 30 Cal.4th 43, 126, 132
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

42

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

We Concur:

I am skeptical of dismissing Frederickson’s section 1018
challenge on the ground that he failed to secure a ruling
from the superior court that section 1018 barred him from
pleading guilty as a self-represented capital defendant.
*1029 The record is at least ambiguous as to whether the
municipal court on January 27, 1997 implied such a ruling
and therefore indicated to Frederickson that any attempt
to plead guilty at his preliminary hearing would be futile
because of section 1018.

CANTIL-SAKAUYE, C. J.
CORRIGAN, J.
CUÉLLAR, J.
KRUGER, J.
GROBAN, J.

Concurring Opinion by Justice Liu
I agree with the judgment and with today’s opinion,
except that I would reach the merits of whether Penal
Code section 1018 is constitutional after McCoy v.
Louisiana (2018) 584 U.S. ––––, 138 S.Ct. 1500, 200
L.Ed.2d 821 (McCoy) and hold that it is.
Penal Code section 1018 says that no guilty plea to an
offense punishable by death or life without the possibility
of parole “shall be received from a defendant who does
not appear with counsel, nor shall that plea be received
without the consent of the defendant’s counsel.” (All
statutory references are to the Penal Code.)
Frederickson’s primary argument in his automatic appeal
is that the trial court denied his repeated requests to plead
guilty based on section 1018 and that section 1018
violates his right to control his defense under the Sixth
Amendment to the United States Constitution. The court
dismisses this argument exclusively on the basis that he
failed to secure a ruling from the superior court rejecting
his plea on section 1018 grounds. (Maj. opn., ante, 258
Cal.Rptr.3d at pp. 145–146, 457 P.3d at pp. 27–28.) But
the record is too muddled to support that conclusion, and
in any event, this court has often excused forfeitures
raising pure questions of law. On the merits, I would
reject Frederickson’s claim that section 1018 is
unconstitutional after McCoy. McCoy does not upend our
long and unbroken precedent holding that ***168 section
1018 constitutes a valid balance between society’s interest
in ensuring the reliability of judgments in capital cases
and a criminal defendant’s right to conduct his own
defense.

I.

As today’s opinion recounts (maj. opn., ante, 258
Cal.Rptr.3d at pp. 128–134, 457 P.3d at pp. 13–18),
Frederickson diligently pursued his desire to plead guilty
before trial until the prosecution informed him that he
could not lawfully do so, and the municipal court
appeared to endorse that view. Frederickson expressed a
desire to waive his preliminary hearing and plead guilty
on December 24, 1996 at an in camera hearing in the
superior court to address the disbursement of investigative
funds. At this point, he was representing himself with the
aid of advisory counsel. Because only the disbursement
issue was before it, the superior court explained that “the
issue as to whether or not you’re going to plead guilty or
waive a preliminary hearing is really not before me
today.” Frederickson repeated his wishes by saying, “I’m
pleading guilty and that’s that.” The court responded,
“Well, you haven’t done that yet.” Frederickson said,
“Well, I’m attempting to very, very, very hard.” The
superior court said it would contact the municipal court,
where the rest of Frederickson’s case was pending, and
ask it to calendar his preliminary hearing as soon as
possible.
On January 27, 1997, the superior court held another in
camera hearing, this time to address Frederickson’s
violation of his self-representation jail privileges.
Frederickson’s advisory counsel reiterated Frederickson’s
desire to waive the preliminary hearing and plead guilty,
and the superior court again offered to contact the
municipal court.
**47 That afternoon, Frederickson and his advisory
counsel appeared in municipal court. Frederickson stated
to the court, “[T]he guilt of my crime has been weighing
heavily on me with a remorseful heart. I would like to
offer a change of plea and enter a plea of guilty to murder
in the first degree and admit the special circumstances and
waive all appellate rights at this time.” Before the
municipal court could rule on his request, the prosecutor
asked to speak with Frederickson and his advisory
counsel off the record. Following that conversation, the
prosecutor summarized the conversation for the court:
“What I did your honor, for the record I had a brief
conversation with Mr. Frederickson in the presence of Mr.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

43

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

Freeman [advisory counsel] and I had suggested to Mr.
Frederickson that he seriously reconsider his thoughts
about what he was planning on doing. He wants to plead
guilty to the charges. I told him by law he cannot plead
guilty to a special circumstances allegation case. He
understands that, but I told him no judge can accept your
plea. Furthermore, I told him that it was my opinion Mr.
Freeman would offer him the best possible representation
and suggested that he follow Mr. Freeman’s advice on the
matter. It’s my understanding Mr. Frederickson despite
Mr. Freeman’s conversations with him and my own
conversations with him in Mr. Freeman’s *1030 presence
Mr. Frederickson still wants to plead guilty, ***169
although I think he realizes that he cannot. I think it’s his
desire to actually waive the preliminary hearing which is
still scheduled for February 5th. My last suggestion to
him was not to do anything today. That we just come on
February 5th and have more of a chance to think about it,
to talk to Mr. Freeman, or talk to his investigator and then
he can decide what he wants to do on the 5th.” (Italics
added.)
The court responded: “Well, that is all true, but Mr.
Tanizaki [the prosecutor], the People also have a right to a
preliminary examination. So even if Mr. Frederickson
does want to waive preliminary hearing, the People may
choose not to.” The court went on to explain to
Frederickson that the prosecution was not prepared to
waive the preliminary hearing at that time and suggested
that Frederickson reassert his request if he wished to do so
on February 5 at his preliminary hearing. At the
preliminary hearing, Frederickson did not request to
waive the hearing or to plead guilty.
The prosecutor’s summary of his January 27, 1997
conversation with Frederickson and advisory counsel
suggests that he told Frederickson that section 1018
prevented him from pleading guilty to a capital crime.
The prosecutor specifically stated that Frederickson “by
law ... cannot plead guilty to a special circumstances
allegation case,” an evident reference to section 1018. The
prosecutor reinforced this by saying that “no judge can
accept your plea.” He did not say that Frederickson could
not plead guilty at this hearing or that he could not plead
guilty before a municipal court; instead, he suggested that
the legal bar to pleading guilty was unconditional for
Frederickson, who proceeded pro per. This categorical
statement did not suggest that “the prosecutor may only
have meant that no judge could [accept his plea] at that
time.” (Maj. opn., ante, 258 Cal.Rptr.3d at p. 145, fn. 11,
457 P.3d at p. 27, fn. 11). Indeed, at a hearing on October
21, 1997, the prosecutor asked the court to bar
Frederickson from mentioning that he had previously
attempted to plead guilty because “the Penal Code

specifically disallows a guilty plea while he’s in pro per.”
The municipal court then endorsed the entirety of the
prosecutor’s remarks to Frederickson, stating, “Well, that
is all true.” The court did not expressly deny
Frederickson’s attempt to plead guilty based on section
1018, and according to today’s opinion, it appears that the
municipal court had no jurisdiction to accept such a plea.
(Maj. opn., ante, 258 Cal.Rptr.3d at pp. 141–142, 457
P.3d at pp. 24–25.) But the municipal court’s
endorsement of the prosecutor’s admonition that “no
judge can accept [Frederickson’s] plea” informed
Frederickson that section 1018 barred him from pleading
guilty regardless of which court he was in.
Today’s opinion relies heavily on the fact that the
municipal court on January 27, 1997 did not have
jurisdiction to accept Frederickson’s guilty *1031 plea
and that Frederickson should have pressed for a ruling on
his request **48 to plead guilty at his February 5, 1997
preliminary hearing. (Maj. opn., ante, 258 Cal.Rptr.3d at
pp. 143–145, 457 P.3d at pp. 26–27.) But Frederickson
had no reason to press for a ruling on his guilty plea
request at the preliminary hearing; in light of the
municipal court’s endorsement of the prosecutor’s
statement that “no judge can accept [his] plea,”
Frederickson had good reason to believe any further effort
to plead guilty would have been futile. Indeed, based on
the prosecutor’s remarks at the hearing on October 27,
1997, it appears that both parties operated on the
assumption that a court had in fact rejected Frederickson’s
plea on the ground that it was precluded by ***170
section 1018. Given Frederickson’s diligent efforts to
plead guilty until the municipal court endorsed the
prosecutor’s statement that “by law he cannot plead guilty
to a special circumstances allegation case,” I would not
reject Frederickson’s section 1018 challenge on forfeiture
grounds.
In any event, we regularly excuse forfeiture where the
defendant has asserted the deprivation of a fundamental
constitutional right (People v. Vera (1997) 15 Cal.4th
269, 276, 62 Cal.Rptr.2d 754, 934 P.2d 1279 [“A
defendant is not precluded from raising for the first time
on appeal a claim asserting the deprivation of certain
fundamental, constitutional rights.”] ), and we have
recognized, approvingly, that the Courts of Appeal have
excused forfeiture “when a forfeited claim involves an
important issue of constitutional law or a substantial
right” or “when applicability of the forfeiture rule is
uncertain or the defendant did not have a meaningful
opportunity to object at trial” (In re Sheena K. (2007) 40
Cal.4th 875, 887–888, fn. 7, 55 Cal.Rptr.3d 716, 153 P.3d
282 [collecting cases] ). Frederickson’s claim implicates

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

44

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

his Sixth Amendment rights, and ample precedent
supports excusal of any forfeiture here.

II.
On the merits, I would hold that section 1018 is
constitutional notwithstanding the high court’s decision in
McCoy. I addressed this issue in People v. Miracle (2018)
6 Cal.5th 318, 360–361, 240 Cal.Rptr.3d 381, 430 P.3d
847 (dis. opn. of Liu, J.), and reprise the main points here.
I note that the Attorney General in this case, contrary to
his position in Miracle, contends that section 1018 is
constitutional and assured this court at oral argument that
going forward he will no longer take the position that
section 1018 is unconstitutional.
At the core of the question is whether the Eighth
Amendment requirement of “reliability in the
determination that death is the appropriate punishment”
(Woodson v. North Carolina (1976) 428 U.S. 280, 305, 96
S.Ct. 2978, 49 L.Ed.2d 944 (Woodson)), when balanced
against a capital defendant’s Sixth *1032 Amendment
right to control his own defense, allows the Legislature to
limit that defendant’s ability to plead guilty without
consent of counsel. A long and unbroken line of precedent
has upheld section 1018 as striking an appropriate balance
between these interests, and McCoy does not disturb that
precedent.

A.
The Sixth Amendment “grants to the accused personally
the right to make his defense.” (Faretta v. California
(1975) 422 U.S. 806, 819, 95 S.Ct. 2525, 45 L.Ed.2d 562
(Faretta).) This right, grounded in the “fundamental legal
principle that a defendant must be allowed to make his
own choices about the proper way to protect his own
liberty” (Weaver v. Massachusetts (2017) 582 U.S. ––––,
––––, 137 S.Ct. 1899, 1908, 198 L.Ed.2d 420), guarantees
to the accused the “ultimate authority to make certain
fundamental decisions regarding the case” (Jones v.
Barnes (1983) 463 U.S. 745, 751, 103 S.Ct. 3308, 77
L.Ed.2d 987 (Barnes)).

However, “the right to self-representation is not
absolute,” particularly in capital cases where there are
competing constitutional concerns. (Martinez v. Court of
Appeal of Cal., Fourth Appellate Dist. (2000) 528 U.S.
152, 161, 120 S.Ct. 684, 145 L.Ed.2d 597 (Martinez).)
The Eighth Amendment’s prohibition on cruel and
unusual punishment imposes a “high requirement of
reliability [in] the determination that death is the
appropriate penalty in a particular case.” ( ***171 People
v. Bloom (1989) 48 Cal.3d 1194, 1228, 259 Cal.Rptr. 669,
774 P.2d 698 (Bloom).) The high court has long
recognized that the Eighth **49 Amendment requires “a
greater degree of reliability when the death sentence is
imposed” because of the “qualitative difference between
death and other penalties.” (Lockett v. Ohio (1978) 438
U.S. 586, 604, 98 S.Ct. 2954, 57 L.Ed.2d 973 (plur. opn.);
see also Beck v. Alabama (1980) 447 U.S. 625, 637, 100
S.Ct. 2382, 65 L.Ed.2d 392 (Beck); cf. People v. Horton
(1995) 11 Cal. 4th 1068, 1134, 47 Cal.Rptr.2d 516, 906
P.2d 478.) This heightened requirement reflects “the
fundamental respect for humanity underlying the Eighth
Amendment” (Woodson, supra, 428 U.S. at p. 304, 96
S.Ct. 2978) and the “ ‘vital importance to the defendant
and to the community that any decision to impose the
death sentence be, and appear to be, based on reason
rather than caprice or emotion’ ” (Beck, at pp. 637–638,
100 S.Ct. 2382). As a result, certain procedural safeguards
may be warranted in a capital case because they mitigate
“risk [that] cannot be tolerated in a case in which the
defendant’s life is at stake.” (Id. at p. 637, 100 S.Ct. 2382;
see id. at pp. 637–638 & fn. 14, 100 S.Ct. 2382 [requiring
lesser included offense instruction in a capital case but
“not decid[ing] whether the Due Process Clause would
require the giving of such instructions in a noncapital
case”].)
This court has recognized that the “rights and decisions
that are normally personal to a criminal defendant may be
limited or overruled in the service of *1033 death penalty
reliability.” (People v. Mai (2013) 57 Cal.4th 986, 1055,
161 Cal.Rptr.3d 1, 305 P.3d 1175 (Mai); see Martinez,
supra, 528 U.S. at p. 162, 120 S.Ct. 684 [“[T]he
government’s interest in ensuring the integrity ... of the
trial at times outweighs the defendant’s interest in acting
as his own lawyer.”].) In particular, we have long
recognized that section 1018, which reflects the
legislative judgment that heightened requirements for
guilty pleas to capital crimes are necessary to mitigate the
risk of unreliability in California’s death penalty scheme,
strikes a constitutionally valid balance between competing
Sixth Amendment and Eighth Amendment considerations.
In People v. Chadd (1981) 28 Cal.3d 739, 170 Cal.Rptr.
798, 621 P.2d 837 (Chadd), we upheld section 1018

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

45

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

against a constitutional challenge that the statute “denies
[the defendant] his ‘fundamental right’ to control the
ultimate course of the prosecution.” (Chadd, at p. 747,
170 Cal.Rptr. 798, 621 P.2d 837.) We explained that the
Legislature amended section 1018 to require capital
defendants to appear with counsel and obtain counsel’s
consent before pleading guilty “to serve as a further
independent safeguard against erroneous imposition of a
death sentence.” (Chadd, at p. 750, 170 Cal.Rptr. 798,
621 P.2d 837.) We noted that the amendments to section
1018 were part of a comprehensive revision of
California’s death penalty statutes in response to the
Eighth Amendment concerns raised in Furman v. Georgia
(1972) 408 U.S. 238, 92 S.Ct. 2726, 33 L.Ed.2d 346,
which held that the operation of the death penalty was
arbitrary at the time. (Chadd, at p. 750, 170 Cal.Rptr. 798,
621 P.2d 837 [chronicling legislative history of section
1018].)
Moreover, we rejected the Attorney General’s argument
that section 1018 as we construed it “is unconstitutional
because it allows counsel to ‘veto’ a capital defendant’s
decision to plead guilty.” (Chadd, supra, 28 Cal.3d at p.
747, 170 Cal.Rptr. 798, 621 P.2d 837.) We specifically
recognized that section 1018 was a constitutionally
permissible balance between the constitutional concerns
of reliability and defendant autonomy: “[The Attorney
General] fails to recognize the larger public interest at
stake in pleas of guilty to ***172 capital offenses. It is
true that in our system of justice the decision as to how to
plead to a criminal charge is personal to the defendant:
because the life, liberty or property at stake is his, so also
is the choice of plea. [Citation.] But it is no less true that
the Legislature has the power to regulate, in the public
interest, the manner in which that choice is exercised.”
(Chadd, at pp. 747–748, 170 Cal.Rptr. 798, 621 P.2d
837.) We continued, “The Attorney General in effect
stands Faretta on its head: from the defendant’s conceded
right to ‘make a defense’ in ‘an adversary criminal trial,’
the Attorney General attempts to infer a defendant’s right
to make no such defense and to have no such trial, even
when his life is at stake. But in capital cases, as noted
above, the state has a strong interest in reducing the risk
of mistaken judgments. Nothing in Faretta, either
expressly or impliedly, deprives the state of **50 the right
to conclude that the danger of erroneously imposing a
death sentence outweighs the minor infringement of
*1034 the right of self-representation resulting when
defendant’s right to plead guilty in capital cases is
subjected to the requirement of his counsel’s consent.”
(Id. at p. 751, 170 Cal.Rptr. 798, 621 P.2d 837.)
This holding — that section 1018 strikes a permissible
balance between Eighth Amendment reliability concerns

and the defendant’s Sixth Amendment interest in control
over an aspect of the defense — has been a consistent
through-line in our capital jurisprudence. In 2007, we
reaffirmed this understanding of section 1018 in People v.
Alfaro (2007) 41 Cal.4th 1277, 63 Cal.Rptr.3d 433, 163
P.3d 118 (Alfaro). Relying extensively on Chadd, we
concluded that defense counsel’s refusal to consent to a
guilty plea was reasonable where a capital defendant
sought to plead guilty in order “to prevent the
presentation of evidence regarding an accomplice.”
(Alfaro, at p. 1301, 63 Cal.Rptr.3d 433, 163 P.3d 118.)
We rejected the defendant’s argument that her desire to
plead guilty “concerned a fundamental aspect of her
defense that ... must remain within defendant’s control.”
(Id. at p. 1302, 63 Cal.Rptr.3d 433, 163 P.3d 118.) Our
unanimous opinion reaffirmed that “[t]he consent
requirement of section 1018 has its roots in the state’s
strong interest in reducing the risk of mistaken judgments
in capital cases and thereby maintaining the accuracy and
fairness of its criminal proceedings. [Citation.] The statute
constitutes legislative recognition of the severe
consequences of a guilty plea in a capital case, and
provides protection against an ill-advised guilty plea and
the erroneous imposition of a death sentence.” (Id. at p.
1300, 63 Cal.Rptr.3d 433, 163 P.3d 118.)
We have never suggested that autonomy interests
implicated by a capital defendant’s desire to plead guilty
take precedence over heightened reliability interests.
Rather, the baseline requirement that the prosecution
“discharge[ ] its burden of proof at the guilt and penalty
phases” has been the fundamental point of departure for
our evaluation of capital defendants’ autonomy rights.
(Bloom, supra, 48 Cal.3d at p. 1228, 259 Cal.Rptr. 669,
774 P.2d 698.) In such cases, we have reiterated that “a
defendant may not discharge his lawyer [in a capital case]
in order to enter ... a [guilty] plea over counsel’s
objection.” (Mai, supra, 57 Cal.4th at p. 1055, 161
Cal.Rptr.3d 1, 305 P.3d 1175; see People v. Daniels
(2017) 3 Cal.5th 961, 983, fn. 1, 221 Cal.Rptr.3d 777, 400
P.3d 385 (Daniels).)
Reliability concerns are particularly significant at the plea
phase, since the plea substitutes for the prosecution’s
discharge of the burden of proof, a bedrock component of
the adversarial process ensuring that outcomes are
reliable. (See ***173 Boykin v. Alabama (1969) 395 U.S.
238, 242, 89 S.Ct. 1709, 23 L.Ed.2d 274 [describing the
plea as “itself a conviction”].) Thus “a trial, even one
where a defense is voluntarily forgone, is fundamentally
different from a guilty plea” because in a trial, “the state
[i]s put to its burden of proof.” (Daniels, supra, 3 Cal.5th
at p. 983, 221 Cal.Rptr.3d 777, 400 P.3d 385.) At the
same time, the defendant does not have the “absolute right

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

46

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

under the Constitution to have [a] guilty *1035 plea
accepted by [a] court.” (North Carolina v. Alford (1970)
400 U.S. 25, 38, fn. 11, 91 S.Ct. 160, 27 L.Ed.2d 162; see
Lafler v. Cooper (2012) 566 U.S. 156, 168, 132 S.Ct.
1376, 182 L.Ed.2d 398 [“It is, of course, true that
defendants have ‘no right to be offered a plea ... nor a
federal right that the judge accept it.’ ”].)
Finally, we have found similar legislative judgments
limiting a defendant’s prerogative to direct his
representation to be permissible because they further
society’s interests in the reliability of criminal judgments.
For example, a capital defendant cannot waive automatic
appeal of a judgment of death (Cal. Const., art. VI, § 11,
subd. (a); § 1239, subd. (b)) because “the state ... has an
indisputable interest in it which [a capital defendant]
cannot extinguish.” (People v. Stanworth (1969) 71
Cal.2d 820, 834, 80 Cal.Rptr. 49, 457 P.2d 889.) We have
likewise recognized the requirement that defendants be
represented by counsel in competency proceedings as a
constitutionally valid legislative choice insofar as it limits
defendants’ right of self-representation in service of
reliability. (People v. Lightsey (2012) 54 Cal.4th 668,
696–697, 143 Cal.Rptr.3d 589, 279 P.3d 1072 [noting
**51 special concern with the possibility for “breakdown
... in the process of meaningful adversarial testing central
to our system of justice”].) Section 1018 represents a
similarly valid legislative judgment in light of competing
constitutional considerations.

B.
The high court’s recent decision in McCoy does not upend
our longstanding precedent. In McCoy, the high court
reversed the conviction of a capital defendant whose
counsel had conceded his client’s guilt at trial over
defendant’s objections. (McCoy, supra, 584 U.S. at p. –––
–, 138 S.Ct. at p. 1512.) Before trial, McCoy’s attorney
had determined that the best strategy for avoiding a death
sentence was to admit to the three murder charges during
the guilt phase and plead for mercy during the penalty
phase. (Id. at p. 1506.) McCoy disagreed and was “
‘furious’ ” with his attorney’s strategy. (Ibid.) He insisted
that his attorney pursue acquittal instead. The trial court
denied McCoy’s request to remove his counsel and
defense counsel’s request to be relieved if McCoy secured
other counsel. It instructed counsel to decide how to
proceed. At trial, McCoy’s counsel acknowledged during
his opening statement that the evidence unambiguously

showed McCoy committed the murders, while McCoy
testified he was innocent. (Id. at p. 1507.) The jury
ultimately found the defendant guilty and returned three
death verdicts. (Ibid.)
The high court reasoned that by availing himself of the
Sixth Amendment right to assistance of counsel, McCoy
did not “surrender control entirely to counsel.” (McCoy,
supra, 584 U.S. at p. ––––, 138 S.Ct. at p. 1508.) While
*1036 “[t]rial management is the lawyer’s province,” the
court explained, “[s]ome decisions ... are reserved for the
client — notably, whether to plead guilty, waive the right
to a jury trial, testify in one’s own behalf, and forgo an
appeal.” (Ibid; see also id. at p. 1505 [“[I]t is the
defendant’s prerogative, not counsel’s, to decide on the
objective of his defense: to admit guilt in the hope of
gaining mercy at the sentencing stage, or to ***174
maintain his innocence, leaving it to the State to prove his
guilt beyond a reasonable doubt.”].) The high court
concluded that because McCoy’s decision to assert
innocence was a choice about the objectives of his case,
his counsel could not override that decision over his
objections. (Id. at pp. 1508–1509.)
Although McCoy explained that the choice of “whether to
plead guilty” (McCoy, supra, 584 U.S. at p. ––––, 138
S.Ct. at p. 1508) or “to admit guilt in the hope of gaining
mercy at the sentencing stage” is “the defendant’s
prerogative” (id. at p. 1505), the high court was not
announcing any new legal principle in doing so. Rather, it
was restating established Sixth Amendment principles, as
evidenced by its citation to Jones v. Barnes, supra, 463
U.S. 745, 103 S.Ct. 3308, which in turn relied on earlier
authority to explain that “the accused has the ultimate
authority to make certain fundamental decisions regarding
the case, as to whether to plead guilty, waive a jury,
testify in his or her own behalf, or take an appeal, see
Wainwright v. Sykes, 433 U.S. 72, 93 n. 1, 97 S.Ct. 2497,
53 L.Ed.2d 594 (1977) (Burger, C.J., concurring); ABA
Standards for Criminal Justice 4-5.2, 21-2.2 (2d ed.
1980).” (Barnes, at p. 751, 103 S.Ct. 3308; see McCoy, at
p. ––––, 138 S.Ct. at p. 1508.) This dicta adds nothing to
the legal landscape that already existed when we decided
Chadd and Alfaro.
More importantly, the Eighth Amendment concerns
reflected in section 1018 were not at issue in McCoy.
Rather than insist upon pleading guilty, the defendant in
McCoy sought to maintain his innocence and subject his
case to the rigors of the adversarial process. He did not
seek to avoid that process and its accompanying
safeguards. As a result, the high court had no occasion to
address, and did not address, the heightened Eighth
Amendment reliability interests where a capital defendant

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

47

People v. Frederickson, 8 Cal.5th 963 (2020)
457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal. Daily Op. Serv. 896...

seeks to forgo trial on the issue of his guilt. McCoy did
not weigh a defendant’s autonomy interests against
countervailing reliability interests because there was no
conflict between the defendant’s objectives and the
reliability interests of the Eighth Amendment; it did not
address whether a capital defendant may enter a guilty
plea against the advice of counsel in the face of a state
statute requiring counsel’s consent as a measure to lessen
the risk of a mistaken judgment. (See **52 People v.
Ghobrial (2018) 5 Cal.5th 250, 285, 234 Cal.Rptr.3d 669,
420 P.3d 179 [“ ‘[A] decision is not authority for
propositions not considered.’ ”].) By contrast, we
expressly addressed the interplay between the heightened
need for reliability *1037 in capital cases and a
defendant’s right to control his own defense in Chadd,
and our reasoning and holding remain controlling.
It is no light matter to find a statute unconstitutional,
particularly one that we have upheld on numerous
occasions. That is especially true here, given the
ramifications of a guilty plea in a capital case. (Chadd,
supra, 28 Cal.3d at p. 748, 170 Cal.Rptr. 798, 621 P.2d
837.) Against the backdrop of all that we have said about
End of Document

the constitutionality and importance of section 1018’s
requirement of counsel’s consent, McCoy’s broad dicta is
not a sufficient basis for jettisoning decades of precedent.
This is not to suggest that any restriction on a capital
defendant’s right to his own defense in the name of
reliability is constitutionally valid. That right is
foundational and rooted in “ ‘respect for the individual
which is the lifeblood of the law.’ ” (Faretta, supra, 422
U.S. at p. 834, 95 S.Ct. 2525.) The balance to be struck is
a delicate one, and with respect to section 1018, it is a
balance we struck decades ago.
***175 I would hold that the trial court did not err in
refusing to allow Frederickson to plead guilty without
counsel’s consent. In all other respects, I join the opinion
of the court.
All Citations
8 Cal.5th 963, 457 P.3d 1, 258 Cal.Rptr.3d 114, 20 Cal.
Daily Op. Serv. 896, 2020 Daily Journal D.A.R. 840
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

48

Appendix B
Order denying petition for rehearing,
People v. Frederickson, No. S067392 (April 22, 2020)

Appendix C
California Penal Code Provisions
Former Section 859a
While the charge remains pending before the magistrate and when the
defendant's counsel is present, the defendant may plead guilty to the offense
charged, or, with the consent of the magistrate and the district attorney or other
counsel for the people, plead nolo contendere to the offense charged or plead
guilty or nolo contendere to any other offense the commission of which is
necessarily included in that with which he or she is charged, or to an attempt to
commit the offense charged and to the previous conviction or convictions of crime
if charged upon a plea of guilty or nolo contendere. The magistrate may then fix a
reasonable bail as provided by this code, and upon failure to deposit the bail or
surety, shall immediately commit the defendant to the sheriff.
(a) If the public offense charged is a felony not punishable with death, the
magistrate shall immediately upon the appearance of counsel for the defendant
read the complaint to the defendant and ask him or her whether he or she pleads
guilty or not guilty to the offense charged therein and to a previous conviction or
convictions of crime if charged. ¶
Upon accepting the plea of guilty or nolo contendere the magistrate shall certify
the case, including a copy of all proceedings therein and any testimony that in his
or her discretion he or she may require to be taken, to the court in which
judgment is to be pronounced at the time specified under subdivision (b), and
thereupon the proceedings shall be had as if the defendant had pleaded guilty in
that court. This subdivision shall not be construed to authorize the receiving of a
plea of guilty or nolo contendere from any defendant not represented by counsel.
If the defendant subsequently files a written motion to withdraw the plea under
Section 1018, the motion shall be heard and determined by the court before which
the plea was entered.
(b) Notwithstanding Section 1191 or 1203, the magistrate shall, upon the receipt
of a plea of guilty or nolo contendere and upon the performance of the other
duties of the magistrate under this section, immediately appoint a time for
pronouncing judgment in the superior court or municipal court and refer the case
to the probation officer if eligible for probation, as prescribed in Section 1191.
Section 987.9 [excerpt]
(a) In the trial of a capital case or a case under subdivision (a) of Section 190.05,
the indigent defendant, through the defendant's counsel, may request the court
for funds for the specific payment of investigators, experts, and others for the
preparation or presentation of the defense. The application for funds shall be by

affidavit and shall specify that the funds are reasonably necessary for the
preparation or presentation of the defense. The fact that an application has been
made shall be confidential and the contents of the application shall be
confidential. Upon receipt of an application, a judge of the court, other than the
trial judge presiding over the case in question, shall rule on the reasonableness of
the request and shall dis-burse an appropriate amount of money to the
defendant's attorney. The ruling on the reasonableness of the request shall be
made at an in camera hearing. In making the ruling, the court shall be guided by
the need to provide a complete and full defense for the defendant.
Section 988
The arraignment must be made by the court, or by the clerk or prosecuting
attorney under its direction, and consists in reading the accusatory pleading to
the defendant and delivering to the defendant a true copy thereof, and of the
endorsements thereon, if any, including the list of witnesses, and asking the
defendant whether the defendant pleads guilty or not guilty to the accusatory
pleading; provided, that where the accusatory pleading is a complaint charging a
misdemeanor, a copy of the same need not be delivered to any defendant unless
requested by the defendant.
Section 1003
Both the demurrer and plea must be put in, in open Court, either at the time of
the arraignment or at such other time as may be allowed to the defendant for that
purpose.
Section 1017
Every plea must be made in open court and, may be oral or in writing, shall be
entered upon the minutes of the court, and shall be taken down in shorthand by
the official reporter if one is present. All pleas of guilty or nolo contendere to
misdemeanors or felonies shall be oral or in writing. . . .
Section 1018 [excerpt]
No plea of guilty of a felony for which the maximum punishment is death, or life
imprisonment without the possibility of parole, shall be received from a defendant
who does not appear with counsel, nor shall that plea be received without the
consent of the defendant’s counsel.
Former Section 1462
(a) Each municipal and justice court shall have jurisdiction in all criminal cases
amounting to misdemeanor, where the offense charged was committed within the
county in which the municipal or justice court is established except those of which
the juvenile court is given jurisdiction and those of which other courts are given

exclusive jurisdiction. Each municipal and justice court shall have exclusive
jurisdiction in all cases involving the violation of ordinances of cities or towns
situated within the district in which the court is established.
(b) Each municipal and justice court shall have jurisdiction in all noncapital
criminal cases to receive a plea of guilty or nolo contendere, appoint a time for
pronouncing judgment under Section 859a, pronounce judgment, and refer the
case to the probation officer if eligible for probation.
(c) The superior courts shall have jurisdiction in all misdemeanor criminal cases
to receive a plea of guilty or nolo contendere, appoint a time for pronouncing
judgment, and pronounce judgment.

